<html>
<title> - STATE, FOREIGN OPERATIONS, AND RELATED PROGRAMS APPROPRIATIONS FOR FISCAL YEAR 2017</title>
<body><pre>[Senate Hearing 114-]
[From the U.S. Government Publishing Office]



 
  STATE, FOREIGN OPERATIONS, AND RELATED PROGRAMS APPROPRIATIONS FOR 
                            FISCAL YEAR 2017

                              ----------                              


                      WEDNESDAY, FEBRUARY 24, 2016

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

    The subcommittee met at 2:05 p.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Lindsey Graham (chairman) 
presiding.
    Present: Senators Graham, Kirk, Blunt, Boozman, Moran, 
Lankford, Daines, Leahy, Mikulski, Durbin, Coons, and Murphy.

                        U.S. DEPARTMENT OF STATE

                        Office of the Secretary

STATEMENT OF HON. JOHN F. KERRY, SECRETARY


              opening statement of senator lindsey graham


    Senator Graham. The subcommittee will come to order. We are 
here to receive testimony from Secretary Kerry about the 
Department of State and foreign operations budget request.
    I am glad Senator Mikulski is here. She will make an 
opening statement, but I will start.
    The Secretary has a hard stop in 2 hours, so we will make 
sure everybody can ask questions. I want to thank the members 
of the subcommittee on both sides for being so active, so 
involved.
    I want to thank those who serve in the diplomatic corps. 
You do not get the recognition you deserve. You are an 
instrument of power as much as anybody in the military. You 
serve in very dangerous environments, and I just want to let 
you know that the soft power aspect of American foreign policy 
is just as important as hard power.
    This account is 1 percent of the Federal budget, give or 
take a bit. We have had a 12 percent cut since 2010. The world 
has not justified us spending less, in terms of engaging the 
world.
    Sequestration relief is much appreciated, but we need to 
get this behind us, because this account gives us options.
    If you do not want to bomb everybody, and you do not want 
to be in a constant state of war, you need tools in the 
toolbox. So the progress we made with AIDS and malaria, and 
engaging the world, particularly in Africa, has been 
astonishing. I want to thank all the members of the Republican 
Party and Democratic Party for seeing this account in a new 
light.
    I want to thank Secretary Kerry for his tireless work.
    I am going to quickly inventory the world as I see it.
    It is a very dangerous world. There have been over 60 
million refugees displaced in the last 5 to 6 years. In Syria 
alone, 4.7 million; 2.6 million in Turkey; over 1 million in 
Lebanon; 640,000 in Jordan, and it is probably actually more 
than that; 245,000 in Iraq; 117,000 in Egypt; Libya is becoming 
a failed state; and there is the Syrian conflict. I hope we can 
get a ceasefire, but we will hear more about that.
    I just want the world to know, and those who are seeking 
the highest office in the land, you better understand what is 
going on out there. Syria is a cancer for the region, and I 
very much worry that the next President needs to have a vision 
of the world consistent with the dangers that we face, and this 
account is an essential tool.
    The Iranian agreement whether you like it or not, the 
behavior since the agreement by the Iranians outside their 
nuclear compliance has been disturbing, to say the least.
    There are just multiple fronts, multiple friction points.
    Russia's involvement in Syria, along with the Iranians, is 
of great concern to me.
    North Korea seems to be marching down the road of 
developing missile technology that can reach out and strike the 
homeland. Five years, on March 15, is the anniversary of the 
Syrian conflict. When the people in Syria marched in the 
streets to demand a better life, I would say the world, in 
general, did not respond. There is no use blaming any one 
group.
    Secretary Kerry's speech when Assad crossed the redline, I 
think was your high point, certainly one of them, where you 
laid out the case of why Assad should be dealt with forcibly 
after he used chemical weapons on his own people and what he 
had done prior to that point.
    We are where we are, and I have never been more worried 
about a strike on the homeland than I am today. There are more 
terrorist organizations with weapons capability and safe havens 
to hit the homeland than any time since 9/11.
    This account is very important, in terms of trying to bring 
stability to the world, so I hope we can find a way to plus-up 
this account. If you do not look at it as national security in 
another form, you are making a huge mistake.
    Senator Leahy has been a joy to work with. I really 
appreciate our collaboration. And with that, I will turn it 
over to him.


                 statement of senator patrick j. leahy


    Senator Leahy. Thank you, Mr. Chairman. You and I have 
worked closely together for years on this budget. Obviously, as 
members of different parties, there will be some things we 
disagree about. But the vast majority of things in this budget 
we do agree about. That is why it always passes.
    Secretary Kerry, it is good to have you here. You have one 
of the most difficult jobs in the Government and in the most 
difficult time that I can remember.
    The world is on fire either literally or figuratively in so 
many places, it is hard to keep track. I do not think there is 
anybody who works harder than you do to put them out. I think 
of the times you and I will be talking here or at the White 
House or State Department, and a few hours later you are on the 
news in another capital, another part of the world, 
representing the United States.
    Our job is to give you the resources you need. Senator 
Graham and I will work hard on that. I appreciate also the fact 
that Senator Graham's staff and mine can work so closely 
together.
    I look at some of the problems we face.
    Afghanistan, 14 years after 9/11, what is happening there 
is appalling. Despite all the sacrifices of our soldiers, and 
hundreds of billions of dollars spent, much of that country 
today is under Taliban control. The opium business is booming. 
The government is widely regarded as ineffective and corrupt. 
And very little of the investment of American taxpayers in 
Afghanistan can be sustained by the Afghans.
    In Iraq, I believe the American people were misled about 
the justification for the war. They were assured that our 
troops would be greeted as liberators and promised Iraq would 
spend its own oil revenues to rebuild. None of that turned out 
to be remotely true. We alienated our friends. We wasted 
hundreds of billions of dollars while critical needs here at 
home were ignored.
    Today, Iraq's ability to survive as a nation is far from 
certain. The corruption and chaos there spawned the Islamic 
State of Iraq and the Levant (ISIL). They were able to walk 
away with a lot of our equipment, because the Iraqis let them. 
The American people will be paying to care for thousands of 
wounded veterans from that war for a lifetime, certainly even 
beyond mine.
    Meanwhile, Syria is the world's biggest humanitarian 
catastrophe. It seems the strategy of arming the so-called 
moderate opposition is largely based on wishful thinking.
    And Libya, Egypt, Yemen, Somalia, Nigeria, and other parts 
of North Africa, are dealing with their own terrorist threats. 
Our global war on terrorism that began against Osama bin Laden 
and a small number of Al Qaeda fighters in Afghanistan appears 
to be succeeding about as well as our decades' old so-called 
war on drugs.
    I do not say this to cast blame on the administration, but 
to emphasize the colossal price the American people continue to 
pay for the hubris and naivete of some of our past leaders.
    Some of today's candidates for President who blame Congress 
and the Federal Government want the American people to believe 
the solution is simply to listen to the lobbyists and defense 
contractors and buy more weapons and cut the budgets of 
everything else.
    They have learned very little from Iraq and Afghanistan. 
There, some of the defense contractors got rich. American 
soldiers, though, paid with their lives and limbs.
    Mr. Secretary, you served in the military. And you know, 
having been in combat, what they went through. The taxpayers 
lost 1,000 billion dollars, and those countries are plagued by 
violence and misery.
    So there is a lot that should be done and a lot that we 
should learn from those experiences.
    On the positive side, I am among those who applaud the 
agreement with Iran. I applaud the restoration of diplomatic 
relations with Cuba.
    Mr. Secretary, I was moved when I saw the Cubans standing 
not just inside our Embassy, but outside on the street when you 
had the American flag raised at our Embassy for the first time 
in over 50 years. I will never forget, and I do not think you 
will either, the cheers and the applause that came from the 
average Cubans.
    Now, none of those things are more than steps in a long 
process in resolving big differences. But they are historic 
achievements and steps long overdue.
    I feel the same way about the Paris climate change 
agreement. I commend you for not giving up, for sticking with 
it. Unless we work together to stop climate change we are going 
to recklessly go down the path that scientists overwhelmingly 
agree would be catastrophic for life on Earth.
    Now, your fiscal year 2017 budget looks a lot like last 
year. For the most part, that is not a bad thing, except for 
the $1 billion cut in humanitarian.
    I think it is safe to say I also speak for the chairman 
that we would like to move quickly on this. We know it is 
important. You have an important job. The State Department has 
an important job and the two of us will do our best.
    Thank you, Mr. Chairman.


                statement of senator barbara a. mikulski


    Senator Mikulski. Mr. Chairman, I will be very brief, 
because we want to get to the testimony. And given such 
excellent attendance, I know we want to get to Q&A.
    I just want to say, first of all, we welcome Secretary 
Kerry. This will be the last time he will be testifying before 
this committee at the same time I will be sitting here in this 
chair, so it is a poignant time as we look back on where we 
have served over the years, and we look ahead to the challenges 
we have.
    You have a difficult job. The world seems to be getting 
smaller because of technology, but larger in terms of problems. 
While you have a difficult job, so do the men and women who 
work at the State Department, for the State Department, but 
they are really working for the United States of America.
    As I review the President's budget, it once again shows 
that the defense of our country lies not only in the Department 
of Defense, but others who exercise other levers of power and 
presence, power and presence that really helps advocate the 
values and security needs of our country, whether it is a 
treasured allies like Israel, or whether it is desperate 
refugees seeking help.
    We look forward to hearing the issues related also to not 
only ISIL but also other important issues like global health, 
what is happening to women in the world, and what also is 
undermining the stability of countries, like climate change, 
and so on.
    So we look forward to this testimony. I wanted to come 
personally to thank you publicly for your service, and I think 
the way we thank you is to just move our agenda and not engage 
in any delays.
    Thank you very much, Mr. Chairman.
    Senator Graham. Mr. Secretary. We look forward to your 
testimony, assuming that you are not chosen by Trump to be 
Secretary of State this will be your last appearance. 
[Laughter.]
    With that in mind, please proceed.
    Senator Mikulski. Welcome back from another troubled spot.
    Secretary Kerry. I am going to leave that one alone, Mr. 
Chairman. [Laughter.]
    Senator Graham. I have asked the Inspector General for the 
U.S. Department of State and the Broadcasting Board of 
Governors, the Special Inspector General for Afghanistan 
Reconstruction, and the Chief Executive Officer of the 
Broadcasting Board of Governors to submit written testimony on 
their respective fiscal year 2017 budget requests, which will 
appear in the record following Secretary Kerry's opening 
statement.


                summary statement of hon. john f. kerry


    Secretary Kerry. First of all, Mr. Chairman and Ranking 
Member Leahy and Senator Mikulski, Chair, let me just thank all 
of you profoundly for the bipartisanship and the seriousness of 
purpose with which each and every one of you approach these 
issues.
    And I know, Mr. Chairman, you were angling, as I did, for a 
different seat in a different house, but I am personally glad 
you are back here, and you are a terrific steward of this 
enterprise with some complications in your own party with 
respect to some of these issues. But I personally really 
respect and appreciate your leadership on a lot of this.
    And, Senator Leahy likewise through the years, we have done 
a lot and you have been a leader on so many of these things, 
demining and human rights, and run the list.
    And, Senator Mikulski, you are just a tour de force, and we 
are all going to miss you very, very much.
    So I am going to try and cut through this pretty quickly if 
I can, because I know you want to ask questions, but I do want 
to put into perspective what we are trying to do here.
    Mr. Chairman, you mentioned that the budget is about 1 
percent of the budget of the United States of America, $50 
billion. I would say to everybody here that is about the 
minimum price that we should be paying for our leadership and 
for what we accomplish with this in terms of the security of 
our people, the advancement of our interests, the advancement 
of our values and ideals.
    And I will tell you bluntly and flatly, after spending 28 
full years on the Foreign Relations Committee and in the 
Senate, and a little more into the 29th, never have I seen the 
country more engaged in more places all at the same time with 
more issues of consequence. And the scope of that engagement 
obviously is to protect our citizens and protect our interests.
    But we are confronted today with a combination of perils as 
old as nationalist aggression and as new as cyber warfare, by 
dictators who run roughshod over global norms, and by violent 
extremists who combine modern media with medieval thinking to 
wage war on civilization itself.
    And despite the dangers, I really believe that we Americans 
have every reason for confidence. In recent years, our economy 
has added more jobs than the rest of the industrialized world 
combined. Our Armed Forces are second to none in the world, and 
it is not even close.
    Our alliances in Europe and Asia are vigilant and strong, 
and the budget reflects the plussing-up of our effort to 
strengthen Europe.
    Our citizens are unmatched in their generosity and 
commitment to humanitarian causes and to civil society.
    Now, frankly, we hear--I hear it, I hear it sometimes in my 
travels; I certainly hear it in this country--a lot of 
handwringing about what is going on. But I have to tell you, I 
have the greatest respect for my colleagues, my counterparts 
around the world, and I have built strong friendships and 
relationships with them, but I would not switch places, with 
all due respect, with one foreign minister in the world. And 
nor do I want our country to retreat to some golden age that is 
illusionary about the past.
    Here and now, I believe we have just enormous opportunities 
staring us in the face: the energy transformation; young people 
thirsty for opportunity, people who really brought us some of 
the unrest in the Middle East in their desire to share some of 
the prosperity and opportunity of the world.
    In the past year, we did reach a historic agreement with 
Iran. Some people opposed it; some people were for it. And that 
is the way our country works.
    But the fact is that just the other day, the commanding 
general of the Israeli Defense Forces announced in a speech to 
a security conference in Israel that because of that agreement, 
Israel no longer faces an existential threat from Iran in the 
way that it did.
    In Paris in December, we joined governments from more than 
190 nations in approving a comprehensive agreement to curb 
greenhouse gas emissions and limit the most harmful 
consequences of climate change. And now we are determined to 
implement that.
    We also believe, and the evidence is there in economies 
that are transforming, that this is one of the greatest 
economic opportunities of all time: 4.5 billion users today, 
going up to 9 billion users in the next 20, 30 years, for an 
economy that will be at least six to larger trillions of 
dollars in size, and some $50 trillion is going to be spent in 
the next 20 or 30 years in this energy transformation.
    Those are jobs. That is opportunity. And that is an 
enormous marketplace, bigger than the technology marketplace of 
the 1990s, which created the greatest wealth this Nation has 
seen since the 1920s.
    Just this month, we signed the Trans-Pacific Partnership, 
which will ensure a level playing field in the Pacific for 
American businesses and workers, and it will reassert our 
leadership in a region that is vital to our interests. And 
obviously, we are asking Congress to approve this pact, so we 
can begin to accrue its benefits as quickly as possible.
    In Europe, we are increasing support for our security 
initiative, the reassurance initiative. We are increasing it 
fourfold, and we are giving Russia a clear choice between 
continued sanctions and meeting its obligations to a sovereign 
and democratic Ukraine.
    In our hemisphere, we are helping Colombia to try to end 
the war, the longest-running civil war on the planet. And we 
are aiding our partners in Central America to implement new 
procedures to prevent the flow of migrants, and particularly 
young children across the border. And we are seeking 
supplemental funds to minimize the danger to public health from 
the Zika virus.
    In Asia, we are standing with our allies in opposition to 
the threats posed by a belligerent Democratic People's Republic 
of Korea (DPRK). We are helping Afghanistan and Pakistan to try 
to counter violent extremism. We are deepening our strategic 
dialogue with India. We are supporting democratic gains in Sri 
Lanka and Burma. And we are encouraging the peaceful resolution 
of competing maritime claims in the South China Sea.
    And we are doing things in Africa, obviously, with the 
African Union Mission in Somalia (AMISOM), with efforts in 
Nigeria to fight back against Boko Haram, al-Shabaab, and 
others. And we can talk about that in the course of this 
morning.
    We obviously have an enormous challenge with violent 
extremism that is growing among young people who make up the 
majority of almost every country where there are problems 
today. Look at every country--Northern Africa, Middle East, 
South-Central Asia, Asia--65 and 70 percent under the age of 35 
or under the age even of 30; 50 percent of the population is 
under the age of 18, 21.
    And they do not have jobs. They do not have the promise of 
a future. So if their minds are not going to be twisted by 
people who are willing to go out and lie about a religion, and 
if we are not going to find them in one extremist movement or 
another somewhere in the world, or in one failing state or 
another because of corruption or other problems, we need to 
understand the security value for our country of investing 
through this kind of process.
    My final comment, because I want to leave time for 
questions, is, just quickly, the United States and Russia chair 
this effort to try to achieve a cessation of hostilities. And 
President Obama and President Putin agree the cessation of 
hostilities should begin on Saturday morning, including all the 
groups who are willing to cooperate, with the exception of 
Daesh and al-Nusra and any other terrorist group designated by 
the U.N. Security Council.
    Now, I have to tell you, my friends, I cannot sit here and 
tell you I know this is going to work, but I know this: If it 
does not work, the potential is there that Syria will be 
utterly destroyed, that Europe will be flooded with even more 
migrants, and the nature and character and culture of that 
entity will be challenged beyond belief; that the unrest and 
dislocation will become even worse of what is already the 
greatest humanitarian challenge since World War II.
    So we have our work cut out for us, and the fact is that we 
need to make certain that we are exploring and exhausting every 
option of diplomatic resolution, of peaceful resolution at the 
table.
    Ultimately, people are going to have to come to the table 
to resolve whatever the aftermath is going to be. We are trying 
to prevent that from being disastrous. And I hope that, in the 
days ahead, we can make this cessation work, get to the table, 
where we will test--I repeat, test--not provide certainty, but 
test the seriousness of Russia and Iran and others to find a 
political solution, which provides Syria with a road ahead 
without an Assad, because you cannot end the war with him, that 
is going to provide a choice for the Syrian people.
    So we seek your support to stay at the forefront of the 
international challenges--humanitarian response, the worldwide 
refugee challenge, global health, the President's Emergency 
Plan for AIDS Relief (PEPFAR), the President's Malaria 
Initiative, other things, most importantly on behalf of 
democracy, freedom of the press, human rights, and the rule of 
law. We are launching a new initiative to try to protect 
adolescent girls, to adequately fund the people and the 
platforms that help America to effectively protect our 
interests.
    As you have remarked, this is the last budget of the Obama 
administration, and I ask for its full consideration. I welcome 
your questions. I appreciate your counsel, and I seek your 
backing.
    But above all, let me just say to all of you how profoundly 
privileged I feel to have had the chance to work with all of 
you on support of an agenda that reflects not only the most 
fundamental values of our country, but I believe, in the end, 
the hopes of the world. And that is the leadership privilege 
that we have, and we need to exercise it.
    [The statements follow:]
                Prepared Statement of Hon. John F. Kerry
    Mr. Chairman, Senator Leahy, thank you. I appreciate the chance to 
testify on behalf of the administration's budget request for the State 
Department and related agencies for fiscal year 2017.
    Our request this year is roughly level with last year's--right 
around fifty billion dollars. That amount, though substantial, is equal 
to only about 1 percent of the Federal budget. We seek these resources 
to sustain America's international engagement, which is deeper and more 
wide-ranging today than ever before in our history.
    The unprecedented scope of our leadership is warranted by the mix 
of opportunities and challenges we face. We are confronted by dangers 
as old as excessive nationalism and as new as cyber warfare, by 
dictators who run roughshod over international norms, by failing and 
fragile states, by infectious disease and by violent extremists who 
combine modern media with medieval thinking to murder, enslave, and 
wage war on civilization itself.
    In the face of such challenges, the United States and its citizens 
remain firmly committed to the pursuit of international peace, 
prosperity, and the rule of law. The administration's fiscal year 2017 
budget request embodies every aspect of that commitment. It is a 
reflection of our country's wide-ranging interests, of what we are 
against--and most important--what we are for.
    There's a reason why most people in most places still turn to the 
United States when important work needs to be done. It's not because 
anyone expects or wants us to shoulder the full burden--but because we 
can be counted on to lead in the right direction and toward the right 
goals.
    Make no mistake, we live at a moment filled with peril and 
complexity, but we Americans also have ample grounds for confidence. In 
recent years, our economy has added more jobs than the rest of the 
industrialized world combined. Our armed forces are by far the world's 
strongest and best. Our alliances in Europe and Asia are energized. We 
have reached historic multilateral accords on Iran's nuclear program, 
climate change, and trans-Pacific trade. We have witnessed important 
democratic gains in, among other places, Sri Lanka, Nigeria, and Burma. 
We helped facilitate what we hope will be a landmark peace agreement in 
Colombia. We have enhanced our position throughout the hemisphere by 
resuming diplomatic relations with Cuba. We marshalled a global 
campaign to save lives by containing the Ebola virus; and we are the 
leader in championing the empowerment of women and respect for the full 
range of internationally recognized human rights. We have also taken 
the lead in mobilizing international solidarity in the fight against 
such terrorist groups as Daesh, al-Qa'ida, Boko Haram, and al-Shabab--
groups that have absolutely nothing to offer anyone except destruction 
and death.
    From the vantage point of America's national security, we begin 
2016 with a long agenda focused on key priorities but understanding the 
potential for emergencies to arise at any moment. We think it essential 
to make full use of every available foreign policy tool--from carrots 
to coercion--but with an emphasis on persuading governments overseas 
not just to do what we want, but to want what we want. We will act 
alone when we must, but with allies, partners and friends when possible 
on every continent and in every situation where our interests are at 
risk. We will respond to immediate needs, but with long-term 
requirements in mind. And we will always be conscious that the State 
Department's principal responsibility is not to interpret and justify 
foreign perspectives to the United States, but to defend and advance 
America's well-being in a fast-changing world.
    I will turn now to the specifics of the administration's budget 
request for the coming fiscal year.
    The funding we seek is in two parts; the first consists of a base 
amount of $35.2 billion. These resources will deepen cooperation with 
our allies and regional partners and bolster American leadership at the 
U.N. and other multilateral organizations. They will protect U.S. 
diplomatic personnel, platforms, and information, while also helping us 
to mitigate the harmful consequences of climate change, promote human 
rights, combat trafficking in persons, and continue valuable 
educational exchanges. Worldwide, they will furnish life-saving 
humanitarian assistance, foster growth, reduce poverty, increase access 
to education, combat disease, and promote democratic governance and the 
rule of law.
    The Overseas Contingency Operations portion of our budget is $14.9 
billion and will improve our ability to prevent, respond to, and 
recover from crises abroad; contribute to new and ongoing peacekeeping 
and U.N. special political missions; help allies and partners such as 
Afghanistan and Pakistan counter threats; step up our efforts to 
counter terrorist organizations; and sustain security programs and 
Embassy construction at high risk posts.
    The number one goal of U.S. foreign policy is to keep Americans 
safe. To that end, this year's budget seeks resources to enhance our 
Nation's leadership of the 65-member global coalition to degrade and 
destroy the terrorist group Daesh. Our strategy is to combine our 
power--and the power of our partners--to degrade Daesh's command 
structure, shrink the territory under its control, curb its financing, 
hammer its economic assets, discredit its lies, slow its recruitment, 
and block any attempt to expand its networks. As President Obama has 
made clear, the murderous conduct that Daesh is trying to foment must 
be opposed with unity, strength, and a determination on our part to 
persist until we prevail. That determination has several dimensions:

  --Militarily, we are intensifying pressure through coalition air 
        strikes backed by local partners on the ground, a stepped-up 
        training and supply effort, the deployment of Special Forces 
        advisers, improved targeting, the systematic disruption of 
        enemy supply lines, and coordinated planning of future actions.
  --To consolidate the important territorial gains made thus far, we 
        are stressing the importance of stabilizing communities freed 
        from Daesh in Syria and Iraq.
  --We are helping the government in Baghdad as it seeks to broaden and 
        professionalize its security forces and to liberate portions of 
        the country still occupied by Daesh.
  --We continue to strengthen our regional partners, including Jordan 
        and Lebanon, and to provide humanitarian assistance to people 
        impacted by the conflict inside Syria, in neighboring 
        countries, and beyond.
  --We are supporting a broad-based diplomatic initiative, chaired by 
        U.N. Special Envoy Staffan de Mistura, and aimed at achieving a 
        political solution to the Syrian civil war that will de-
        escalate the conflict, isolate the terrorists, provide for a 
        transition in governance, and make possible the kind of 
        peaceful, inclusive, pluralist, and fully sovereign country 
        that most Syrians want. To that end, on February 11, we 
        announced a plan to ensure access to humanitarian supplies for 
        all Syrians in need, and to arrange a cessation of hostilities 
        that we hope will evolve into a durable and nationwide 
        ceasefire. The full and good faith implementation of these 
        measures--to ensure humanitarian access and end violence 
        against civilians in Syria--is a top foreign policy priority of 
        the United States.
  --Finally, we believe it essential that America speak with a single 
        voice in its resolve to defeat Daesh. Congressional approval of 
        a new and more specific authorization to use military force 
        against that terrorist organization would be welcomed by the 
        administration and help to demonstrate our unity and 
        commitment.

    In the 17 months since the Counter-Daesh coalition was formed, its 
aircraft have launched more than 10,000 air strikes. The combination of 
air support and ground assaults by local partners has reversed Daesh's 
momentum; driven the terrorists from such key cities as Kobani, Tikrit, 
and Ramadi; and weakened their position on the Syria-Turkish border. 
All told, Daesh has been forced to abandon almost a third of the 
populated territory it had previously controlled in these countries, 
and many of their fighters--faced by a deep cut in wages and no new 
towns to plunder--have either deserted or been executed trying to 
escape.
    The threat posed by violent extremism extends far beyond the Middle 
East and the particular dangers spawned by Daesh. Those threats cannot 
effectively be addressed solely--or even primarily--by military means. 
Our approach, therefore, is comprehensive, long term, and designed to 
enhance the capacity of countries and communities to defeat terrorist 
groups and prevent new ones from arising. To that end, our new Center 
for Global Engagement is helping partner nations to promote better 
governance, strengthen democratic institutions, expand access to a 
quality education, and foster development, especially in the most 
vulnerable parts of the world. On the diplomatic side, we are striving 
with the U.N. and our allies to solidify a new Government of National 
Accord in Libya, and to bring an end to the violence and political 
unrest that has plagued Yemen.
    Last year, with our P5+1 partners, we negotiated the Joint 
Comprehensive Plan of Action, cutting off each of Iran's potential 
pathways to a nuclear weapons capability, requiring it to take 
thousands of centrifuges offline, pour concrete into the core of its 
heavy water reactor, and ship abroad 98 percent of its stockpile of 
enriched uranium. Because of these steps and the rigorous inspection 
and verification measures to which Tehran has also agreed, the threat 
of a nuclear-armed Iran has receded, our allies are safer, and so are 
we. In months to come, we will continue our close consultations with 
Congress as we monitor Iran's compliance with the Joint Plan, and as we 
stand with our allies and friends against Iran's destabilizing policies 
and actions in the region.
    In part because of the challenges posed by Iran and other threats, 
we continue to engage in a record level of military, intelligence, and 
security cooperation with Israel. We remain committed to helping our 
ally confront its complex security environment and to ensure its 
qualitative military edge. Each day, we work with Israel to enforce 
sanctions and prevent terrorist organizations such as Hamas and 
Hizballah from obtaining the financing and weapons they seek. Since 
2009, we have provided more than $23 billion in foreign military 
financing to Israel, which constitutes the majority of what we have 
given to nations worldwide. Diplomatically, our support for Israel also 
remains rock solid as we continue to oppose efforts to delegitimize the 
Jewish state or to pass biased resolutions against it in international 
bodies.
    The Transatlantic partnership remains a cornerstone of American 
security and prosperity. We are in constant communication with our NATO 
and EU Allies and partners about a vast array of issues, including our 
steadfast backing for a democratic Ukraine, full implementation by 
every side of the Minsk protocols, and an increase in European 
Reassurance Initiative funding that will support the persistent 
presence of a brigade's combat team for 12 months out of the year and 
allow us to preposition warfighting equipment for a division 
headquarters and other enablers in Europe. This year's budget includes 
$953 million to enhance stability, prosperity, energy independence, and 
good governance in Ukraine and other partner countries facing direct 
pressure from Russia, in addition to fighting HIV/AIDS and countering 
violent extremism in the region.
    Closer to home, the fiscal year 2017 budget will continue our 
investment in Central America to fight corruption and crime and to 
attack the root economic causes of illegal migration to the United 
States, including by unaccompanied minors. Our Strategy for Engagement 
in Central America, with its whole-of-government approach, emphasis on 
building effective and accountable institutions and leveraging of 
private capital, will make it easier for our regional neighbors to live 
securely and with steadily increasing prosperity in their own 
countries.
    In addition, we are supporting Colombia as it seeks to finalize an 
agreement that will end the world's longest ongoing civil conflict. 
During President Santos's visit to Washington earlier this month, 
President Obama announced his intention to seek support for ``Peace 
Colombia,'' a successor to Plan Colombia that will spur recovery in 
communities ravaged by the many years of fighting. This project will 
highlight assistance to the victims of conflict, and aid in reinforcing 
security gains, clearing mines, demobilizing rebel fighters, and 
curbing trade in illegal narcotics. Our citizens may be proud that, in 
his remarks at the White House, President Santos attributed many of his 
country's advances ``to the fact that 15 years ago, when we were in 
serious straits, the Colombians received a friendly hand. That friendly 
hand came from here in Washington, from both sides of the aisle, 
Democrats and Republicans.''
    In Cuba, we have resumed diplomatic relations after 54 years. 
Although we continue to have sharp differences with the government in 
Havana regarding human rights, political prisoners, and other issues; 
we remain determined to support the aspirations of the Cuban people to 
plug into the global economy and live in greater freedom. We call on 
Cuban authorities to remove obstacles to participation by their 
citizens online and in commercial enterprises; and we urge Congress to 
lift the economic embargo, which has for decades been used as an excuse 
by the Castro regime to dodge blame for its own ill-advised policies.
    As evidenced by last week's ASEAN Summit hosted by President Obama 
at Sunnylands in California, the United States is an indispensable 
contributor to stability, prosperity, and peace in the Asia Pacific. 
Dangers in that region include North Korea's provocative nuclear and 
ballistic missile programs and tensions stemming from contested 
maritime claims in the South China Sea. United States policy is to 
encourage security cooperation and dialogue aimed at building 
confidence and ensuring that disputes are settled in keeping with 
international obligations and law. Our modernizing alliances with 
Japan, the Republic of Korea, Australia, and the Philippines--in 
addition to our partnership with New Zealand and close ties with 
ASEAN--provide a firm foundation for our strategy, as does our multi-
dimensional relationship with China. Our diplomatic priorities include 
support for human rights and the continued evolution of an open and 
democratic political process in Burma, where a freely-elected 
parliament has been seated for the first time, and where we have called 
for an end to discrimination and violence directed at the Rohingya 
Muslim minority.
    Our fiscal year 2017 budget includes $1.25 billion in assistance to 
the national unity government of Afghanistan to strengthen its 
institutions, bolster its security capabilities, repel attacks by 
violent extremists, implement economic reforms, preserve gains made 
over the last decade (including for women and girls), and move forward 
with a wide range of social programs. We are requesting $742 million in 
aid to Pakistan to support its citizens as they seek security, build 
democracy and sustain economic growth and development--even as the 
country continues to suffer from terrorist attacks. Last October, I 
traveled to every state in Central Asia to reaffirm America's 
friendship with the people in that part of the world and to discuss 
shared concerns in such areas as security, energy policy, development, 
and human rights. Also in 2015, we strongly endorsed democratic 
progress in Sri Lanka, while elevating our important strategic dialogue 
with India to include a commercial component, reflecting the five-fold 
increase in bilateral trade over the last decade.
    In Africa, our budget request reflects our emphasis on 
partnership--with civil society, with the private sector and with key 
allies. Our request of $7.1 billion will support democratic 
institutions, spur growth, promote gender equity, and protect human 
rights through such mechanisms as the Africa Growth and Opportunity 
Act, the Feed the Future initiative, Power Africa, and the President's 
``Stand with Civil Society Initiative.'' Our assistance also undergirds 
regional stability through the African Peacekeeping Rapid Response 
Partnership, the Security Governance Initiative, and strategically 
important international peace operations in, among other countries, the 
Central African Republic, the Democratic Republic of Congo, Mali, South 
Sudan, Sudan, and Somalia. Diplomatically, the United States continues 
to work closely with regional leaders to prevent crises--whether caused 
by outbreaks of disease, the threat of famine, or political 
controversy, as has recently been the cause of urgent concern in 
Burundi.
    American leadership is on display and making a positive difference 
in every part of the world including the far north, where the United 
States last year assumed chairmanship of the Arctic Council, a platform 
we are using to forge united action on the environment, fisheries 
conservation, and economic opportunity for local populations. But in 
addition to bilateral and regional issues, the United States is at the 
forefront of a host of efforts that address global challenges and 
uphold universal ideals.
    For example, the administration's fiscal year 2017 budget request 
reaffirms our country's premier role in the world economy. Each day, 
the men and women in our embassies and consulates work closely with 
representatives of the American private sector to identify new markets 
for our goods and services, ensure fair competition for foreign 
contracts, protect intellectual property, and advocate for U.S. 
interests under the law. This budget will advance U.S. engagement on 
global information and communications technology policy, encourage 
innovation, and protect the interests of our citizens in Internet 
freedom and digital privacy. Through our contributions to international 
financial institutions like the World Bank, we help to lift the 
economies of low-income countries and expand the global middle class.
    With the Trade Representative and others in the administration, the 
State Department works to conclude forward-looking agreements such as 
the recently signed Trans-Pacific Partnership (TPP) to ensure a level 
playing field for American businesses and workers and raise labor and 
environmental standards. The TPP is a landmark 12 nation pact that will 
lower trade barriers and advance American leadership in the Asia 
Pacific region, ensuring that the rules of the road for trade in this 
critical region are written by the United States and our partners, 
rather than others who do not share our interests and values. In asking 
Congress to approve the agreement, President Obama has pointed out that 
the TPP will cut 18,000 taxes on products that are made in America, 
boost U.S. exports, and support high-paying jobs, and he has expressed 
his interest in working closely with Congress to get the agreement 
approved as soon as possible. We are also working with USTR to pursue a 
similar high-standard approach to trade with Europe in the 
Transatlantic Trade and Investment Partnership, which is still being 
negotiated.
    In Paris last December, the United States joined governments from 
more than 190 nations in approving a comprehensive agreement to curb 
greenhouse gas emissions and limit the most harmful consequences of 
climate change. This historic pact represents the first time the world 
has declared that all countries have a responsibility to join in what 
must truly be a global commitment--through arrangements marked by 
transparency, a mandatory standard of review, and the flexibility a 
framework for successive and ambitious nationally determined climate 
targets. Our budget request of $983.9 million for the Global Climate 
Change Initiative and includes $500 million for the Green Climate Fund, 
which will help low income countries leverage public and private 
financing to reduce carbon pollution and bolster resilience to climate 
change.
    Our request for fiscal year 2017 allocates $4.7 billion for 
assessed dues and voluntary contributions to international 
organizations and peacekeeping efforts and to help other countries 
participate in such missions. The request includes contingency funding 
for new or expanded peace operations that may emerge outside the 
regular budget cycle. Tragically, the demand for peacekeeping 
assistance remains at an all-time high; and the United States neither 
can, nor should, take the lead in most cases. It serves both our 
interests and our values when U.N. agencies and regional organizations 
are able--with our encouragement and support--to quell violence, shield 
civilians from harm, promote reconciliation among rival groups, and 
ensure that women are fairly represented in all aspects of peacemaking 
and recovery projects.
    In fiscal year 2017, we are requesting $8.6 billion for bilateral 
and multilateral health programs. These funds support the President's 
Emergency Plan for AIDS Relief (PEPFAR); the Global Fund to Fight AIDS, 
TB, & Malaria; Gavi, the Vaccine Alliance and other critical maternal 
and child health programs; the Global Health Security Agenda; and an 
intensified campaign, launched by the White House, to end the scourge 
of malaria. We have also sought emergency funding to aid in an 
international effort to minimize the public health threat posed by the 
Zika virus.
    This year, we are asking for $6.2 billion to address humanitarian 
imperatives, including support for internally displaced persons, 
refugees, those affected by conflict or natural hazards and communities 
working to increase preparedness and resilience to disasters.
    To date, with backing from Congress, the United States has provided 
over $4.5 billion in humanitarian assistance--more than any other 
country--to assist victims of the catastrophic civil war in Syria. In 
London, earlier this month, I announced a further pledge of $600 
million in humanitarian aid as well as $325 million in development 
funds that includes support for the education of 300,000 refugee youth 
in Jordan and Lebanon. In September, at the U.N., President Obama will 
host a summit on the global refugee crisis. This will be the 
culmination of a vigorous diplomatic effort to rally the world 
community to increase the global response to humanitarian funding 
appeals by at least 30 percent, and to add significantly to the number 
of countries that donate regularly to these appeals or that are willing 
to accept refugees for admission within their borders.
    Our budget request allocates $2.7 billion for Democracy, Human 
Rights and Governance--a modest amount compared to the steep costs of 
the civil strife and political extremism that often thrive in the 
absence of effective and democratic governing institutions. Programs 
carried out by the State Department and USAID can play a pivotal role 
in enabling countries to make governance more accountable, electoral 
systems more professional, and judicial systems more independent. By 
supporting civil society and the rule of law, these programs contribute 
to a range of important goals, among them freedom of speech, religion 
and the press; respect for the rights of persons with disabilities; 
equitable treatment for members of the LGBTQ community; and an end to 
human trafficking.
    In addition, I am pleased to announce that the administration, led 
by the Department of State and in cooperation with USAID, the Peace 
Corps, and the Millennium Challenge Corporation, will soon launch a 
strategy to advance the empowerment of adolescent girls. This strategy 
will be holistic in nature and address key issues facing adolescent 
girls today, including equal access to secondary education and cultural 
practices that deny girls a fair chance to participate in the economic 
and political life of their societies. Our budget also underscores the 
State Department's decades-long commitment to scholarship programs and 
educational exchanges that help Americans to learn about the world and 
young leaders from around the world to learn about America. Meanwhile, 
our energetic and innovative activities in the field of public 
diplomacy are essential to convey the truth about U.S. policies and 
actions at a time when some--including terrorist organizations--lie 
continually about what Americans believe and do.
    To achieve our country's international objectives, we must give 
State Department and USAID employees the tools and resources they need 
to do their jobs well. That's why our request includes a $169 million 
net increase for Diplomatic and Consular Programs, reflecting 
heightened requirements in such areas as Freedom of Information Act 
processing, cyber security, counterterrorism, intelligence, and 
research. This proposal will support increased diversity through 
expanded recruitment and fellowship opportunities, and will provide 
more competitive wages for the locally employed personnel who make up 
the majority of our overseas workforce. I also ask you to support the 
restoration of full Overseas Comparability Pay for State Department 
personnel who are deployed abroad. This reform is essential to our 
effort to retain highly-skilled individuals in a competitive 
international jobs market, and to ensure fair treatment for those 
serving our country in relatively high-risk locations. The budget also 
includes a $122 million increase for USAID's Operating Expense account 
to maintain the Agency's workforce and sustain on-going global 
operations to meet foreign policy objectives, implement Presidential 
initiatives, and expand global engagement.
    Finally, we are asking $3.7 billion to ensure the security of our 
diplomatic platforms, protect our IT network and infrastructure, meet 
special medical needs at select posts, and carry out emergency planning 
and preparedness. Our $2.4 billion request for diplomatic facility 
construction and maintenance will be used for repairs at our overseas 
assets, and to continue implementing the security recommendations of 
the Benghazi Accountability Review Board.
    My colleagues, a little more than a quarter century ago, when the 
Berlin Wall fell, there were those who suggested that we Americans 
could now relax because our core ideas had prevailed and our enemy had 
been defeated. But we have long since learned that although the 
particular demands on our leadership may vary from one decade to the 
next; our overall responsibilities neither vanish nor diminish.
    The challenge for today's generation is to forge a new security 
framework that will keep our country strong and our people safe. We are 
under no illusions about how difficult that task is. We face determined 
adversaries and many governments whose priorities do not match our own. 
The old plagues of excessive nationalism and tribalism retain their 
grip in many regions. Technology is a two-edged sword, simultaneously 
bringing the world closer and driving it apart. Non-state actors have 
arisen, often for the best, but others are at war with all we have ever 
stood for--and with the modern world itself.
    In this complex environment, some setbacks are inevitable. 
Persistent and creative engagement will be required on all fronts. But 
we are guided by the same values and supported by the same democratic 
institutions that enabled our predecessors to succeed. We are bolstered 
by a citizenry that is earning respect for our country every day 
through its contributions to technological innovation and global 
prosperity; through its activism on behalf of humanitarian causes and 
civil society; through its brave service on the battlefield, in air and 
on sea; and through its commitment to a system of governance that will 
allow our country this year to elect a president--peacefully and 
fairly--for the 58th time. We are sustained, as well, by one of the 
true touchstones of America's greatness--the willingness on the part of 
Congress and the executive branch to work together for the common good.
    Thank you, and now I would be pleased to respond to your questions.
                                 ______
                                 
 Prepared Statement of Steve A. Linick, Inspector General for the U.S. 
      Department of State and the Broadcasting Board of Governors
    Chairman Graham, Ranking Member Leahy, and Members of the Senate 
Appropriations Subcommittee on State, Foreign Operations, and Related 
Programs, thank you for the opportunity to submit a written statement 
to the subcommittee on behalf of the Office of Inspector General (OIG) 
for the U.S. Department of State (Department) and Broadcasting Board of 
Governors (BBG). It is my honor to have led OIG for the past 29 months, 
and I want to express my appreciation for the confidence the 
Appropriations Committee has shown in our oversight efforts by 
supporting an increase in the OIG budget in fiscal year 2016. We used 
our fiscal year 2015 appropriation to continue providing effective and 
efficient oversight of the Department and BBG. With the fiscal year 
2016 appropriation and the increase included in the President's fiscal 
year 2017 budget request, I am confident we will continue to improve 
the Department's and BBG's programs and operations while identifying 
new challenges. I would like to outline what OIG considers to be the 
Department's major management challenges; highlight some of our recent 
work, including our efforts that are part of the coordinated 
interagency oversight of overseas contingency operations (OCOs); update 
you on the results of ongoing work that I referenced in my testimony 
last year; and address OIG's budget environment.
              i. state oig's mission and oversight efforts
    OIG's mandate is broad and comprehensive, involving oversight of 
the full scope of Department and BBG programs and operations, including 
more than $41 billion in funding and more than 75,000 staff at more 
than 270 locations around the world. OIG's global mandate is demanding 
and includes a unique, statutorily imposed responsibility to audit and 
inspect every domestic and overseas operating unit once every 5 years. 
Since August 2014, when Congress amended the Inspector General Act to 
include provisions requiring the designation of a Lead Inspector 
General (LIG) for each OCO, OIG's mandate has expanded even further. I 
am the designated Associate IG for two OCOs: Operation Inherent 
Resolve, to degrade and defeat the Islamic State of Iraq and the Levant 
(ISIL), and Operation Freedom's Sentinel, to train, advise, and assist 
Afghan security forces and defeat the remnants of Al-Qaeda in 
Afghanistan.
    Central to OIG's effective oversight is my annual responsibility to 
identify the most serious management and performance challenges the 
Department faced in the previous year and target OIG's oversight 
accordingly. For fiscal year 2015, these challenges included:

  --Protection of people and facilities
  --Management of posts and programs in conflict areas
  --Management of contracts and grants
  --Information security and management
  --Financial management

    As in the past, OIG will continue focusing its oversight in these 
critical areas by identifying vulnerabilities and recommending 
positive, meaningful actions that the Department can take to mitigate 
these risks. I will now elaborate on our efforts to improve the 
Department's programs and operations.
Protection of People and Facilities
    Protecting our people and facilities overseas continues to be a top 
priority for both the Department and OIG. It is also a major management 
challenge for the Department because its personnel often must perform 
their duties in dangerous or unstable environments far from home. Since 
the September 2012 attack on U.S. personnel and facilities in Benghazi, 
Libya, OIG has conducted several reviews related to the Benghazi 
Accountability Review Board (ARB), which was convened to examine the 
facts and circumstances surrounding the attack. During fiscal year 
2015, we conducted additional oversight, including a compliance follow-
up review to our September 2013 Special Review of the Accountability 
Review Board Process. In that review, OIG recommended that the 
Department develop minimum security standards that must be met before 
occupying facilities in Department-designated high-threat, high-risk 
locations.\1\ Additionally, OIG's classified review of the 
implementation of the Benghazi ARB recommendations found that the 
Department completed almost half of the 29 recommendations, and was 
continuing to work on those that were still outstanding.\2\
---------------------------------------------------------------------------
    \1\ OIG, Compliance Followup Review of the Special Review of the 
Accountability Review Board Process (ISP-C-15-33, August 2015).
    \2\ OIG, Review of the Implementation of the Benghazi 
Accountability Review Board Recommendations (ISP-S-15-34, August 2015).
---------------------------------------------------------------------------
    In addition, OIG reviewed the Vital Presence Validation Process 
(VP2), in which the Department assesses whether posts in high-threat, 
high-risk locations should be opened, closed, or re-opened, and whether 
staffing levels are appropriate.\3\ OIG found that establishing VP2 met 
the intent of the ARB recommendation. VP2 did not, however, explicitly 
address the ARB recommendation that this process also assess whether 
the posts' missions were attainable or their goals achievable.
---------------------------------------------------------------------------
    \3\ OIG, Audit of the Department of State Implementation of the 
Vital Presence Validation Process (AUD-SI-15-37, August 2015).
---------------------------------------------------------------------------
    OIG also continues to focus its attention on the security of all 
diplomatic facilities abroad and recognizes that the Department has 
taken steps to improve security. However, OIG's oversight efforts in 
fiscal year 2015 continued to identify security deficiencies at a 
significant number of U.S. diplomatic facilities abroad.\4\ OIG 
security inspectors issued 18 reports on the physical security and 
security programs of individual overseas missions. All of these 
inspections found security deficiencies significant enough to warrant a 
recommendation and remediation; 58 percent of the almost 220 
recommendations in the reports related to physical security, emergency 
preparedness, or life safety. In addition to the findings of these 
inspections, OIG audits \5\ found physical security deficiencies at 
mission facilities or official residences. Although some of these 
deficiencies were due to mission growth and limited space, many 
resulted from longstanding vulnerabilities that the Department had not 
addressed because of limited funds or mismanagement.\6\
---------------------------------------------------------------------------
    \4\ All of the reports are classified.
    \5\ See, e.g., OIG, Management Assistance Report: Residential 
Security Concerns at U.S. Embassy Ankara, Turkey (AUD-CGI-15-38, July 
2015); OIG, Management Assistance Report: Residential Security Concerns 
at U.S. Embassy Manila, Philippines (AUD-CGI-15-29, May 2015).
    \6\ Although the Department has a process for seeking waivers or 
exceptions where security standards cannot be met, none of the 
identified security deficiencies was subject to such waivers or 
exceptions. Reasons for the security deficiencies at residences of 
overseas personnel included: the Bureau of Diplomatic Security did not 
notify posts about substantial revisions to the Department's 
residential security program requirements in a timely manner, and 
Regional Security Officers did not understand these requirements or 
provide adequate oversight of post-specific residential security 
programs.
---------------------------------------------------------------------------
    OIG also reported that the Department had developed new tools to 
identify and track physical security deficiencies; however, the 
Department has not fully implemented these tools. Until it does so, the 
Department will be unable to identify and address all physical 
security-related deficiencies. It also will be unable to make fully 
informed funding decisions because doing so requires the Department to 
have a complete understanding of its physical security needs.\7\
---------------------------------------------------------------------------
    \7\ OIG, Compliance Follow-up Audit of Process to Request, 
Prioritize Physical Security-Related Activities at Overseas Posts (AUD-
ACF-16-20, December 2015).
---------------------------------------------------------------------------
    OIG's physical security oversight extended beyond physical 
structures. In fiscal year 2015, OIG issued a management assistance 
report recommending the Department implement guidance for the proper 
storage of weapons of opportunity, such as flammable liquids, hand and 
power tools, and other material that could be used as weapons during 
attacks on U.S. diplomatic facilities overseas.\8\ Our ongoing work in 
fiscal year 2016 regarding physical security issues includes audits of 
Embassy Tripoli's emergency action plan and the Department's process 
for vetting locally employed staff and employees contracted overseas. 
We have inspected, or will inspect, individual post security programs 
in Egypt, the Democratic Republic of Congo, Turkey, and Pakistan. 
Looking beyond, we will continue to focus on the safety of Department 
personnel and keep you fully informed of our findings and 
recommendations in this critically important area.
---------------------------------------------------------------------------
    \8\ OIG, Management Assistance Report: Importance of Securing Fire 
Accelerants and Similar Weapons of Opportunity (aka Weapons of 
Opportunity) (ISP-S-15-06, January 2015).
---------------------------------------------------------------------------
Management of Posts and Programs in Conflict Areas
    The Department faces major challenges in responding to a broadening 
range of security and humanitarian crises in conflict zones. As of 
December 2014, more than 900 Foreign Service positions overseas were 
designated as unaccompanied tours of duty. Missions in countries such 
as Iraq, Afghanistan, and Pakistan are at the forefront of U.S. efforts 
to counter terrorism, stabilize fragile states, and respond to regional 
conflicts. The Department's fiscal year 2017 congressional budget 
justification requested $14.8 billion in overseas contingency 
operations (OCO) funds to support critical programs and operations. 
These programs include efforts to shield allies and partners from 
potential threats; to destroy ISIL; to address other crises in the 
Middle East and Africa; and to sustain security programs and Embassy 
construction at high-risk posts.
    The importance of OCO oversight led to the August 2014 amendment to 
the Inspector General Act of 1978, which charged me and two other IGs 
with additional responsibilities for overseeing current and future 
OCOs.
    When I submitted testimony to this subcommittee last year, the Lead 
Inspector General for Overseas Contingency Operations (LIG-OCO) 
amendment had been triggered only 2 months earlier by Operation 
Inherent Resolve, directed against ISIL. The Department of Defense IG 
was appointed Lead IG for Operation Inherent Resolve, and he 
subsequently appointed me as Associate IG for oversight.
    Over the past year, our three OIGs (Department of State, Department 
of Defense, and U.S. Agency for International Development) took on 
responsibility for two additional OCOs-- Operation United Assistance 
(OUA) focused on the activities of the U.S. Government related to 
international Ebola response and preparedness,\9\ and Operation 
Freedom's Sentinel, the contingency operation encompassing our 
continuing efforts in Afghanistan.
---------------------------------------------------------------------------
    \9\ The LIG-OCO response to OUA was initiated in February 2015 and 
terminated on June 30, 2015, although oversight of funding expended 
during OUA continues.
---------------------------------------------------------------------------
    To provide this joint oversight, the three OIGs implement 
comprehensive joint strategic plans to ensure independent and effective 
oversight of all programs and operations supporting the OCOs. 
Throughout my testimony, I refer to work that my office has done in 
support of the LIG-OCO. More specifically, in fiscal year 2015, we 
published nine oversight reports. In fiscal year 2016, my office plans 
to issue, among others, audits addressing vetting of contractors and 
recipients of non-lethal aid in Syria and Afghanistan; audits of 
contracts and oversight staffing in Afghanistan and Iraq; inspections 
of embassies in Pakistan and Turkey; and an inspection of Mission 
Iraq's governance and public diplomacy programs in support of the 
President's counter-ISIL strategy.
    The Department faces significant challenges managing OCO and other 
funding in conflict areas. Security-related travel restrictions on U.S. 
direct-hire personnel and sometimes on local Foreign Service National 
staff complicate these critical program management and oversight 
activities. To take just one example, humanitarian assistance 
activities in Syria are operated from neighboring countries, and 
embassies in Libya, Syria, and Yemen have suspended operations. In 
these locations and others, dangerous conditions make it extremely 
difficult to monitor and oversee programs and humanitarian assistance 
efforts. Nonetheless, U.S. national security priorities, the continued 
substantial investment of resources in these areas, and the need for 
interagency collaboration require continued and close engagement in 
these locations. Accordingly, OIG will continue to assist the 
Department in these efforts. Highlighted below are some selected 
findings and recommendations intended to improve the Department's 
management of these priority programs.
    As part of its LIG-OCO oversight responsibilities, OIG reviewed 
whether the Bureau of Population, Refugees, and Migration (PRM) had 
sufficient internal controls over funds for the Department's 
humanitarian assistance and non-lethal aid programs in response to the 
Syrian crisis.\10\ OIG's audits of almost $450 million found problems 
with both the programs' performance and their financial monitoring, 
including PRM's failure to conduct adequate pre-award risk assessments 
or conduct post-award monitoring. OIG plans to inspect PRM in the 
spring of 2016.
---------------------------------------------------------------------------
    \10\ OIG, Audit of Department of State Humanitarian Assistance in 
Response to the Syrian Crisis (AUD-MERO-15-22, March 2015); OIG, Audit 
of Department of State's Management and Oversight of Non-Lethal 
Assistance Provided for the Syrian Crisis (AUD-MERO-15-39, September 
2015).
---------------------------------------------------------------------------
    As noted above, the difficult and dangerous conditions in and 
around conflict areas make appropriate management of resources more 
difficult. For example, after the 2012 Benghazi attack, Embassy Tripoli 
staff used 26 armored vehicles to evacuate to the U.S. Embassy in 
Tunis, Tunisia. Embassy Tunis had no need for the vehicles (valued at 
approximately $5 million), so the vehicles remained stored and unused 
in a grass and dirt lot on the Embassy compound.\11\ OIG also found 
that management support platforms were under stress at a number of 
posts where security concerns and growing workloads often drive 
staffing decisions. At Embassy Amman, for example, OIG recommended that 
the Department address these issues, because political circumstances 
had transformed a formerly mid-size Embassy into a large, front-line 
operation.\12\
---------------------------------------------------------------------------
    \11\ OIG, Management Assistance Report: Embassy Tripoli Armored 
Vehicles Available for Redistribution and Use (AUD-MERO-15-28, May 
2015).
    \12\ OIG, Inspection of Embassy Amman, Jordan (ISP-I-15-29A, June 
2015).
---------------------------------------------------------------------------
Management of Contracts and Grants (Including Foreign Assistance)
    Each year since 2008, OIG has identified the Department's 
management of contracts and grants as a management challenge. This 
continues to be an area of OIG focus. In fiscal year 2015, the 
Department spent almost $16 billion on grants and fixed charges and 
almost $15 billion in contractual services, totaling almost $31 
billion. This amount is more than 70 percent of the Department's fiscal 
year 2015 spending. In November 2013, OIG began issuing management 
alerts and management assistance reports to Department leadership to 
alert it to significant issues that require immediate corrective 
action. Over the past 2 years, OIG has issued 27 such alerts and 
reports to the Department, nearly half of which concerned issues with 
contract and grants management. Notwithstanding OIG's ongoing emphasis 
on this critical area, OIG continues to identify significant 
vulnerabilities in the management and oversight of these funds.
    OIG uses its resources not only to recommend specific improvements 
to Department programs and operations but also to hold accountable 
those who misuse Federal funds. Since my arrival in OIG in 2013, I 
emphasized referrals of individuals and contractors to the Department's 
Office of the Procurement Executive for possible suspension and 
debarment. We also have taken steps to prosecute procurement fraud 
cases more quickly and effectively. We have done so by having an OIG 
special agent-attorney designated as a Special Assistant U.S. Attorney. 
This individual works full-time as a prosecutor in the U.S. Attorney's 
Office for the Eastern District of Virginia, and focuses exclusively on 
OIG criminal and civil cases. Having a dedicated prosecutor serves as a 
strong deterrent, and OIG will continue to emphasize criminal and civil 
penalties in addition to available administrative remedies.
            Contract Management
    In one of our earliest management alerts, issued in March 2014, we 
reported that Department contracts with a total value of $6 billion had 
incomplete or missing contract files.\13\ Despite this and other 
alerts, inspection and audit teams continue to identify problems and 
propose recommendations \14\ to improve the effective use of taxpayer 
funds and minimize the risk of fraud, waste, or abuse.
---------------------------------------------------------------------------
    \13\ OIG, Management Alert--Contract File Management Deficiencies 
(MA-A-0002, March 2014).
    \14\ See, e.g., OIG, Inspection of Embassy Antananarivo, Madagascar 
(ISP-I-15-20A, May 2015).
---------------------------------------------------------------------------
    The most recent example of the Department's ongoing challenge in 
properly managing contracts is detailed in the management assistance 
report that OIG issued last month on the use of purchase cards by 
Department posts.\15\ Although posts using purchase cards are required 
to prepare an annual review to ensure these cards are not being 
misused, OIG found that during fiscal year 2013 and fiscal year 2014, 
almost $33 million \16\ in appropriated funds was vulnerable to fraud, 
waste, or abuse because posts did not do so.
---------------------------------------------------------------------------
    \15\ OIG, Management Assistance Report: Annual Purchase Card 
Program Reviews (ISP-I-16-04, January 2016).
    \16\ That amount may be substantially greater (by almost $20 
million), as 24 posts for fiscal year 2013 and 45 posts for fiscal year 
2014 did not respond to requests for information on their annual 
reviews.
---------------------------------------------------------------------------
    OIG also found other significant weaknesses in contract 
administration and oversight. For example, we questioned spending on 
several significant contract awards, including the construction of the 
New Embassy Compound in London,\17\ the Aviation Support Services 
Contract in Iraq \18\ ($26.9 million), and the Medical Support Services 
Contract in Iraq \19\ ($6.8 million). Insufficient and inexperienced 
government oversight staff and the dangerous locations where some of 
the work was performed contributed to these shortcomings. In one 
instance, the Department had only one contracting officer's 
representative monitoring all 15 task orders under the Iraq Medical 
Support Services contract, which was valued at $1 billion. In another 
instance, the contracting officer assigned to the new London Embassy 
compound construction contract which was valued at more than $400 
million, was not sufficiently familiar with the type of contract 
vehicle being used by the Department.\20\ As a result, the contracting 
officer awarded the contract without requiring the contractor to 
provide an explanation that addressed a difference of more than $40 
million between the initial and the final proposals.
---------------------------------------------------------------------------
    \17\ OIG, Audit of the Construction Contract Award and Security 
Evaluation of the New Embassy Compound London (AUD-CGI-15-31, July 
2015).
    \18\ OIG, Audit of the Bureau of International Narcotics and Law 
Enforcement Affairs Aviation Support Services Contract in Iraq (AUD-
MERO-15-35, July 2015).
    \19\ OIG, Management Assistance Report: Concerns with the Oversight 
of Medical Support Service Iraq Contract No. SAQMMA11D0073 (AUD-MERO-
15-20, December 2014); Audit of the U.S. Mission Iraq Medical Services 
(AUD-MERO-15-25, May 2015).
    \20\ AUD-CGI-15-31, July 2015.
---------------------------------------------------------------------------
    In fiscal year 2016 and beyond, OIG will continue its effort to 
address contracting issues, focusing particularly on LIG-OCO projects 
including Embassy Kabul's life-support contract (valued at $750 
million); Department compliance with critical-environment contracting 
policies; and additional oversight of the Baghdad Life Support Services 
contract. At the same time, OIG will monitor the Department's 
compliance with our recommendations to ensure that it mitigates 
vulnerabilities and protects taxpayer funds.
            Grants Management
    OIG's work also continues to address the Department's ongoing 
challenge with the administration and oversight of grants.\21\
---------------------------------------------------------------------------
    \21\ OIG, Audit of Department of State Oversight Responsibilities, 
Selection, and Training of Grants Officer Representatives (AUD-CG-15-
33, June 2015).
---------------------------------------------------------------------------
    During the year, OIG audit and inspection teams repeatedly found 
issues with grants management at locations around the world. These 
problems occurred at all points in the process: OIG found insufficient 
training, ineffective monitoring, and poor closeout procedures. Indeed, 
OIG found grants management problems at more than 80 percent of the 
posts it inspected; and in one inspection of a domestic bureau,\22\ 
none of the 31 grant files reviewed (totaling $38 million) had 
monitoring plans to ensure the funds were used for their intended 
purpose. Audits of other sensitive programs concerning international 
nonproliferation activities found problems with combined awards of 
nearly $40 million.\23\
---------------------------------------------------------------------------
    \22\ OIG, Inspection of the Bureau of Political-Military Affairs 
(ISP-I-15-27, June 2015).
    \23\ OIG, Audit of the Bureau of International Security and 
Nonproliferation Administration and Oversight of Foreign Assistance 
Funds Related to the Export Control and Related Border Security Program 
(AUD-SI-15-23, April 2015); OIG, Audit of the Bureau of International 
Security and Nonproliferation Administration and Oversight of Foreign 
Assistance Funds Related to the Global Threat Reduction Program (AUD-
SI-15-41, September 2015).
---------------------------------------------------------------------------
    Vulnerabilities extend to the Department's programs with external 
partners. OIG's audit of the National Endowment for Democracy (NED) 
found that over the course of 9 years the Department awarded more than 
$960 million to NED. The Department did not, however, conduct required 
audits or comply with other monitoring requirements. Moreover, it did 
not include the audit requirement in the grant agreement.\24\
---------------------------------------------------------------------------
    \24\ OIG, Management Assistance Report: Oversight of Grants to the 
National Endowment for Democracy (AUD-SI-15-34, June 2015).
---------------------------------------------------------------------------
    In fiscal year 2016, OIG plans to issue audits on grant oversight 
staffing in Iraq and Afghanistan, as well as on the Antiterrorism 
Assistance program.
Information Security and Management
    Another top management challenge concerns information security and 
management. It is imperative that the Department safeguard sensitive 
information, which is often targeted by multiple actors, including 
terrorist and criminal organizations. The Department must preserve and 
protect classified and other sensitive information vital to the 
preservation of national security. This responsibility applies not only 
in its Washington, DC, headquarters and other domestic facilities, but 
also in high-risk environments across the globe. The Department spent 
approximately $1.4 billion on information technology (IT) in fiscal 
year 2015. The same year, cybersecurity incidents illustrated 
deficiencies in efforts to protect its computer networks. Malicious 
actors exploited vulnerabilities, potentially compromising sensitive 
information and delaying or halting normal business operations.
            Information Security
    OIG issued its first management alert in November 2013 \25\ 
identifying significant, recurring weaknesses in the Department's 
information system security program. OIG continues to identify concerns 
with various components of the Department's information technology and 
information security programs, as well as with the Department's efforts 
to protect its computer networks and, in turn, its information.
---------------------------------------------------------------------------
    \25\ OIG, Management Alert: OIG Findings of Significant and 
Recurring Weaknesses in the Department of State Information System 
Security Program (AUD-IT-14-04, November 2013).
---------------------------------------------------------------------------
    In my February 2015, testimony to this subcommittee, I referenced 
independent penetration testing that was ongoing in response to 
concerns I raised with the Department about the system's 
vulnerabilities to cyber attack. That testing, and a separate audit 
that documented the Department's failure to perform security 
assessments regularly on its wireless networks, resulted in 
recommendations that the Department is working to address.\26\ These 
audits are in addition to OIG's annual Federal Information Security 
Management Act reviews, which repeatedly identify, and make 
recommendations to correct, the same or similar information security 
issues.\27\ Many of these reports' findings and recommendations are 
classified, but my staff and I would be happy to provide the 
subcommittee a separate briefing on those findings.
---------------------------------------------------------------------------
    \26\ OIG, Remote and Deployed Operations Integrated Cyber 
Operations Red Team After Action Report--U.S. Department of State (AUD-
IT-15-15, February 2015); OIG, Management Assistance Report--Department 
of State Security Program for Wireless Networks (AUD-IT-15-27, May 
2015). Both reports are classified.
    \27\ OIG, Audit of the Department of State Information Security 
Program (AUD-IT-16-16, November 2015).
---------------------------------------------------------------------------
    OIG also reported to the Department this month that the 
Department's IT contingency planning continues to need improvement. 
Instability in many regions of the world, including attacks and threats 
against the Department's personnel and diplomatic facilities, 
demonstrates the need for contingency planning. In particular, these 
risks illustrate the importance of having systems in place to maintain 
communications and continuity of business operations during periods of 
disruption.
    OIG emphasized that the Department has yet to implement 
recommendations from a 2011 OIG report advising that bureaus and posts 
develop and test information technology contingency plans as part of 
their emergency preparedness activities.\28\ Moreover, OIG identified 
IT contingency planning deficiencies in 69 percent of overseas 
inspections performed during fiscal years 2014 and 2015. The issues 
identified ranged from information management staff at posts not 
developing, updating, or testing IT contingency plans to plans that 
lacked appropriate key stakeholders and contact information as part of 
emergency preparedness.
---------------------------------------------------------------------------
    \28\ OIG, Management Assistance Report: Continued Deficiencies 
Identified in Information Technology Contingency Planning (ISP-16-05, 
February 2016).
---------------------------------------------------------------------------
    OIG also reported this month significant weaknesses in the 
Department's cyber-security incident response and reporting 
program.\29\ An evaluation of the Department's efforts to respond to 
incidents (including denial-of-service, malicious code, and 
unauthorized access) showed that the Department had not complied with 
its own information security policies in more than 55 percent of the 
incidents that OIG reviewed. The Department concurred with the 
recommendations, and OIG will monitor implementation efforts.
---------------------------------------------------------------------------
    \29\ OIG, Management Assistance Report: Department of State 
Incident Response and Reporting Program (AUD-IT-16-26, February 2016).
---------------------------------------------------------------------------
    IT weaknesses at home also contribute to this ongoing challenge for 
the Department. The Bureau of Consular Affairs' (CA) Consular 
Consolidated Database (CCD) experienced major system failures in the 
busy summer seasons of 2014 and 2015. This unreliability undermined 
CA's ability to provide consular services that protect U.S. citizens 
abroad and that facilitate the entry of legitimate foreign visitors and 
immigrants consistent with ensuring U.S. border security. CA is 
upgrading hardware and modernizing CCD's various databases and plans to 
launch a new system to replace the current CCD. OIG will continue to 
monitor CA's progress and will inspect CA's Office of Consular Systems 
and Technology in the spring of 2016.
            Information Management
    Information security is not the only IT-related challenge the 
Department faces. In fiscal year 2015, OIG found persistent problems in 
records management in almost 65 percent of the inspections that it 
conducted. OIG also reported on the weaknesses in the Department's 
decentralized records management processes,\30\ and it determined that 
Department leadership had not played a meaningful role in overseeing or 
reviewing the quality of responses to Freedom of Information Act (FOIA) 
requests.\31\ OIG will continue its oversight work on records 
management in fiscal year 2016.
---------------------------------------------------------------------------
    \30\ OIG, Review of State Messaging and Archive Retrieval Toolset 
and Record Email (ISP-I-15-15, March 2015).
    \31\ OIG, Evaluation of the Department of State's FOIA Processes 
for Requests Involving the Office of the Secretary (ESP-16-01, January 
2016).
---------------------------------------------------------------------------
    OIG's current work includes an audit of the Department's IT capital 
planning process. In fiscal year 2014, the Department reported that it 
had spent $1.4 billion on 83 IT investments that support Department 
operations, ranging from property management to passport and visa 
systems. OIG is now auditing how the Department selects and approves IT 
investments, including whether the Department submits accurate and 
complete information to the Office of Management and Budget on those IT 
investments as required. We expect this work to be published in the 
spring.
Financial Management
    Since OIG's audit of the Department's fiscal year 2009 financial 
statements, OIG has identified material weakness and significant 
deficiencies in the Department's controls over financial reporting. The 
fiscal year 2015 audit \32\ reported similar significant internal 
control deficiencies related to financial reporting, including property 
and equipment; budgetary accounting; unliquidated obligations; and 
information technology.
---------------------------------------------------------------------------
    \32\ OIG, Independent Auditor's Report on the U.S. Department of 
State, 2015 and 2014 Financial Statement (AUD-FM-16-09, November 2015).
---------------------------------------------------------------------------
    Providing adequate oversight and coordination of foreign assistance 
resources also remains a challenge for the Department because the 
Department's financial management systems are not designed to track and 
report on foreign assistance funds. This situation, in turn, creates a 
systemic problem for the Department, which hinders effective 
coordination and oversight. As we reported in a management assistance 
report,\33\ the Department's core financial systems do not track 
foreign assistance funding and expenditures by program, project, 
country, region, or purpose (sector), even though Department and 
individual bureaus need this information to track and manage their 
foreign assistance funds and respond to external queries. For example, 
when OIG seeks to identify and analyze the range of the Department's 
foreign assistance activities in a single, given country, we must 
routinely consult numerous different data sources and consolidate them 
ourselves. Department bureaus with foreign assistance funds have spent 
millions of dollars and an inordinate amount of time on alternative 
systems and processes to fill this gap. These efforts have had, at 
best, limited success, and do not substitute for more systemic reforms.
---------------------------------------------------------------------------
    \33\ OIG, Management Assistance Report: Department Financial 
Systems Are Insufficient to Track and Report on Foreign Assistance 
Funds (ISP-I-15-14, February 2015).
---------------------------------------------------------------------------
    OIG's current work includes a review of the Department's financial 
management processes and methodologies for setting the Working Capital 
Fund, certain visa fees, and Foreign Service allowances. We will also 
examine the strategic sourcing initiative to determine whether the 
Department has implemented the required procurement consolidation of 
common items to ensure the best cost.
                         ii. impact of oig work
    Through its audits, evaluations, inspections, and investigations, 
OIG returns significant value to U.S. taxpayers. The conclusion of 
fiscal year 2015 marked the end of my second full year as Inspector 
General at the Department of State, and I am delighted to report on 
OIG's results over the past 2 years.
    In fiscal year 2015, OIG published 113 products related to the 
programs and operations of the Department and BBG, a 47 percent 
increase over fiscal year 2014. These products included audits of 
annual financial statements, procurement activities, and funds 
management; inspections of operations and facilities across the globe; 
and management alerts and management assistance reports addressing 
vulnerabilities requiring agency leadership's prompt action. In 
addition, in fiscal year 2015, OIG identified nearly $212 million in 
monetary benefits, including $157 million in taxpayer funds that could 
be put to better use; in fiscal year 2014 the results were nearly $122 
million. OIG's fiscal year 2015 criminal, civil, and administrative 
investigations resulted in 43 criminal actions, including arrests, 
indictments and convictions, nearly double our fiscal year 2014 
results. Similarly, contractor and grantee suspensions and debarments 
more than doubled in fiscal year 2015.
    Since 2008, OIG has issued more than $1.5 billion in audit- and 
inspection-related findings and investigative-related financial 
results. These efforts have, on average, led to more than $3 in 
potential and realized monetary benefits for every dollar spent on OIG 
oversight.
    Even though these accomplishments have resulted in significant 
savings to the U.S. taxpayer, such financial results do not fully 
measure OIG's most significant contribution-- namely, OIG's efforts to 
improve the safety of U.S. personnel and facilities and strengthen the 
integrity of the programs, operations, and resources that are at the 
foundation of the Department's ability to help preserve national 
security and interests.
                           iii. oig resources
    I am very grateful for your support and the additional financial 
resources that OIG has received over the past 3 years, and I would like 
to express my thanks to this subcommittee, the Committees on 
Appropriations, and both Houses of Congress. Our budget requests have 
been substantially supported by the administration, and we are grateful 
for its support as well. These resources have enabled OIG to better 
fulfill its mission. Nonetheless, we still face significant challenges 
in addressing our large and growing mandate. Just since my arrival, we 
have undertaken new oversight activities mandated by the DATA Act to 
ensure that Federal expenditures are reported accurately and 
transparently, and by the LIG-OCO provisions of the IG Act. Currently, 
more than 60 percent of OIG's oversight work is mandated, which 
significantly limits our ability to conduct discretionary work.
    The OCO mandate has had a particularly significant effect on OIG's 
operations. Approximately two-thirds of OIG's fiscal year 2016 
appropriation increase--$6.27 million--was designated to fund 16 
positions to meet our LIG-OCO oversight responsibilities. In addition, 
our fiscal year 2016-2017 work plan includes 16 LIG-OCO projects and 2 
supporting investigative efforts. This necessarily reduces oversight 
resources for other mission-critical priorities and operational needs. 
Other challenges we face include:

  --OIG's statutory obligation to inspect and audit every bureau and 
        post once every 5 years.\34\ One of the most important 
        functions of our inspection work is ensuring the safety and 
        security of personnel and facilities overseas. We are piloting 
        a more focused, risk-based inspection process to address the 
        growing backlog, but our inspection mandate still absorbs 
        approximately one-quarter of OIG's annual appropriation.
---------------------------------------------------------------------------
    \34\ Congress routinely waives this timeframe requirement.
---------------------------------------------------------------------------
  --Department contracts, particularly in high-risk, high-cost programs 
        and operations, such as Afghanistan, have grown substantially. 
        For example, in the last 6 years, the Department's annual 
        procurements for contracted services and supplies have more 
        than tripled from approximately $4 billion to $14.8 billion.
  --OIG must strengthen the security of its sensitive electronic 
        information that now resides on the Department's network. We 
        will accomplish this by transitioning OIG to an independent IT 
        network, a change that I anticipate will be complete by the end 
        of the fiscal year.

    In conclusion, Chairman Graham, Ranking Member Leahy, and members 
of the subcommittee, thank you for the opportunity to highlight some of 
our significant oversight work and for your continued strong support. 
We take seriously the statutory requirement to identify instances of 
fraud, waste, abuse, and mismanagement and to notify Congress, agency 
leadership, and the public of these deficiencies. My staff and I remain 
committed to promoting the economy, efficiency, and effectiveness of 
the Department and BBG, as well as to protecting the safety and 
security of their employees and facilities and sensitive information 
around the world. As always, I would be happy to answer your questions 
and provide more information on any of our past, present, or future 
work.
                                 ______
                                 
  Prepared Statement of John F. Sopko, Special Inspector General for 
                       Afghanistan Reconstruction
    Chairman Graham, Ranking Member Leahy, and members of the 
subcommittee,

    This statement explains the fiscal year 2017 budget request for the 
Special Inspector General for Afghanistan Reconstruction (SIGAR). The 
statement describes SIGAR's successes, challenges to accomplishing its 
mission, and steps taken to overcome or mitigate these challenges. In 
keeping with the agency's oversight mission, this statement also 
touches on key management and program challenges facing State, the 
United States Agency for International Development (USAID), and the 
Department of Defense (DOD) by noting areas of high risk that SIGAR has 
identified.
    Since fiscal year 2002, Congress has appropriated approximately 
$113.1 billion to rebuild Afghanistan. That is at least $10 billion 
more, adjusted for inflation, than the amount the United States 
committed in civilian assistance to help rebuild Western Europe after 
World War II.\1\
---------------------------------------------------------------------------
    \1\ SIGAR, Quarterly Report to the Congress of the United States, 
7/30/2014, p. 5.
---------------------------------------------------------------------------
    For fiscal year 2017, the President has requested $2.5 billion in 
Afghanistan-related funding via the State Department budget.\2\ The 
President's has also requested more than $3 billion in the Department 
of Defense (DOD) budget to train, equip, and sustain the Afghan 
National Defense and Security Forces (ANDSF). Another $11.5 billion 
from previous years' reconstruction appropriations remains available 
for disbursement.
---------------------------------------------------------------------------
    \2\ Department of State, Congressional Budget Justification: 
Department of State, Foreign Operations, and Related Programs, fiscal 
year 2017, 2/9/2016, p. 3.
---------------------------------------------------------------------------
    SIGAR's mission is to ensure that all these funds are spent as 
effectively and efficiently as possible, and that they are protected 
from waste, fraud, and abuse. Our enabling legislation also directs 
SIGAR to keep Congress and the Secretaries of State and Defense 
informed on reconstruction issues and to offer recommendations for 
improvement.\3\
---------------------------------------------------------------------------
    \3\ Public Law No. 110-181, Sec. 1229.
---------------------------------------------------------------------------
    Embedded in State's overall request is SIGAR's budget request for 
fiscal year 2017 of $54.9 million. As SIGAR's request explains, these 
funds ``will enable the organization to perform independent and 
objective oversight of reconstruction and security assistance 
programs.'' \4\ The amount sought is $2 million less than provided in 
each of the last two fiscal years. But we have achieved some operating 
economies and have slightly reduced our personnel count in Afghanistan 
in view of increased security, travel, and logistics constraints. We 
therefore believe the requested funding level is adequate to continue 
meeting SIGAR's congressional mandate.
---------------------------------------------------------------------------
    \4\ Department of State, Congressional Budget Justification: 
Department of State, Foreign Operations, and Related Programs, fiscal 
year 2017, 2/9/2016, p. 143.
---------------------------------------------------------------------------
    Like other international donors, the United States has pledged 
security, development, and humanitarian assistance to Afghanistan for 
years to come, and increasing amounts of aid are being delivered on-
budget via bilateral transfers to Kabul ministries or through 
multilateral trust-fund disbursements. Those ministries continue to 
struggle with staffing, technical skills, budget-execution capacity, 
management, reporting, and accountability.
    Meanwhile, the Taliban insurgency is still waging war, and foreign 
terrorist groups are making their presence felt. U.S. and Coalition 
military forces have been sharply reduced. Personal safety and 
obstacles to travel remain key concerns for foreign personnel. In other 
words, the risk of fraud, waste, and abuse of reconstruction funds in 
Afghanistan is growing, even as the ability to exercise effective 
oversight is increasingly constrained.
    Nevertheless, SIGAR continues to provide aggressive oversight of 
reconstruction projects and use of U.S. funds, and has adapted to the 
more constrained environment by approaches such as using third-party 
monitors to go where SIGAR employees cannot and by checking Global 
Positioning System data against satellite photos.
fiscal year 2017 budget request highlights sigar's unique and critical 
          role in overseeing afghanistan reconstruction funds
    SIGAR is the only inspector general with interagency authority to 
audit, inspect, and investigate the activities of all U.S. Government 
agencies and international organizations that receive U.S. funding for 
Afghanistan reconstruction. As a result, SIGAR can conduct cross-
cutting reviews of State, USAID, DOD, and other agencies that are 
involved in reconstruction programs. In addition, SIGAR is the only 
oversight agency devoted solely to Afghanistan reconstruction, enabling 
it to examine reconstruction programs and issues in more depth while 
still producing timely and high-quality work. Further, SIGAR is truly 
independent. We conduct our oversight autonomously and report directly 
to Congress and to the Secretaries of State and Defense.
    SIGAR currently has the largest oversight presence in Afghanistan, 
with more auditors, analysts, and investigators in country than any 
other agency. As of this month, SIGAR has more than 30 employees based 
at U.S. Embassy Kabul.\5\ These employees comprise auditors, 
inspectors, and investigators, plus management and support staff. Two 
other SIGAR employees are located at Bagram Airfield. In addition, 
seven Afghan citizens support SIGAR's work in Kabul.
---------------------------------------------------------------------------
    \5\ Unless otherwise indicated, numbers and monetary values 
regarding SIGAR are as of
12/30/2015, as reported in SIGAR, Quarterly Report to the Congress of 
the United States,
1/30/2016. Copies of this and other SIGAR products are posted at 
www.sigar.mil.
---------------------------------------------------------------------------
    Most of SIGAR's deployed staff serve at least 2 years in country. 
This practice reduces annual turnover compared to other U.S. agencies 
and mitigates the risk of institutional memory loss. The deployed and 
local staff are augmented by SIGAR personnel from our Arlington, 
Virginia, offices who frequently travel to Afghanistan on a 2- to 8-
week temporary assignments.
    When SIGAR was established in 2008, the agency created four 
directorates: (1) Audits and Inspections, (2) Investigations, (3) 
Research and Analysis, and (4) Management and Support. The Research and 
Analysis Directorate, originally known as Information Management, 
produces SIGAR's quarterly report to Congress and other publications. 
Management and Support provides human resources, budget, information 
technology, and other support to SIGAR's other directorates and to 
staff.
    Since then, two additional units have been established. In 2012, 
SIGAR created its Office of Special Projects to examine emerging issues 
and deliver prompt, actionable reports to implementing agencies and 
Congress. The team conducts a variety of assessments and produces 
inquiry and alert letters, reviews, fact sheets, and other products.
    In late 2014, SIGAR established its Lessons Learned Program, whose 
projects include examinations of corruption, sustainability, 
counternarcotics, contract management and oversight, and strategy and 
planning. While audits and inspections typically focus on the planning, 
execution, and outcome of particular programs and projects, LLP's 
objective is to more broadly document U.S. reconstruction objectives, 
assess results, and distill this knowledge into recommendations to 
improve reconstruction efforts in Afghanistan and in future contingency 
operations. Other Federal agencies and the U.S. military also operate 
lessons-learned units, but SIGAR's Lessons Learned Program is the only 
one established and positioned to extract and frame lessons from a 
whole-of-government perspective.
 sigar's work continues to improve the effectiveness and efficiency of 
reconstruction programs, and to reduce fraud, waste, and abuse of funds
    SIGAR's investigations, audit, and other work continues to have 
positive impacts on ongoing and planned reconstruction programs and 
agency operations. These impacts take several forms. SIGAR does more 
than simply identify waste, fraud, and abuse. It can bring malefactors 
to justice, and recover money. SIGAR investigators are full-fledged 
Federal law-enforcement officers with powers of search and arrest. 
Whether acting on their own or in coordination with other law-
enforcement agencies, they have conducted investigations into cases of 
bribery, theft, smuggling, money laundering, and other offenses; have 
made arrests in Afghanistan and stateside; and have referred many 
Afghans to that country's prosecutors.
    As of December 30. 2015, SIGAR had 309 ongoing investigations. At 
that time, the cumulative results of the SIGAR Investigations 
Directorate comprised 103 arrests, 137 criminal charges, 102 
convictions, and 80 sentencings. The cumulative total from 
investigations-related criminal fines, restitutions, forfeitures, 
civil-settlement recoveries, and savings to the Government exceeds $946 
million--the equivalent of 17 years' funding for SIGAR at current 
levels. Investigative work has also led to 697 referrals of companies 
and individuals for suspension or debarment to prevent them from 
receiving more U.S. contract awards; 72 percent of these referrals led 
to suspension or debarment, not counting a small number of special-
entity designations or administrative-compliance agreements.
    From 2009 through December 2015, SIGAR had made 619 recommendations 
in its 208 published audits, alert letters, and inspection reports. 
SIGAR has closed more than 83 percent of its recommendations, 
indicating that the subject agency has either adopted the 
recommendation or taken other appropriate action on the issue. These 
recommendations have, among other things, strengthened contract 
oversight, management, and compliance; assisted in building and 
sustaining Afghan Government capacity; and improved accountability for 
on-budget support. SIGAR continues to monitor agency action on 51 open 
recommendations from 17 performance-audit reports, 6 open 
recommendations from 4 inspection reports, and 41 open recommendations 
from 18 financial-audit reports.\6\ SIGAR audits and inspections have 
resulted in recovering an estimated $36 million and in identifying some 
$950 million that could be put to better use, for a combined impact 
approaching $1 billion.
---------------------------------------------------------------------------
    \6\ SIGAR Audits and Inspection Directorate, internal tally, 2/22/
2016.
---------------------------------------------------------------------------
    SIGAR's audit, inspection, and quarterly reports continue to be 
used by U.S. agencies, international partners, and the highest levels 
of the Afghan Government to improve oversight and management of 
reconstruction efforts. President Ashraf Ghani and key advisors have 
met repeatedly with SIGAR personnel, and have expressed appreciation 
for SIGAR's oversight work. President Ghani has said that he reads and 
annotates SIGAR's audit and quarterly reports, and uses them in his 
efforts to reform Afghan institutions.\7\ At President Ghani's 
invitation, and in the wake of a fuel-contract scandal that SIGAR 
investigated,\8\ a SIGAR staff member participates as an observer in 
the high-level meetings of the presidential procurement council that 
reviews major contract awards.
---------------------------------------------------------------------------
    \7\ In September 2015, President Ghani discussed his country's 
challenges and his reform aims in an extended interview at the 
presidential palace with SIGAR's director of research and analysis. See 
SIGAR, Quarterly Report to the Congress of the United States, 10/2015, 
section 1, pp. 3-15.
    \8\ In February 2015, SIGAR and U.S. military officers briefed 
President Ashraf Ghani on their investigative findings that four 
contractors had engaged in price-fixing, bid-rigging, and bribery prior 
to the award of a nearly $1 billion, U.S.-funded fuel contract for the 
Afghan Ministry of Defense. The criminal collusion raised the cost of 
the contract by at least $214 million. After the briefing, President 
Ghani immediately suspended the MOD officials involved in the fuel 
contract award, cancelled the entire contract, warned the contractors 
involved of possible debarment, and assigned an independent Afghan 
investigator to look into the award of the MOD fuel contract and of 11 
MOD contracts for other commodities. See SIGAR, Quarterly Report to the 
Congress of the United States, 4/30/2015, i.
---------------------------------------------------------------------------
    SIGAR also maintains professional and productive working 
relationships with the DOD and its subcomponents and commands, and with 
State and USAID. SIGAR also coordinates regularly with other inspectors 
general and the Government Accountability Office to ensure coverage of 
all aspects of the reconstruction effort and avoid duplication of 
effort.
    sigar has taken steps to overcome challenges to conducting its 
                           oversight mission
    In 2015, the Afghan Government took on full responsibility for 
security, the U.S./Coalition mission switching from combat to train/
advise/assist support, and the start of Afghanistan's ``Transformation 
Decade'' aimed at achieving self-sufficiency in fiscal and security 
matters. In this changed setting of heightened security precautions and 
reduced access to program and project sites, SIGAR developed a 2014-
2016 transition plan to synchronize activities with its strategic plan 
and with those of other U.S. agencies.
    For an example of transitional adjustment, SIGAR has hired several 
Afghan engineers and analysts to assist with audit and inspection work. 
SIGAR has also signed a cooperative agreement with a well-respected 
Afghan nongovernmental organization, to conduct site visits, including 
inspections and engineering assessments of U.S.-funded projects. This 
Afghan organization's work will be subject to generally accepted 
government auditing standards (GAGAS), and to SIGAR's internal quality-
control requirements. SIGAR has also expanded its use of remote 
monitoring and geospatial imaging through working relationships with 
National Geospatial Intelligence Agency and an agreement with the Army 
Geospatial Center.
    In addition, SIGAR is continuing its financial audit program.\9\ 
Established in 2012, the program contracts with independent public 
auditing firms to perform financial audits of completed reconstruction 
contracts. SIGAR staff oversees the firms' conduct of these financial 
audits, from notification to final report. In some cases, when 
questioned costs are identified, SIGAR investigators review those costs 
and initiate criminal investigations if appropriate.
---------------------------------------------------------------------------
    \9\ SIGAR produces two types of audits: (1) financial and (2) 
performance. Financial audits evaluate completed reconstruction 
contracts and identify questioned costs, if any, resulting from 
significant deficiencies in the audited entity's internal controls 
related to the contracts, and any instances of noncompliance with 
contract requirements and applicable laws and regulations. Performance 
audits provide objective analysis of the effectiveness and efficiency 
of reconstruction programs and make recommendations to improve 
performance and operations, reduce costs, and facilitate decisionmaking 
by parties with responsibility to oversee or initiate corrective action 
for public accountability.
---------------------------------------------------------------------------
    SIGAR also coordinates closely with the Afghan Attorney General's 
office to refer criminal and civil cases involving Afghans for 
prosecution in Afghanistan. Over time, and as appropriate, SIGAR will 
adjust its functions, methods, products, and practices, adopting new 
ones when necessary, to continue to provide seamless, independent 
oversight of the reconstruction effort. Further, SIGAR will take all 
measures necessary to uphold government standards of quality in 
carrying out its oversight.
  sigar has identified areas of high risk to the success of the u.s. 
                  reconstruction effort in afghanistan
    Although State, USAID, and DOD have each experienced some successes 
in their individual reconstruction efforts, multiple challenges exist 
that could undermine the success of the overall U.S. reconstruction 
effort. In December 2014, SIGAR issued its first High-Risk List to call 
attention to program areas and elements of the U.S.-funded 
reconstruction effort in Afghanistan that are especially vulnerable to 
significant waste, fraud, and abuse.\10\
---------------------------------------------------------------------------
    \10\ SIGAR, High-Risk List, 12/2014.
---------------------------------------------------------------------------
    The High-Risk List highlights program areas that SIGAR believes 
agencies such as State, USAID, and DOD, need to focus on, and discusses 
whether agencies are mitigating risks in areas within their purview. 
The list also proposes some key questions for Congress and the agencies 
to consider to improve their reconstruction efforts.

    SIGAR's first High-Risk List identified seven areas of 
vulnerability:

    1. Corruption/Rule of Law
    2. Sustainability
    3.  Afghan National Defense and Security Forces Capacity and 
Capabilities
    4. On-Budget Support
    5. Counternarcotics
    6. Contract Management [and Oversight Access, now Area 8]
    7. Strategy and Planning

    We are preparing an update of our list that will modify one 
existing item and add a new one. High-Risk Area 6 will become simply 
``Contract Management.'' ``Oversight Access,'' while still decidedly an 
issue for contract management, will be treated as a broader concern as 
a new Area 8.
    Although other areas of risk exist, SIGAR selected these areas 
because they are mission-critical for the success of the reconstruction 
campaign. In other words, a gross failure in any of these areas could 
imperil the entire 14-year effort and all its human and monetary costs. 
Our other selection filters were that (1) these areas are at 
significant risk of failure due to fraud, waste, or abuse; (2) they 
involve ongoing or planned reconstruction programs and projects; and 
(3) are subject to the control or influence of the U.S. Government.
    SIGAR recognizes that even in peaceful venues, no reconstruction or 
development program or project is without risk of failure, or without 
exposure to fraud, waste, and abuse. But these risks are magnified in 
insecure and unstable conflict areas like Afghanistan. Moreover, the 
work of SIGAR and other oversight agencies has shown that some 
reconstruction efforts in Afghanistan are at unnecessarily high risk, 
which agencies could mitigate by taking appropriate corrective actions.
Area 1: Corruption/Rule of Law
    Corruption is one of the most serious threats to the U.S.-funded 
Afghanistan reconstruction effort. In a February 2014 report, the DOD 
Joint Staff wrote--perceptively--that ``Corruption alienates key 
elements of the population, discredits the government and security 
forces, undermines international support, subverts state functions and 
rule of law, robs the state of revenue, and creates barriers to 
economic growth.'' \11\
---------------------------------------------------------------------------
    \11\ DOD, Joint and Coalition Operational Analysis (JCOA), division 
of Joint Staff J-7 (Joint Force Development), Operationalizing Counter/
Anti-Corruption Study, 2/28/2014.
---------------------------------------------------------------------------
    Reducing corruption and increasing accountability are important 
components of the U.S. reconstruction strategy in Afghanistan. However, 
in 2010, SIGAR reported that more than $50 billion in U.S. assistance 
had been provided for reconstruction in Afghanistan since 2002 without 
the benefit of a comprehensive anticorruption strategy, and that U.S. 
anticorruption efforts had provided relatively little assistance to 
some key Afghan institutions.\12\ SIGAR and other observers--not least 
of whom is President Ghani--have consistently reported that corruption 
remains a massive and systemic problem in Afghanistan. It is troubling, 
therefore, that the United States continues to operate without a 
comprehensive overall strategy for coordinating and executing effective 
measures to reduce the malign influence of corruption in Afghan 
society. Corruption is a critical issue not only for government 
effectiveness and legitimacy, but for fiscal sustainability: Kabul 
relies heavily on customs receipts for domestic revenue, but corruption 
severely constricts the actual flow of funds to its treasury, while 
also adding to the risk of ``donor fatigue.'' SIGAR's Lessons Learned 
Program has a research and analysis project under way focused entirely 
on the problem of corruption in Afghanistan.
---------------------------------------------------------------------------
    \12\ SIGAR Audit 10-15, U.S. Reconstruction Efforts in Afghanistan 
Would Benefit from a Finalized Comprehensive U.S. Anti-Corruption 
Strategy, 8/5/2010.

---------------------------------------------------------------------------
    Key questions for consideration are:

  --To what extent have U.S. technical assistance and capacity-building 
        programs dedicated sufficient resources to reducing corruption 
        within the Afghan Government?
  --Why does the United States still lack a comprehensive 
        anticorruption strategy for Afghanistan reconstruction?
  --Have U.S. agencies revisited the premises and approaches of their 
        own anticorruption strategy in light of the persistence and 
        severity of the problem?
  --What steps has the Afghan Government taken to pursue criminal 
        action against those matters referred by SIGAR and other U.S. 
        and international law-enforcement bodies?
  --What steps are U.S. agencies and the Afghan Government taking to 
        reduce corruption within Afghanistan's customs-collection 
        system?
Area 2: Sustainability
    Another acute risk to the reconstruction effort is that Afghanistan 
simply cannot sustain many of the programs and projects without large 
and continuing financial support from the United States and other 
donors. For example, the Afghan Government's budget for its fiscal year 
1395 (December 2015-December 2016) envisions domestic revenues covering 
only 31 percent of the national budget; foreign grants and loans would 
fund the remaining 69 percent.\13\ Afghanistan also lacks the technical 
and managerial capacity needed to sustain many operations.
---------------------------------------------------------------------------
    \13\ Ministry of Finance, Government of Afghanistan, National 
Budget Document fiscal year 1395, English-language version, 2/9/2016, 
pp. 3, 5.
---------------------------------------------------------------------------
    SIGAR's work has shown that State, USAID, and DOD have not always 
considered sustainability when planning programs or projects, 
jeopardizing the massive investment that the United States and other 
international donors have made. Further, both the international 
community and the Afghan Government agree that improving the energy 
sector is essential to Afghanistan's economic progress and long-term 
viability. However, the Afghans cannot afford to pay for much of the 
electric power infrastructure that the U.S. reconstruction effort has 
provided. In June 2015, for example, a SIGAR inquiry letter drew 
attention to concerns that the Afghan national electric utility might 
be unable to sustain operations and maintenance of the $335 million, 
USAID-funded Tarakhil Power Plant needed as backup generation for the 
Kabul area.\14\
---------------------------------------------------------------------------
    \14\ SIGAR-15-65-SP Inquiry Letter: Tarakhil Power Plant, to the 
USAID Acting Administrator and Mission Director for Afghanistan, 6/19/
2015.

---------------------------------------------------------------------------
    Questions for consideration are:

  --What if any progress has the Afghan Government made in generating 
        revenues to fund government operations, and in improving the 
        administrative and technical skills of its workforce?
  --What planning steps and practical measures have U.S. agencies taken 
        and coordinated amongst themselves and with Afghan ministries 
        to sustain their programs and projects during the country's 
        Decade of Transformation?
Area 3: ANDSF Capacity and Capabilities
    Establishing security is fundamental to preventing Afghanistan from 
again becoming a safe haven for terrorists, and to enabling much-needed 
reconstruction and development activities to succeed. A well-developed 
and fully capable ANDSF is critical to achieving and maintaining this 
security. Building the capacity of the ANDSF has therefore been a key 
component of the U.S. and international reconstruction effort. As of 
December 2015, Congress had appropriated more than $68 billion to 
build, equip, train, and sustain the ANDSF. That figure represents 61 
percent of all U.S. appropriations for Afghanistan reconstruction.\15\
---------------------------------------------------------------------------
    \15\ SIGAR, Quarterly Report to the Congress of the United States, 
1/30/2016, Appendix B.
---------------------------------------------------------------------------
    This significant investment in Afghanistan's security is at risk, 
as evidenced in no small part by SIGAR's documentation of concerns 
about the actual strength and capability of the ANDSF. In April of last 
year, for example, SIGAR reported that unannounced audit visits to 
Afghan National Army and Afghan Air Force units found the identities of 
only 103 of 134 personnel sampled could be verified against ANA 
personnel data. Some lacked ANA identification cards, and a few were 
not even listed in the services' human-resources data base. SIGAR's 
auditors also found inconsistent use of daily rosters, lack of 
verification of numbers, unsupervised paper-based and manually 
submitted data systems, weak controls, and Afghan ministry failures to 
submit financial records to the U.S. military, among other 
difficulties.\16\
---------------------------------------------------------------------------
    \16\ SIGAR, Quarterly Report to the Congress of the United States, 
4/30/2016, pp. 3-4.
---------------------------------------------------------------------------
    Since 2008, SIGAR has released 74 reports examining how funds 
appropriated for the ANDSF have been used, and has submitted 167 
improvement recommendations to DOD. Improvements have been made, but 
the security picture in Afghanistan remains troubling, and appears to 
be worsening. National Intelligence Director James Clapper said last 
week that the intelligence community believes ``fighting in 2016 will 
be more intense than 2015, continuing a decade-long trend of 
deteriorating security.'' \17\
---------------------------------------------------------------------------
    \17\ Senate Armed Services Committee, Statement for the Record of 
James R. Clapper, ``Worldwide Threat Assessment of the U.S. 
Intelligence Committee,'' 2/9/2016, p. 26.
---------------------------------------------------------------------------
    Looming challenges include high levels of ANDSF casualties, 
insurgent activity during the usually quiet winter season, the 
temporary Taliban seizure of the provincial capital of Kunduz, a 
distinct threat to government control of Helmand Province, and the 
appearance of al-Qaeda and Islamic State fighters in Afghanistan. These 
and other developments add to long-standing concerns with ANDSF 
personnel numbers, recruitment and retention, evaluation methodologies, 
leadership effectiveness, unit capabilities for operating 
independently, and ability to operate and sustain equipment and 
infrastructure.\18\ Meanwhile, the U.S. drawdown and the loss of 
``touch points'' at the maneuver-unit level have magnified the 
difficulty of observing the actual outcomes of U.S. security assistance 
and of checking data supplied by Afghan ministries.
---------------------------------------------------------------------------
    \18\ For details, see SIGAR 16-17-TY, Statement of John F. Sopko, 
Special Inspector General for Afghanistan Reconstruction, ``Assessing 
the Capabilities and Effectiveness of the Afghan National Defense and 
Security Forces,'' Before the Subcommittee on Oversight and 
Investigations, Committee on Armed Services, U.S. House of 
Representatives. 2/12/2016.

---------------------------------------------------------------------------
    Possible questions on the capability of the ANDSF include:

  --Is the ANDSF making significant and verifiable progress toward 
        becoming an effective and sustainable force for security and 
        counterterrorism purposes?
  --How has the U.S. drawdown-induced loss of ``touch points'' below 
        the level of Afghan ministries and corps affected the U.S. 
        ability to assess Afghan capabilities and provide effective 
        training and assistance?
  --Are ANDSF recruitment, training, and retention efforts improving so 
        as to reduce casualties and offset attrition?
  --Has DOD taken practical and effective steps to account for and 
        safeguard U.S.-provided equipment and infrastructure, and 
        ensure that Afghans can fully utilize and maintain them?
Area 4: On-Budget Support
    The United States and other international donors have agreed to 
increase the proportion of their development aid for Afghanistan 
delivered on-budget to 50 percent. On-budget assistance can take the 
form of direct, government-to-government assistance (also referred to 
as bilateral assistance), or can flow through multi-donor trust funds 
before reaching the Afghan Government.\19\ In either case, concerns 
arise about visibility and accountability of the funds. SIGAR's prior 
work has shown that many ministries lack the capacity or necessary 
internal controls to effectively manage and account for on-budget 
assistance funds, and are unable to do so in a transparent manner that 
enables U.S. agencies to oversee those funds. A 2014 SIGAR audit 
revealed that USAID's own assessments of seven Afghan ministries 
receiving on-budget U.S. assistance found that none would be capable of 
effectively managing and accounting for those funds unless they 
implemented a series of required risk-mitigation measures developed by 
USAID.\20\ Further, in a review of DOD's safeguards for funds provided 
to the MOD and Ministry of Interior (MOI), SIGAR identified a number of 
weaknesses that increased the risk that on-budget funds provided to the 
ANDSF that made those funds particularly vulnerable to waste, fraud, 
and abuse.\21\ Meanwhile, once money is delivered on-budget, it is not 
only beyond U.S. control (as intended), but difficult to monitor 
without negotiated agreements on access to files and electronic-
information systems.
---------------------------------------------------------------------------
    \19\ Major multidonor trust funds for Afghanistan are the 
Afghanistan Reconstruction Trust Fund, managed by the World Bank; the 
Afghanistan Infrastructure Trust Fund, managed by the Asian Development 
Bank; and LOTFA, the Law and Order Trust Fund for Afghanistan, managed 
by the U.N. Development Program. The United States has contributed to 
all three.
    \20\ SIGAR Audit 14-32-AR, Direct Assistance: USAID Has Taken 
Positive Action to Assess Afghan Ministries' Ability to Manage Donor 
Funds, but Concerns Remain, 1/30/2014.
    \21\ SIGAR Special Project Report 14-12-SP, Comprehensive Risk 
Assessments of MOD and MOI Financial Management Capacity Could Improve 
Oversight of Over $4 Billion in Direct Assistance Funding, 12/3/2013.
---------------------------------------------------------------------------
    One way to improve Afghan ministries' ability to manage and account 
for on-budget assistance is to make on-budget assistance conditional on 
the ministries taking defined actions to improve their financial 
management, procurement, strategic planning, and auditing capabilities, 
among others. President Ghani has long supported conditionality as a 
way to maintain protection for donors while incentivizing host-country 
capacity building. DOD has begun to use explicit conditionality in 
commitment letters with the Afghan Ministry of Finance, and State and 
USAID make some use of it. But fully effective conditionality requires 
rational metrics, buy-in from the host country, verification 
mechanisms, incentives as well as penalties--and a credible show of 
donor determination to pull the trigger on penalties if host-country 
performance falls short of the mark. SIGAR is doubtful that U.S. agency 
use of conditionality for on-budget assistance typically satisfies all 
of those standards.
    International trust funds are a large source of on-budget support 
to Afghanistan. SIGAR recently initiated a new performance audit to 
assess the administration, monitoring, and reporting of the 
multilateral Afghanistan Reconstruction Trust Fund (ARTF), administered 
by the World Bank. U.S. pledges to the ARTF, about $2.8 billion, 
represent 31 percent of its total funding. Donors do not control the 
use of their contributions, but a previous SIGAR audit on the ARTF 
found limitations in the mechanisms the World Bank uses to administer, 
oversee, and report on the uses and results of donor funding.\22\ 
SIGAR's Lessons Learned Program is preparing a report on the overall 
effectiveness of U.S. assistance to develop the ANDSF to achieve its 
security mission.
---------------------------------------------------------------------------
    \22\ SIGAR, Quarterly Report to the Congress of the United States, 
1/30/2016, pp. 23-24.

    Given the ongoing concerns about on-budget support, questions for 
---------------------------------------------------------------------------
consideration are:

  --Are agencies making evidence-based choices between ex ante and 
        performance-based conditionality terms, and are they 
        appropriately imposing accountability?
  --What steps are agencies taking to achieve Afghan transparency and 
        information access in the use of U.S. on-budget assistance?
  --Is the U.S. Government taking effective steps to improve trust-fund 
        reporting of the uses of donors' funds?
Area 5: Counternarcotics
    Production and trafficking of drugs puts the entire U.S. and 
international investment in the reconstruction of Afghanistan at risk. 
The narcotics trade supports the insurgency, feeds organized crime, 
fosters corruption, and undermines governance and society. From 2002 
through December 31, 2015, the United States has provided $8.4 billion 
for counternarcotics efforts in Afghanistan including eradication, 
seizure, and alternative-livelihood programs.\23\
---------------------------------------------------------------------------
    \23\ SIGAR, Quarterly Report to the Congress of the United States, 
1/30/2016, p. 93.
---------------------------------------------------------------------------
    Nonetheless, Afghanistan remains by all accounts the world's 
largest producer of opium. Its processed opium constitutes 90 percent 
of the world's heroin supply, and 11 percent of the Afghan population 
or roughly 3 million people are believed to be drug users.\24\ In 
December of last year, the U.N. Office of Drugs and Crime (UNODC) 
published its Afghanistan Opium Survey 2015, which estimated that 
Afghanistan had 183,000 hectares of land under cultivation with opium 
poppy \25\--more than 450,000 acres. The UNODC reported that 
eradication efforts destroyed about 3,760 hectares of opium poppy in 
2015--about 2 percent of the cultivated area, As metrics of success, 
these are disheartening numbers.
---------------------------------------------------------------------------
    \24\ Voice of America, ``Drug Use Rises in Afghanistan,'' 5/19/
2015.
    \25\ UNODC, Afghanistan Opium Survey 2015: Cultivation and 
Production, 12/2015, pp. 6, 7.
---------------------------------------------------------------------------
    In October 2015, the Afghan Government approved its National Drug 
Action Plan, developed in collaboration with the U.S. Government, and 
to be supported by State's Bureau of International Narcotics and Law 
Enforcement Affairs. The United States, however, has not released an 
updated version of its own counternarcotics strategy. Given the robust 
resistance of Afghanistan's illicit-drug trade to costly suppression 
programs, both the strategies and operations of counternarcotics 
programs raise serious concerns. SIGAR's Lessons Learned Program is 
researching a report on the U.S. counternarcotics strategy and its 
impact.

    Some questions for consideration on the counternarcotics issue are:

  --To what extent has U.S. assistance for counternarcotics efforts in 
        Afghanistan succeeded in achieving its overarching goals and 
        objectives?
  --Given the continuing high levels of opium production and low levels 
        of eradication and seizure, have U.S. agencies made any 
        progress toward and integrated and effective counternarcotics 
        strategy in Afghanistan?
  --Can Afghanistan achieve and sustain reasonable levels of control 
        over the smuggling and money-laundering channels that are vital 
        to the drug trade?
Area 6: Contract Management
    U.S. military and civilian agencies in Afghanistan rely heavily on 
contractors to carry out their missions. At times, the number of 
contractor employees has exceeded the number of in-country U.S. 
military personnel. As the U.S. military and civilian agency draw-down 
continues, our reliance on contractors will likely increase. Although 
contracting has provided indispensable support of the U.S. mission, it 
has also been a massive opportunity for waste, fraud, and abuse, and an 
enormous challenge to effective oversight of funding and performance.
    Shortcomings in Federal agencies' management and oversight of 
contracts and other agreements have featured in numerous SIGAR 
products. For example, one of the potentially most alarming incidents 
of poor contract management appeared in the construction of a 10-
classroom, DOD-funded school addition in Bathkak, Afghanistan. The site 
is in an earthquake zone. But contrary to requirements, the contractor 
built unreinforced-brick instead of cement-block walls, and installed a 
heavy slab roof instead of the specified wood-truss roof. Despite the 
potentially lethal consequences of the construction method, the first 
inspection did not occur until 6 months into the work, and even then 
was not properly documented. As SIGAR reported in 2013, DOD 
acknowledged that U.S. forces in Afghanistan lacked the capacity to 
administer, oversee, and close contracts to ensure proper 
performance.\26\
---------------------------------------------------------------------------
    \26\ SIGAR, Quarterly Report to the Congress of the United States, 
7/30/2013, pp. 5-6.
---------------------------------------------------------------------------
    In January 2015, SIGAR reported that it was unable to complete a 
full inspection of Gorimar Industrial Park, built under a $7.7 million 
USAID contract, because USAID could not locate project design, 
planning, construction, quality-assurance, and related documents that 
the agency should have maintained to comply with the Federal 
Acquisition Regulation.\27\
---------------------------------------------------------------------------
    \27\ SIGAR Inspection 15-30-IP, Gorimar Industrial Park: Lack of 
Electricity and Water Have Left This $7.7 Million U.S.-funded 
Industrial Park Underutilized by Afghan Businesses,
1/27/2015.

    Key questions for consideration regarding U.S. agencies' contract 
---------------------------------------------------------------------------
management and oversight are:

  --If security conditions prevent U.S. access for direct management 
        and oversight in some areas, to what extent have agencies made 
        reasonable plans for adequate and verifiable remote or third-
        party monitoring of contractor performance?
  --What steps have agencies taken to improve contract management and 
        oversight, particularly agency personnel's adherence to 
        existing regulations and policies and contractors' adherence to 
        the terms of their agreements?
Area 7: Strategy and Planning
    The U.S. reconstruction effort has at times suffered from gaps 
between strategic objectives documents and the programs and projects 
intended to attain them. Such shortcomings in strategic and operational 
planning may cause agencies and projects to work at cross purposes, 
spend money on duplicative or unnecessary efforts, or fail to 
coordinate efforts for maximal impact.
    SIGAR recently reported one example of a disconnect between 
strategy and operations involving the goal of stabilization. Since 
2003, USAID has spent at least $2.3 billion on stability programs meant 
to engage and support at-risk populations, extend the Afghan 
Government's reach to unstable areas, provide income opportunities, 
build trust between citizens and government, and encourage local people 
to participate in development.\28\ Stability is a key point in U.S. 
goals for a secure, stable, and unified Afghanistan that can prevent 
the emergence of future threats.\29\ In response to a SIGAR query, 
however, USAID recently said it has received no new funding for peace 
and security programming, and has no plans to continue stabilization 
activities in Afghanistan.\30\ It is possible, of course, that 
stabilization could emerge as a result of programs nominally pursuing 
other objectives, but the stabilization strategic goal appears to lack 
explicit operational components.
---------------------------------------------------------------------------
    \28\ SIGAR, Quarterly Report to the Congress of the United States, 
1/30/2016, p. 119.
    \29\ President Barack Obama, ``Statement by the President on 
Afghanistan,'' 10/15/2015.
    \30\ SIGAR, Quarterly Report to the Congress of the United States, 
1/30/2016, p. 119.
---------------------------------------------------------------------------
    SIGAR is not alone in observing such disconnects. In December 2015, 
for example, USAID's inspector general released an audit of the 
agency's strategy system for multi-tier monitoring of its projects in 
Afghanistan.\31\ The report noted that USAID had presided over $17 
billion in Afghanistan reconstruction projects since 2002, was facing 
reduced staff count and site access in-country, and developed a 
strategy of multi-tiered monitoring. The intent was ``to insure the 
greatest degree of oversight possible'' by drawing on information from 
multiple sources like independent monitoring contractors, staff 
observations, implementing partners' reports, local non-governmental 
organizations and civil society, and technological tools. The USAID 
inspector general found that the agency's implementation of the 
strategy was ``aspirational,'' as the multi-tier monitoring system 
suffered from lack of standards, incomplete databases, lack of analysis 
and monitoring plans, and lack of tracking for evaluations and 
recommendations. SIGAR's Lessons Learned Program is drafting a report 
on interagency strategy and planning lessons.
---------------------------------------------------------------------------
    \31\ USAID, Office of the Inspector General, Audit Report F-306-16-
001, Audit of USAID/Afghanistan's Strategy for Monitoring and 
Evaluating Programs Throughout Afghanistan,
12/10/2015.

---------------------------------------------------------------------------
    Key questions for consideration are:

  --Are U.S. agencies regularly revisiting strategies, devising 
        meaningful metrics, verifying outcome reports, and adjusting 
        strategies and plans in light of actual results?
  --How effectively is strategic and operational planning coordinated 
        among U.S. agencies, with other donors and the Afghan 
        Government, and, as appropriate, with key nongovernmental 
        organizations?
  --Have U.S. agencies developed clear guidance for determining when a 
        strategy has failed, and for deciding whether to modify or 
        abandon it?
Area 8: Oversight Access
    The increasing difficulties U.S. agencies are having--due to, among 
other things, the drawdown of U.S. and Coalition military personnel, 
deteriorating security conditions across Afghanistan, and the ongoing 
normalization of Embassy Kabul's operations and presence--have made it 
much more difficult and at times impossible for agency personnel to 
oversee their programs and projects first-hand. These factors 
exacerbating ongoing problems with contract oversight such as spotty 
compliance with regulations on inspecting, documenting, and imposing 
accountability on contractors' work; inadequate numbers of technical 
specialists to advise contracting officer representatives; and 
personnel rotations that impair continuity of oversight and 
institutional memory.
    USAID has developed a multi-tiered monitoring and evaluation 
strategy for Afghanistan that includes using independent, third-party 
contractors to monitor and evaluate the agency's programs. State is 
reportedly taking similar steps. Given the billions of dollars yet to 
be spent in Afghanistan--and the hundreds of companies and individuals 
already debarred or suspended from Federal-contract work as a result of 
SIGAR referrals to administrative officials--the growing challenges to 
oversight access require close attention and effective mitigating 
actions.

    Key questions for consideration are:

  --Are agencies tracking staffing, security, and transport indicators 
        to determine what program sites cannot be safely or practicably 
        accessed for oversight?
  --When contemplating new projects or new work sites, are agencies 
        specifically assessing oversight access and planning mitigation 
        measures where needed?
  --Have agencies taken appropriate steps to use third-party monitors, 
        remote sensing, increased access to Afghan documentation and 
        officials, or other tools to maintain acceptable levels of 
        oversight?
  --If effective oversight cannot be maintained, have agencies 
        conducted prudent inquiries whether projects at affected sites 
        should be suspended, modified, relocated, or terminated?
                               conclusion
    Much remains to be done before Afghanistan can ensure its own 
stability and security, and provide its citizens with essential 
services like a fair and effective rule of law and comprehensive 
education. The reconstruction that has already cost $113 billion will 
continue for years and, as currently planned, will cost many billions 
more. The success of this effort critically depends on the U.S. 
Government's ability to efficiently and effectively provide 
reconstruction assistance to Afghanistan and ensure that funds are not 
wasted or abused.
    Thank you for the opportunity to submit a written statement for the 
hearing record. SIGAR shares your commitment to protecting U.S. funds 
from waste, fraud, and abuse and is committed to assisting Congress, 
U.S. agencies, and other stakeholders by continuing to provide 
aggressive and independent oversight of the reconstruction effort, and 
by offering recommendations and lessons based on that work.
                                 ______
                                 
 Prepared Statement of John F. Lansing, Chief Executive Officer of the 
                    Broadcasting Board of Governors
    Chairman Graham, Ranking Member Leahy, thank you for inviting me to 
submit testimony on behalf of the Broadcasting Board of Governors (BBG) 
to the Subcommittee on State, Foreign Operations, and Related Programs 
of the Senate Appropriations Committee.
    As the Chief Executive Officer of the BBG, I appreciate your 
inclusion of our fiscal year 2017 budget request testimony into the 
Record, on the date of Secretary of State John Kerry's testimony before 
this subcommittee. The President's request for the BBG for fiscal year 
2017 is $777.8 million, an increase of 3.7 percent over fiscal year 
2016 enacted.
    The BBG is the independent agency tasked with overseeing and 
supervising civilian international media activities funded by the 
United States Government. Our mission is ``to inform, engage, and 
connect people around the world in support of freedom and democracy.'' 
BBG directly oversees the Federal Voice of America (VOA) and Office of 
Cuba Broadcasting (OCB), and BBG-funded grantees Radio Free Europe/
Radio Liberty (RFE/RL), Radio Free Asia (RFA) and the Middle East 
Broadcasting Networks (MBN).
    The BBG distributes programming in 61 languages to more than 100 
countries via terrestrial and satellite TV, the Web, live streaming, 
mobile devices, and social media--as well as radio--shortwave, medium 
wave (AM), FM and satellite. Our global audiences comprise more than 
226 million people each week.

    Funding for the five networks in our fiscal year 2017 request 
includes:

  --$224.4 million for Voice of America, a multimedia broadcast service 
        which began in 1942 as a radio news service for people living 
        in closed and war-torn societies, and currently reaches people 
        through both traditional and modern media platforms;
  --$121.1 million for Radio Free Europe/Radio Liberty, a private, 
        nonprofit, multimedia broadcasting corporation that serves as a 
        surrogate media source in 28 languages and in 23 countries 
        including Russia, Ukraine, Iran, Afghanistan, Pakistan, and the 
        former Soviet republics of Central Asia;
  --$112.1 million for Middle East Broadcasting Networks, a private, 
        non-profit, multimedia broadcasting corporation that provides 
        the United States a direct line of communication with Arabic-
        speaking people of the Middle East and North Africa;
  --$38 million for Radio Free Asia, a private, nonprofit, multimedia 
        corporation that serves as a surrogate broadcaster in Asian 
        countries that prevent or restrict freedom of the press;
  --$27.1 million for Office of Cuba Broadcasting, which administers 
        Radio and Television (TV) Marti programs.

    The sheer volume of available media has increased exponentially as 
people migrate to digital and mobile platforms, but not all information 
is created equal. Actors from ISIL to China to Russia are using 
information not just to ``win the news cycle,'' but also are using 
propaganda and censorship to foment hate and confusion, monitor and 
suppress dissent, and sow the ground for terroristic activities.
    During the Cold War the United States countered the information 
vacuums created under suppressive regimes with reporting through Voice 
of America, Radio Free Europe, and other tools.
    Today, certain state actors are promulgating an abundance of false, 
doctored, or misleading information on a multitude of different 
platforms for consumption. Through both its Federal components (VOA and 
OCB) and its BBG-funded grantees (MBN, RFE/RL, and RFA), BBG provides a 
platform for high-quality reporting that serves as a beacon for 
accurate, fact-based journalism. In environments inundated with 
propaganda or falsehoods, the best antidote is objective, fact-based 
reporting that arms citizens with the truth. As such, BBG's global 
reach and journalistic credibility play a vital role in correcting 
falsehoods, holding people and institutions accountable, and 
demystifying U.S. policy in these communities.
    Since my tenure as CEO, and with the unanimous support of the 
Board, I have aggressively prioritized five core themes to ensure the 
BBG is the 21st century media organization that the taxpayers demand. 
The President's fiscal year 2017 budget request feeds directly into 
these themes.
    First, we are accelerating our shift towards engaging audiences on 
digital platforms, especially through the power of video, mobile, and 
social media. Our request supports this shift in several ways, 
including $2.5 million to expand the ``Raise Your Voice'' campaign into 
new geographic spaces. MBN's successful program uses multiple and 
modern platforms--such as Google Hangout discussions, infographics, 
short videos, and other social media--to engage in discussion about the 
fight against extremism and terrorism across Iraq. The fiscal year 2017 
request proposes to expand ``Raise Your Voice'' to Egypt, Central Asia, 
and the Balkans.
    Our request also includes $2 million for expanded global 
distribution capability. This investment will increase our ability to 
reach satellite audiences in the increasingly popular HD format. It 
will simultaneously lower our costs by leveraging advanced Internet 
protocol (IP) based networks to distribute audio and video content 
across the entire globe.
    Second, we are rapidly expanding coordination and content-sharing 
across the BBG's five interdependent networks in order to cover and 
report on the stories that matter to audiences. I will describe my 
leveraging of the U.S. International Media Coordinating Council (ICC) 
in more depth later in this testimony.
    Third, the BBG is concentrating its efforts in five key issue areas 
where we can be most impactful in support of our mission and U.S. 
global priorities: reporting on Russia; covering violent extremism; the 
widening regional influence of Iran; China and places in which Chinese 
media is influential; and promoting universal human rights and 
fundamental freedoms in Cuba.
    Our initiative for ``Next Generation'' influencers ($15 million) 
will expand digital and video production at both VOA and RFE/RL to 
engage with influential young audiences and future leaders in several 
of these areas. Our specific targets are young adults impacted by 
pressure from Russia, or by the media campaigns of violent extremist 
groups such as ISIL. Specifically, RFE/RL will work in Russia and 
launch teams for Central Asia and areas in Russia's periphery affected 
by protracted conflicts like Trans-Dniestria, South Ossetia, Abkhazia, 
and the North Caucasus, while VOA will reach both Russian-speakers and 
regional audiences vulnerable to ISIL extremism, including Indonesia, 
Bangladesh, Pakistan and Afghanistan.
    Fourth, we are evolving to an organization actively engaged in 
curating, commissioning, and acquiring content. For broader impact, the 
BBG needs to focus its reporting to not just rehash the daily news, but 
rather to provide powerful original reporting, and depth and 
perspective on current events for more meaning and impact. Curating 
external content to provide day-to-day news and content will free up 
BBG resources to perform the more compelling and impactful, in-depth 
reporting.
    Finally, and critically, we are emphasizing impact in addition to 
audience size. By putting audience interests and needs first in how we 
collect, create and distribute news and information, and working 
backward from there, we propose to take a more modern approach to 
informing, engaging, and connecting with our audiences.
    BBG specifically requests $2 million for a research investment for 
impact studies in key younger demographics that can assist in 
developing audience loyalty and trust for BBG's expanding Russian-
language media, in engaging young audiences in regions experiencing 
high levels of violent extremism, as well as increasing the impact of 
digital media to those who opt-in in Cuba and Latin America.
    Other significant aspects of the request include $182.3 million for 
the technical infrastructure we need to produce and deliver our wide 
range of media products from the five networks to audiences around the 
world; and $63 million for the shared support services. And we request 
$9.7 million for Broadcasting Capital Improvements to support 
infrastructure and enhancements at two key sites, including our Kuwait 
Transmitting Station.
    Our request recognizes that some increases must be offset by 
reductions. To do so, the BBG strives to trim and eliminate expensive 
services and infrastructure that are no longer critical to the mission. 
At a cost saving of $5.7 million, BBG will realign transmitting station 
sites and transmissions across its worldwide network in response to the 
global migration from shortwave listening to other media formats. BBG 
has also identified $14.3 million in operating and administrative 
reductions.
    As CEO, I am placing a high priority on Internet freedom. The BBG 
Internet Freedom (IF) program is in accordance with a congressional 
directive that we fund ``the continued development of technologies that 
provide or enhance access to the Internet, including circumvention 
tools that bypass Internet blocking, filtering, and other censorship 
techniques used by authoritarian governments'' (section 7078 of the 
Fiscal Year 2016 Appropriations Act).
    In December 2015, I proposed and the Board passed a framework and 
governance structure to strengthen and formalize the process by which 
the agency evaluates and funds projects to counter Internet censorship 
across the globe. Starting in 2016, this process is expected to be 
overseen by a new Internet Freedom Office, which will answer directly 
to me as CEO, to oversee the selection and evaluation of IF projects.
    The request also includes a proposal to establish a new Spanish-
language ``grantee'' that would be authorized to receive a Federal 
grant from the BBG to carry out broadcasting to Cuba. Nothing in this 
request should be construed to change either the mission or the brands 
of the current Office of Cuba Broadcasting. The viewers and listeners 
of Cuba would still receive the same high-quality broadcasting as under 
the current structure.
    As CEO of the BBG, I recognize that we must change, and the BBG 
Board shares this viewpoint as well. To that end, I appreciate the 
opportunity to speak about reforms at the BBG and legislation that 
would enact reforms.
    It is critical to acknowledge that in the recent past, the BBG has 
not responded as effectively as necessary to respond to fast-breaking 
global challenges. As BBG Chairman Jeff Shell testified before the 
Senate Foreign Relations Committee in November, ``As with any media 
organization, be it Universal Pictures or the BBG, the responsibility 
for organizational breakdown and inertia starts at the top.'' I agree 
that the difficulties engendered by a part-time Board tasked with day-
to-day operations of an agency with global reach demand a strong 
solution.
    Creating a Chief Executive Officer position at the BBG who is 
empowered to manage the day-to-day BBG operations and functions, 
including the ability to shift resources as needed and appoint senior 
officials, has been a key first reform. The Board has already taken 
strong steps in this regard by voluntarily electing to shift all the 
powers it could legally delegate to a CEO, who oversees nonmilitary 
international broadcasting activities and provides day-to-day 
management of BBG operations.
    As that CEO, I am happy to report that--with the full support of 
the Board--we have taken steps toward meaningful agency reform under 
this new structure. The current Board--a bipartisan, collaborative 
panel appointed by the President and confirmed the Senate--is fully 
united behind the changes we need to make to ensure BBG's success, and 
the ways we need to operate to do so. It is a pleasure to work hand in 
glove with a slate of public policy and industry experts who are 
steadily focused on the mission of the agency, without reverting to the 
distractions of party politics.
    Under the current structure, I have been able to make headway on 
management changes that will significantly strengthen our agency. 
Referring to existing authorizing legislation, I have convened a 
standing coordinating body of the BBG networks, called the U.S. 
International Media Coordinating Committee (ICC). The ICC is tasked to 
``examine and make recommendations to the Board on long-term strategies 
for the future of international broadcasting, including the use of new 
technologies, further consolidation of broadcast services, and 
consolidation of currently existing public affairs and legislative 
relations functions in the various international broadcasting 
entities,'' as authorized under section 307 of the International 
Broadcasting Act, as amended.
    The ICC now meets on a biweekly basis, and comprises the CEO and 
the five network heads. The ICC has led to drastically enhanced 
cooperation with clear successes in content coordination and cost 
savings and efficiencies. For example, VOA was able to share material 
from the State of the Union that the non-Federal networks were unable 
to obtain, and similarly shared and enhanced each other's coverage of 
the Paris attacks, Burmese elections, and other more recent news.
    In addition to the steps I have already taken, however, the BBG 
requires specific legislative changes. At the Board's request, the BBG 
asks to permanently enshrine the CEO position into law as the 
operational and oversight lead at BBG, and our fiscal year 2017 budget 
request makes this request.
    In my conversations with Members of Congress, many have pointed out 
to me that while the situation seems to have improved at the BBG with 
the advent of the CEO position and a better-functioning Board, there is 
no guarantee for harmonious operations in the future. A legislative fix 
would ensure that the CEO position exists permanently, and that the 
Board's strategic governance function is more clearly defined.
    While the Board has elected to delegate key powers to the CEO 
through its own volition, the current authority limits the scope of the 
Board's delegable authority. In practice, for example, this can mean 
Board deliberation and vote is still required to reallocate even the 
most de minimis dollar amount of funds across the various bureaus and 
Federal and grantee broadcasting networks of the BBG when requirements 
change. In other words, in order to move even one penny between the 
entities, even under the most urgent of circumstances, the CEO must 
seek a vote of the full Board.
    It is clear that we need to institutionalize the CEO role through 
legislation, authorizing the Board to delegate the remainder of its 
authorities, required for effective and efficient day-to-day operation 
of the agency, to the CEO. The Board would continue to focus on 
strategic oversight and governance.
    Beyond these management fixes, we also need to ensure further 
structural and operational agility. Unfortunately, many of our existing 
authorities, a number of which date back to 1948 or thereabouts, are 
either obsolete or incomplete for our purposes as a 21st century media 
organization.
    A key area in this regard is surge capacity. When crises arise, BBG 
is often asked to quickly surge its efforts to the affected region. The 
International Broadcasting Act requires the agency to do so by 
providing for the ``capability to provide a surge capacity to support 
United States foreign policy objectives during crises abroad.'' We 
require not just enhanced authority to operate notwithstanding certain 
standard processes, but also the ability to turn to a ready source of 
funding. For us, this means the authority to receive or fully utilize 
funds from other agencies. We also wish to explore with your committee 
the establishment of a no-year fund for these purposes.
    Beyond these concrete legislative changes, I wish to address other 
aspects of BBG reform that have been addressed in proposed legislation. 
My desire, and that of the BBG Board, is to work across all actors and 
Committees in the Congress, in order to ensure that the BBG benefits 
from the perspective of stakeholders who have long studied 
international media and broadcasting issues. Further to this end, I 
believe it is critical to engage in an open and clear dialogue on 
different proposals and their potential impacts.
    One existing proposal would bifurcate the BBG's oversight and 
dissolve Federal and congressional oversight of several U.S. funded 
media entities (called the ``grantee'' entities). While well-
intentioned, we believe that this proposal carries the potential for 
abuse and misappropriation of funds that could occur with weakened 
oversight. It would return us to the very same structure which Congress 
implemented once before, and then specifically repealed for these very 
same reasons.
    Existing legislation would significantly weaken Federal oversight 
and supervision over the BBG-funded grantees. It would also establish a 
self-replenishing, private board that is ultimately answerable to 
neither the Executive Branch nor Congress. The proposal would also 
prevent the BBG from requiring that grantees follow a unified U.S. 
strategy or tailor efforts to meet U.S. goals and priorities. These 
changes raise significant oversight and governance concerns from the 
administration's perspective.
    That said, the Board and I believe that existing legislation offers 
a potential framework for common ground in several key areas, and that 
certain portions hold merit and are worth further discussion and 
consideration. We should, for instance, engage in further study of the 
establishment of a sub-agency that would oversee the grantees, as has 
been suggested by reform-minded legislators. We might find significant 
savings and efficiencies in creating unified systems for personnel and 
administration to replicate the work currently being done identically 
in three separate grantee organizations.
    With the legislative fixes outlined in the fiscal year 2017 budget 
and in this testimony, and without the detrimental legislative fixes 
also outlined, the BBG will be best positioned to thrive in its 
mandated role as a unique tool in the U.S. foreign affairs toolbox, and 
will be a powerful force for countering the challenges posed by the 
growth of misleading or propagandistic information globally.

                                 LIBYA

    Senator Graham. Thank you, Mr. Secretary. You certainly 
have my promise and pledge to help you get the money you need 
and the flexibility you deserve to deal with the problems that 
are growing. Whatever we can do in this account, we will do.
    But let me sort of inventory what awaits the next President 
and what this committee should be thinking about.
    Is Libya a failed state now?
    Secretary Kerry. It is close. The reason I would say to you 
not at this moment is because we have been working really hard 
for the last months particularly to bring together a government 
in Tripoli, and we have a prime minister designate. We have a 
government. We have a couple outliers that are resisting this 
effort. If they cannot get themselves together, yes, it will be 
a failed state.
    Senator Graham. So what do you think it would cost, in 
terms of the world community, if we could ever get a resolution 
to put Libya back together?
    Secretary Kerry. Well, the virtue of it, Mr. Chairman, is 
that Libya is a wealthy nation. Libya has some $60 billion----
    Senator Graham. So you do not think it would cost us a 
whole lot?
    Secretary Kerry. It should not cost us a whole lot.
    Senator Graham. Okay.
    Secretary Kerry. Libya can pay for its own rebuilding.
    Senator Graham. Okay. If we can ever get it rebuilt.
    Secretary Kerry. It is only 6 million people.

                                 YEMEN

    Senator Graham. Right. What about Yemen? Is Yemen a failed 
state?
    Secretary Kerry. Yemen, right now, is more than a failed 
state. It is a growing humanitarian challenge. My hope is, in 
the most recent conversations I have had with the Saudis, with 
the Omanis, with the Emiratis, and others, I believe there may 
be a ripeness for trying to move forward on a political 
resolution.
    The Saudis have well-protected their borders. Together with 
the Emiratis and the coalition, they have effectively pushed 
back the threat that existed. I believe there is a way now. But 
the key is to get the parties, the Houthi government and the--
--
    Senator Graham. Is Iran being helpful?
    Secretary Kerry. I beg your pardon?
    Senator Graham. Are the Iranians being helpful?
    Secretary Kerry. They have declared that they are prepared 
to be and are ready to try to find this political settlement.
    Senator Graham. Are the Iranians helpful in Syria?
    Secretary Kerry. Well, when you say ``helpful,'' the 
Iranians have obviously supported the Houthi and been involved 
in the other side of the fence with respect to what we are 
trying to do with Yemen. So in Yemen, while they are indicating 
now a readiness for settlement, they have been part of the 
problem.
    In Syria, they have been a huge part, obviously. The 
Islamic Revolutionary Guard Corps (IRGC), the support for 
Hezbollah, the support for Assad is extremely----
    Senator Graham. Yes, sir. Let us go back to Yemen.
    We do not have an Embassy in Yemen any longer, is that 
correct? And we do not have one in Libya?
    Secretary Kerry. That is correct.
    Senator Graham. So we are going to have to go back. I want 
to know what that would cost, if we ever get back there. How 
much money do you think it will cost the American people, or 
you would recommend to the American people, to put Yemen back 
together? Or can the region pay for that?
    Secretary Kerry. The region will pay for that. The Saudis 
have indicated that if they achieve the agreement they hope to 
achieve, they are ready to rebuild Yemen, and I do not think it 
will cost America.

                                 SYRIA

    Senator Graham. Okay. Is it fair to say that the Russians 
have bombed the people we have trained to oppose Syrian 
President Bashar al-Assad?
    Secretary Kerry. Yes.
    Senator Graham. Is it fair to say that the Iranians have 
come to Assad's aid with military advisers and providing him 
weapons and equipment?
    Secretary Kerry. Yes.
    Senator Graham. Is it fair to say that Assad must go?
    Secretary Kerry. Yes.
    Senator Graham. Is it fair to say that the Russians and the 
Iranians are going to insist upon what follows Assad?
    Secretary Kerry. Insist----
    Senator Graham. Have a say?
    Secretary Kerry. Have a say, yes. Insist, I believe they 
will have a real challenge. But they will have a say.
    Senator Graham. Is it fair to say that the people we have 
been training and equipping have been at a military 
disadvantage compared to Assad and his military forces because 
of Russia and Iran?
    Secretary Kerry. Sure.
    Senator Graham. Is it fair to say that whatever negotiating 
power you may have, or they may have, has been lessoned because 
Assad has been reinforced by the Russian and Iranian 
intervention?
    Secretary Kerry. It has obviously changed the table, but 
let me just say to everybody that nobody here should be 
surprised that Russia is engaged and supportive, nor Iran.
    Senator Graham. Were you surprised when the Russians went 
into Syria using military force to bomb the people we trained?
    Secretary Kerry. I was not surprised that the Russians----
    Senator Graham. I was flabbergasted. I was completely 
flabbergasted they would stick it in our eye like that, but 
that is just me.
    Secretary Kerry. Well, Senator, if I could just sort of lay 
this out to you.
    Senator Graham. Please.
    Secretary Kerry. Russia had been indicating to us for some 
period of time concern about the growth of Chechens, more than 
2,000, 2,500 Chechens are fighting on the side of Daesh in 
Syria. And they are deeply concerned because of the experience 
with Chechnya as well as----
    Senator Graham. My time is short, so why have they not 
bombed the Chechens more than the Syrian opposition? Who do 
they bomb the most, ISIL-aligned people or the Assad 
opposition?
    Secretary Kerry. Mr. Chairman, some of this we should deal 
with in a classified session, but let me----
    Senator Graham. I will just say this, Mr. Secretary. They 
have bombed the hell out of the people----
    Secretary Kerry. Seventy percent to 80 percent of the 
bombing, including an area in the northeast where Nusra and our 
moderate opposition have been in very close proximity.
    Senator Graham. Did you welcome the Russian involvement in 
Syria militarily?
    Secretary Kerry. No.
    Senator Graham. Did you tell them, please do not do it.
    Secretary Kerry. We pushed back significantly, as you 
recall, in the early days, but the decision was made, and they 
undertook to----

                                  IRAN

    Senator Graham. Post-agreement with Iran, do you think the 
Iranians have changed their behavior in the region for the 
better, since the nuclear agreement?
    Secretary Kerry. I think the only thing the nuclear 
agreement was about, Mr. Chairman, was about getting rid of a 
nuclear weapon.
    Senator Graham. I agree.
    Secretary Kerry. That is why we left the human rights 
sanctions, the missile sanctions, the arms sanctions, and the 
terrorism-support sanctions in place.
    Senator Graham. Would you support for sanctions by the 
Congress against their violation of the U.N. resolutions, 
against their missile program? Haven't they twice----
    Secretary Kerry. We just put sanctions on.
    Senator Graham. But what you put on I consider almost 
nothing. I have a list a mile long. Would you support Congress' 
effort to let the Iranians know how disappointed we are in 
their behavior?
    Secretary Kerry. Well, we already let them know how 
disappointed we are, and we have warned them further----
    Senator Graham. No, my question is, would you welcome 
Congress' support?
    Secretary Kerry. I wouldn't welcome them at this moment in 
time, given the fact that we have given them a warning. If they 
decide to do another launch, then I think there is rationale.
    Senator Graham. Mr. Secretary, they apparently could care 
less about what you and others are saying. They just put our 
sailors--they held our sailors in contempt of international 
law.
    I do not mean to be argumentative, but the Iran Sanctions 
Act expires this year. Would you welcome Congress reauthorizing 
it?
    Secretary Kerry. Mr. Chairman, let me just answer your 
question there for a minute.
    As a former Navy guy who commanded a small boat like that, 
I am pretty sensitive to what happened and what went on and 
somewhat interested in it. Our guys, regrettably, found 
themselves in Iranian waters, and they found themselves in 
Iranian waters either without power or in distress in some way.
    So, yes, they were approached by an Iranian boat and they 
were taken into custody. We never saw the films of them with 
their hands behind their back and on their knees until well 
after we had released them.
    I was on the phone to the Foreign Minister of Iran within 5 
minutes of learning this upstairs in the State Department. I 
went straight to my phone, called the Foreign Minister, and I 
gave him a very direct statement about what would happen if we 
did not have their release very quickly. I also urged him to 
not go backward on the relationship we were starting to build.
    Within 20 minutes, he called me back and he said: I think 
we have this under control. They are going to be released. They 
are being well taken care of, and they are going to be fed.
    Now, within an hour, we had an agreement for their release.
    And subsequently, we saw the photographs. I immediately 
called, and I condemned those photographs, as every American 
did, and it was a violation of a number of things.
    But the point I am making is, if we had not done this 
agreement, and I did not have a relationship with the Foreign 
Minister, then they probably would have been hostages, and they 
might still be there. So there was a virtue----
    Senator Graham. I would imagine if President Obama wasn't 
President, and anybody else was President, they would never 
have done this to begin with.
    Senator Leahy has a view of President Bush, and I am sure 
he made plenty of mistakes, but I am really tired of us being 
walked on over.
    So, Mr. Secretary, I will help you where I can.
    But here is my question. Do you support the Iranian 
Sanctions Act reauthorization immediately?
    Secretary Kerry. Not immediately, because I think we are 
just beginning now to see the full implementation. I think we 
need to see how effectively and well they comply, and also what 
happens with respect to these other aspects of behavior.
    It does not expire until the end of the year. We can pass 
it in about 10 minutes. I do not think there is a need to rush 
here. I would like to see how the implementation goes, so we 
can do whatever we are doing advised by that process. That 
seems to me to be wise.
    Senator Graham. Thank you.
    Senator Leahy.
    Senator Leahy. If there were an Iranian military boat with 
armed Iranians on it, and they came along the coastline--pick a 
place, say South Carolina--and was well within the U.S. border, 
perhaps the engine stopped, but it had armed Iranians, would we 
not at least hold them until we found out what they were doing?
    Secretary Kerry. Of course, we would have taken them into 
custody. I do not believe, under any circumstances, we would 
have put them on display the way they were put on display.
    Senator Leahy. I understand that. But we would have at 
least----
    Secretary Kerry. They clearly would have been taken into 
custody, and we would have dealt with them straightforwardly 
under any circumstances, I am convinced of that, upholding all 
international law and standards of decency.

                             GLOBAL WARMING

    Senator Leahy. Thank you.
    There is overwhelming scientific evidence that links carbon 
emissions to global warming. The Senate and House Republican 
leadership oppose U.S. funding for the Green Climate Fund or 
any other multilateral fund with a purpose to reduce global 
warming.
    I am just wondering what difference it makes for the Paris 
climate agreement, but also for all those thousands of people 
employed by U.S. manufacturers of clean energy technology if we 
do not support the Green Climate Fund. And what would our 
contribution be used for, if we do support it?
    Secretary Kerry. Mr. Chairman, let me just say that, in 
Paris, Bill Gates was there, Michael Bloomberg was there, a 
number of other entrepreneurs, people who have a proven ability 
to make money and who are pretty intelligent. They all joined 
in a thing called Mission Innovation, along with many other 
countries, including, I might add, China, India, and others. 
India led this effort.
    If the United States does not take advantage of this 
opportunity, we are going to cede leadership and technologies 
to other nations. We can be the sellers of this technology.
    In fact, there is a company that former Vice President Gore 
is involved in which has now achieved a new leap forward in 
solar capacity, so that is far more efficient and far less 
costly. This will allow countries like India and places like 
Africa to be able to do distributive power, which puts power 
into individual hands and does not require you to invest in 
massive infrastructure in order to be able to deliver 
electricity.
    The difference this can make to stability, to livelihoods, 
to health care, to women, to the future, is just stunning. As I 
said, every estimate--go to The Economist, go to Forbes 
magazine, go read basic economic analyses, and they will all 
tell you that there is going to be about $50 trillion spent in 
this sector over the course of the next years.
    We want those jobs to be here, as much as possible. We want 
to push the curve of technology.
    You would think that by now people would realize--I mean 
just yesterday, the fastest rate of sea level rise in 28 
centuries--not years, centuries. We are seeing changes that are 
irreversible, weather changes. Look at the California drought. 
You can go all over the world and see the changes in the amount 
of flooding, the amount of water, the melting of glaciers and 
so forth.
    So I would simply say, at our peril, we ignore the 
responsibility to make some investments in the Green Climate 
Fund and to do what is necessary to maintain American 
leadership.
    One last comment, China joined with the United States in 
Beijing 2 years ago. Our President stood up and announced our 
intended reductions of carbon emissions. That led the world to 
the table in Paris. And I think it would be just unfathomable 
that we do not continue to lead in the way that we have.
    Senator Leahy. I think we can name--most of our States in 
this country have companies that would benefit from jobs in 
green technology. I know mine already has, and can a lot more, 
but virtually every other State can, too.
    Secretary Kerry. It is the fastest growing sector.

                                COLOMBIA

    Senator Leahy. Exactly.
    When President Santos was here recently the White House 
announced its fiscal year 2017 request for $450 million for 
assistance for Colombia. That is a $100 million increase. 
Colombia is often called a success story. And in many respects, 
it is.
    But I think we would all agree there are huge challenges 
ahead. I see the new Peace Colombia plan as a multiyear 
undertaking. It is going to require a lot of money with a 
priority on building capable and accountable law enforcement 
and justice systems, and strategies to produce and market crops 
other than cocoa. How do you see Peace Colombia?
    Secretary Kerry. It is the critical follow-on, Senator 
Leahy, to an effort that you and I and others were involved in, 
Senator Mikulski, called Plan Colombia. In 1999, we passed Plan 
Colombia. It was $1 billion. It was very controversial. People 
did not know for sure where it would go.
    But now, Colombia is an enormous success story as a result 
of America's investment over 10 years of that money, and of the 
Colombian determination to take back their country.
    Now they are trying to end this war, and the United States 
is not going to have to put in the lion's share of the money. 
It will come from Colombia. And others are already committing 
to support this process.
    So, Senator Leahy, I think it is essential for the United 
States to be part of this. President Obama appointed a special 
envoy, Bernie Aronson, who is working with the negotiations. I 
mean, I think it is still hard. It is not a certainty, but it 
is being worked at diligently, and I hope we can get there.

                                 EGYPT

    Senator Leahy. My time is nearly up. As you know, I have to 
go down to the White House.
    But we talked about President el-Sisi's government in 
Egypt. I am afraid they are following some of the same steps 
that created problems in the past: use force to silence 
critics; a lot of corruption; centrally manipulate political 
and economic systems that do not help the Egyptian people.
    The fiscal year 2016 omnibus requires the administration to 
certify the Egyptian Government has met a number of benchmarks 
on democracy, human rights, and the rule of law before you 
release 15 percent of Egypt's military aid.
    Are there examples, real examples, of President el-Sisi's 
government implementing laws and policies to govern 
democratically, protect and advance the rights of women and 
religious minorities, or provide detainees with due process, as 
our law requires? Is there any good news?
    Secretary Kerry. Senator, Egypt is complex, disturbing in 
the ways that you have described, but critical to the region. 
If you talk to anybody in the region, they will tell you that 
if Egypt were to fall and fail, the whole region can go up in 
just incredible confrontation.
    The alternative to what is there now is very, very 
troubling. El-Sisi is cooperating in many ways on many things. 
He is cooperating with us on Libya. He is cooperating with 
Israel every day in the battle against extremists in the Sinai. 
He is working very, very closely----
    Senator Leahy. Is he letting our observers go into the 
Sinai to see what he is doing?
    Secretary Kerry. We have asked them for the ability to be 
able to do that.
    Senator Leahy. We have not done it.
    Secretary Kerry. We have not done it yet.
    Senator Leahy. So we have to take his word for it?
    Secretary Kerry. I beg your pardon?
    Senator Leahy. So we have to take his word?
    Secretary Kerry. No. No, I think that, hopefully, we are 
going to be able to work something out.
    But, Senator, there are disturbing arrests. There are 
disturbing sentences. And we raise these issues. I have 
succeeded in getting some people released. We are steadily, 
constantly talking about opening up and expanding civil 
society, reversing some of the trends that we have all seen 
that we are disturbed about.
    But at the same time, there is a major challenge of 
extremism, bombs that have been going off in Cairo, bombs that 
have gone off in Sharm el-Sheikh, different challenges.
    So it does not excuse these things. I am not suggesting 
that. But we have to try to work and thread a needle carefully 
that can balance the various interests that exist. I am just 
telling you that they are very, very complex, and it does not 
lend itself to a simple edict, ``Do not do this or else.'' It 
is a little more complicated than that.
    Senator Leahy. We will talk some more.
    Senator Graham. Senator Mikulski.
    I would just like to add that I agree with you. The 
nightmare of all nightmares is if Egypt fails, and it is 
complicated. I am going to go see President el-Sisi in a couple 
weeks, so I would like to talk to you about what you would----
    Secretary Kerry. Let me just say, we have a team of people 
going over, Senators, very, very highly qualified CEOs, who are 
going to talk about economic reforms that are needed. We are 
constantly talking about the political reforms in space, civil 
society. So we will continue to work with you on it.
    Senator Graham. Senator Kirk.
    Senator Kirk. Mr. Secretary, I want to compliment you on 
picking Bernie Aronson, my former boss in the State Department. 
I do not think there is a person better to guide us and make 
sure that all parties in Colombia come together. You picked the 
right guy for the right mission.
    Secretary Kerry. Good. Thank you. I will convey your 
compliments to him.
    Senator Kirk. Otherwise known as Don Bernardo of the Andes.
    Secretary Kerry. I can see why.
    Senator Kirk. He is a good guy.

                            EMBASSY SECURITY

    Senator Mikulski. Mr. Secretary, I am going to be leaving 
for a hearing with the Secretary of Homeland Security. I will 
not take the full 7 minutes, but I am deeply concerned about 
Embassy security.
    Our people around the world are busy protecting the 
interests of the United States, and we have to protect them. Of 
course, as you know, we have had some calamities around the 
world.
    I want to be sure, as part of our efforts here that we do 
make sure that we have adequate funding to protect the men and 
women who work at our embassies. I know last year, due to the 
threats, the United States has had to evacuate embassies in 
many countries--Burundi, South Sudan, Mali--due to the threat 
of violence. They have been taken out of Libya and Yemen, the 
right thing to do.
    Do you feel, in the President's budget, that we have 
adequate funds to provide Embassy security to the men and women 
working overseas? And would you say that is the bare minimum, 
or do you think it is the right number?
    Secretary Kerry. I think it is better than the bare 
minimum, for sure. We could always do more in certain places, 
but we are not facing current threats in those places, but we 
could do more. I cannot tell you that something couldn't 
surprise you in a place where, in terms of priority, you are 
just not able to get there now.
    There was always going to be some risk. Both the President 
and I have said very clearly--I mean, we have extraordinary 
people working. And I thank you, Senator, for your concern for 
the safety of everybody.
    There is nothing that consumes our agenda more than our 
constant meetings on the issue of security. I have had to shut 
down three embassies since I have been in, and evacuate them. 
And we have had to temporarily evacuate a number of places and 
make those decisions in the dead of night and get people out 
within 24 hours when there is a threat. So we are constantly 
reading this.
    We have requested $2.4 billion. That includes $1.3 billion 
for worldwide security projects. We have a lot of compound 
security improvement, setback requirements. Some you cannot 
make. In certain cases, I have granted waivers. In other cases, 
we are trying to find new properties.
    We have about $92 million for repairs, 660-some for ongoing 
operations. And then we have OCO projects in Kabul and lease 
costs in very high threat areas.
    But we are watching extremely closely our high-threat 
situations, and we have a new threat evaluation structure, and 
I think we are within our parameters, at this point in time.
    But there is always risk. I do not want anyone to think 
that my sitting here and saying what we are doing in this 
budget is going to eliminate risk somewhere. It is not.
    Senator Mikulski. We do not have to have self-imposed risk, 
so I recall, pre-Benghazi, that while the President had 
proposed an Embassy security budget, it had been deeply cut in 
the House.
    Secretary Kerry. There have been cuts.
    Senator Mikulski. I do not want to pick at this here, 
because there is much to be discussed, but do you feel we have 
the right number?
    Secretary Kerry. I think we have the right number. I think 
we submitted the right number, and that is why we submitted it.
    Senator Mikulski. But it should not go lower than that?
    Secretary Kerry. It should not.
    Senator Mikulski. And we should not pay politics with 
whatever this is, in terms of Embassy security?
    Secretary Kerry. Absolutely not, no. Of course not.

                      COUNTERING VIOLENT EXTREMISM

    Senator Mikulski. I have other questions related to the 
empowerment of women and girls around the country. I know there 
will be other countries related to AID.
    But my last question is this. I am deeply concerned about 
the recruitment of people to work for ISIL, either directly 
join activity to come to Syria and fight, or this horrifying 
lone-wolf potential. I understand it is the State Department's 
job to have a unit there that is supposed to be out there on 
social media against this recruitment.
    Do you think you have the adequate resources? It just seems 
to me that it needs to be more robust and more tied into other 
agencies, particularly the FBI here, and so on. I feel if we do 
not deal with the recruitment, Senator Graham is the expert, 
kind of the boots-on-the-ground guy. I am looking at a 
preventive strategy, particularly as you talk youth bubble, et 
cetera.
    Secretary Kerry. Madam Chair, we would love to work with 
you on that. Yes, we could use more. This is an area where it 
is very labor-intensive. We are hiring a lot of young talent 
that really understands and works with social media with great 
effect.
    Rick Stengel, our Under Secretary for Public Diplomacy, has 
been working very, very hard on this. I just went out to 
California to meet with studio heads to try to enlist young 
talent in the effort to help with YouTube, with short videos, 
with short documentaries and other things that might help get 
the word out.
    But it is not Americans, per se, that are going to do this 
most effectively. We are working in the Emirates. We have the 
Sawab Center that has been opened there that is engaged in 
full-time social media interaction, countering the narrative of 
Daesh. And speaking to young recruits, we have an effort. The 
Saudis have now committed to opening a similar center. In 
Malaysia, there are preparations for opening such a center.
    There are others who are all becoming aware that we have to 
push back on the narrative----
    Senator Mikulski. But all these centers that are being 
opened are they our centers, their centers?
    Secretary Kerry. No, they are their centers, but we are 
working with them. We are helping them to understand the 
technology to work on the messaging, the narrative. It is a 
growing undertaking with enormous consequences for those 
hundreds of millions of young people I talked about who we have 
to reach.
    So this is a very, very important sector, and we are going 
to need additional funding for it going forward.
    Senator Mikulski. Mr. Chairman, my time is up. I just want 
to say about this, we cannot be tepid on this.
    Senator Graham. I am with you.
    Senator Mikulski. And that other is, it has enormous 
potential for doing the kind of preventive work that I know you 
are committed to, or it could turn into a boondoggle here. I am 
not talking about poor management or whatever. But the minute 
we have a lot of centers there and we are helping, and you with 
the DOD background, I think it is the subject of another 
conversation.
    Senator Graham. You are dead right. We will have a hearing 
on it. And when it comes to Embassy security, you will get 
every penny you ask for and more, if I can help it.
    Secretary Kerry. Thank you.
    Senator Graham. Thank you.

                        GUANTANAMO BAY DETAINEES

    Senator Kirk. Let me just ask one question.
    I want to show you a picture of Ibrahim al Qosi, who was 
recently released by the administration to the Sudanese. And he 
appeared on some Al Qaeda videos recruiting people for Al-Qaeda 
in the Arabian Peninsula (AQAP).
    Secretary Kerry. Mr. Chairman, you would know I would be in 
that photo.
    Senator Kirk. I would just say, now that he is out, I hope 
we would end the policy of issuing terrorists to terrorist 
nations where they can get out.
    Secretary Kerry. Well, Senator, he is not supposed to be 
doing that. There are consequences for that, and there will be.
    But apart from that, the fact is that we have people who 
have been held without charges for 13 years, 14 years, in some 
cases. That is not American. That is not how we operate. We 
have a system of justice. Even in the military, we have a code 
of military justice, and we operate under a separate way. We 
just cannot behave like that.
    This is a recruitment tool. Guantanamo and terrorists who 
are----
    Senator Kirk. Let me interrupt here. The recruitment tool, 
I would respectfully say, is him on video saying join me in 
fighting the Americans.
    Secretary Kerry. That is not part of the agreement with 
Sudan, and if they are not upholding the agreement, then he can 
be----
    Senator Kirk. Let me follow up on that.
    Secretary Kerry. If he is advocating----
    Senator Kirk. The chairman and I have laid out a position 
that we think we should reduce assistance to a country that 
releases an Al Qaeda detainee by $10 million per detainee. As 
it applies to the country of Ghana, we give about $40 million a 
year, if they accidentally release their people. I do not know 
if you know, but about 37 people have escaped from Ghana 
prisons. We would also lay out that marker that we agreed with, 
to make sure we reduce assistance to a country that 
accidentally releases an Al Qaeda detainee, to make sure that 
they hold onto these people.
    Secretary Kerry. Well, in a classified session, I can go 
through with you the assurances that we received from a country 
and the process that it has gone through, which is extremely--
--
    Senator Kirk. Mr. Secretary, I would just say, do you still 
certify Sudan as a state sponsor of terror?
    Secretary Kerry. It is still listed, yes. It is under 
evaluation for that, but it is still listed, yes.
    Senator Kirk. I might generally suggest that their words 
might not be worth anything, if they were such a terror-
sponsoring nation.
    Secretary Kerry. We have engaged in a lot of work over the 
last number of years for the implementation of the peace 
agreement that was reached with South Sudan and the creation of 
South Sudan, the referendum and other process. So we have had 
some engagement with them, but we have made it very clear to 
them what our expectations are for any kind of further efforts, 
which include ending the violence in Darfur, ending the 
violence in Blue Nile and South Kordofan, stop supporting Riek 
Machar and the rebels in South Sudan, and so forth.
    So we are currently in a very clear demarche to the 
Government of Sudan as to what they----
    Senator Kirk. So as they said in ``Team America: World 
Police,'' you are going to send them a very angry letter.
    Secretary Kerry. No, we do more than that, Senator. The 
President of the country, as you know, was indicted on war 
crimes. He cannot travel anywhere. We are ready to arrest him 
if we did. I mean, there is a lot going on.
    Senator Kirk. Thank you, Mr. Chairman, Secretary.
    Senator Graham. Do you have anything else?
    Senator Kirk. That is all.
    Senator Graham. Here is the order that I have: Senators 
Coons, Daines, Lankford, Durbin, Blunt, Murphy, and Boozman.
    Senator Coons.
    Senator Coons. Thank you, Chairman Graham. I just want to 
begin by thanking you and Ranking Member Leahy for the very 
constructive bipartisan way in which you have worked together, 
and for your recognition of the enormous value of the 150 
account and your grasp of the role that soft power plays, and 
that diplomats and development professionals play.
    Secretary Kerry, I would like to thank you for your 
service, for your friendship, and for your real leadership at 
the State Department. And to all the folks who serve in the 
State Department, both Foreign Service and civil service and 
the development professionals of the United States Agency for 
International Development (USAID), I recently had a chance to 
visit a number of posts around the world and, once again, I am 
impressed with the dedication and caliber of the folks who 
serve us overseas.

                   INTERNATIONAL ATOMIC ENERGY AGENCY

    Let me start with the International Atomic Energy Agency 
(IAEA), if I might. I think you just spoke to the Paris climate 
accords and the role that we tend to take in important issues 
of leading with a significant contribution and a significant 
role.
    The IAEA secured searching capabilities, and access in Iran 
to the whole nuclear fuel cycle. That was a key part of the 
Joint Comprehensive Plan of Action (JCPOA) that the IAEA 
empowered to not just look at enrichment sites, but also 
uranium mines, uranium mills, and centrifuge production 
facilities.
    I had the opportunity in January to visit with Director 
General Amano in Vienna and his team charged with the 
inspections critical to the enforcement of this agreement. And 
I, frankly, was concerned at the scope and scale of their 
investment in training new inspectors and deploying inspectors 
on the ground. It was underwhelming.
    I was disappointed to see the fiscal year 2017 budget 
request for the IAEA was lower than the fiscal year 2016 
request.
    I understand the internal dynamics that make the IAEA wish 
to spread funding across member states, and respect that. But 
in my view, we ought to be making a significant long-term 
investment, a proactive investment in ensuring that the IAEA is 
confident they will have the funds for long term to recruit and 
train and place the difficult-to-find nuclear inspectors who 
are essential to this.
    I would be interested in your comments on how you see that 
role.
    Let me just ask two other questions, and then yield the 
remainder of my time to you, if I could.

                        DEMOCRACY AND GOVERNANCE

    Second, I am concerned about the democracy and governance 
(DG) accounts across a number of African countries. We have 
used DG funds to provide support for presidential initiatives 
that I also support, but I, frankly, think we are at risk of 
cannibalizing our democracy and governance investments. And I 
would urge their strengthening, both through this subcommittee 
and operationally. If we end up not making the investments that 
are essential to civil society and fair and free elections in 
Africa, I think we will be pennywise and pound-foolish.

                                 SYRIA

    Last, about Russian motives in Syria and their role, I am 
interested in whether you see any daylight between the Russian 
position and the Iranian position as you have been negotiating 
the cessation of hostilities in Syria and what you view as 
Russia's motives long term. Are they simply trying to stabilize 
the Assad regime and then get out and no longer be responsible 
for what happens? Or do you view them as seeking a long-term 
foothold in the Middle East and to reestablish their regional 
leadership role, which we had worked so hard to eliminate 
decades ago?
    I look forward to your answers, Mr. Secretary.

                   INTERNATIONAL ATOMIC ENERGY AGENCY

    Secretary Kerry. Thank you very much, Senator.
    Let me begin, if I may, just by thanking you for your 
incredible focus and leadership with respect to Africa, on a 
number of issues, not just Africa, but particularly Africa, and 
your diligence in visiting there and being present and 
understanding it. It just makes an enormous difference for all 
of us.
    With respect to the IAEA, they need money. They need more 
support. They estimate that the JCPOA-related monitoring costs 
are about $10 million annually, and some of it is costs 
associated with implementation of Iran's additional protocol, 
which is part of the IAEA, and that is what Iran signed up to, 
and other costs that belong in the IAEA regular budget.
    So they are talking about how to approach that now. We have 
supported it in two components, with our assessed contributions 
and our voluntary contributions. And it works out in a way that 
we kind of pay the year ahead backwards, in a sense. So we are 
looking at really 2017 be paid out in 2018 for 2017, and that 
is when the amount will come due.
    But look, if we need to find a way for the IAEA to get 
money, we need to find a way for the IAEA to get money. This is 
too important, the successful, full implementation and 
tracking. There are supposed to be 130 new inspectors going in, 
and they are opening an office. They got the office and the 
location now in Tehran, and there is going to be a permanent 
presence on the ground, and that is critical to us delivering 
on the promises that were made. And it is not that much money, 
when you look at $10 million versus the costs of what the 
downside would be of failure.
    So I hope that we can focus on that. And maybe there is a 
way to rethink and retool this issue of voluntary and mandatory 
and make it easier and be helpful.
    Senator Coons. My concern, if I might specifically on this 
point, Mr. Secretary, is that as good, capable, government 
bureaucrats--how is that for a sentence?--the IAEA 
administrators did not want to ramp up beyond their committed 
funding from the member states. And I said, look, just speaking 
for myself, I would invest $100 million in advance over the 
next decade to make sure you have enough well-trained, 
deployed, capable inspectors, as you said, the cost, the risk 
of missing----
    Secretary Kerry. Well, I am with you 100 percent. I was not 
aware of that judgment that they make until you just stated it 
now. But it is cause for me--we have a full-time implementing 
team, and Ambassador Mull heads that up. And I am going to 
raise that with him, and we will get on that, because it is 
critical.
    Senator Coons. Thank you.

                        DEMOCRACY AND GOVERNANCE

    Secretary Kerry. With respect to democracy and governance 
funds, cannibalizing is a word my staff hears all the time. 
This is a cannibalized budget, just to be honest with 
everybody, and I hate that. And I know you do, Mr. Chairman.
    We should be doing more in almost every sector here, folks, 
because it comes back to us in increased security, increased 
leverage, increased relationship, better outcomes. The number 
of failed and failing states, and the number of places where we 
can make a difference, is just stunning.

                                 EGYPT

    By the way, when we talk about Egypt, we put money into 
Egypt, which is part of the years now of the peace agreement. 
That is the basic commitment that we make to Egypt, the peace 
agreement with Israel.
    But together, the Saudis and the Emiratis have put in over 
$20 billion in the last couple years to Egypt. We put in a few 
$100 million. Let me ask you who has leverage, who are they 
going to listen to? Where do they think their help is coming 
from?
    So we need to think about this. We have a huge interest in 
making sure that Egypt does not go down into a more difficult 
status than it is.
    So I know people say, well, we should not be building 
there. I know it is a great applause line. I have been out on 
the campaign trail, and you can make an easy hit talking about 
what to do over there versus here. But over there is not over 
there anymore. Over there is here now, always. And people need 
to really focus on that reality.

                    DEMOCRACY AND GOVERNANCE FUNDING

    So I think, for the pittance, relatively speaking, that we 
put into this, all of our democracy-building, all of human 
rights, all of our aid programs, everything we do in diplomacy, 
is one penny on the dollar. It does not make sense when you 
consider the return on investment.
    So we are cannibalizing, Senator. Even though we are 
slightly plussing-up the budget this year versus last year, it 
is $411 million more than it was on the 2016 level, and $786 
million above where it was in the 2015 level, but that is still 
not where we need to be.

                                 SYRIA

    Your final thing on Russia and Iran and the motives, I do 
not want to get into analyzing and hypothetical surmising on my 
part, but I will say this. Russia has a very clear interest in 
not seeing Syria go down into utter chaos, and Russia now has 
bought into it. They are there, and they need to get out of 
there somehow. They do not need to be supporting Hezbollah, 
supporting Assad, supporting Iran against the entire Sunni 
world, against Turkey, Qatar, Saudi, and others, and the 
moderate opposition and the radical opposition.
    That is where they will be, if we cannot resolve things 
through the political process. Now, I am not sitting here 
making some casual judgment by the United States of America 
that Assad has to go because ``we'' want him to go. I am saying 
that every oppositionist I have talked to, every country in the 
region, does not believe that Assad can possibly bring peace to 
the country.
    And if he stays there, then the jihadis will continue to 
come, and the fight will continue to go on. And for all of us 
who have an interest in a stable, whole, secure, unified, and 
secular Syria that is completely contrary to that objective.
    Russia and Iran have signed on at the United Nations 
through the U.N. Security Council resolution, and through two 
Vienna communiques, to the notion that they support this vision 
I just articulated of a whole Syria that is secular. And they 
have supported Assad, but you all read in the newspapers that 
Russia may have less of a sense of urgency about Assad's 
presence than Iran, and they have a different attitude about 
him. And Iran even may now have a different attitude, because 
they may be coming to understand that you are not going to make 
peace with him there.
    So it is hard for me to fathom that one man is so critical, 
when all of these other countries are being supportive of a 
transition, that we could not find a way forward that will 
stabilize.
    What we are seeing now, in the next month to 2 to 3 months, 
will be the test of whether or not Russia and Iran are serious 
about a real transition. And the transition called for in the 
Geneva communique of 2012 says a transition council arrived at 
by mutual consent with full executive authority, which will 
then make the decisions until you have an election and the 
people of Syria choose their government.
    So that is what the objective is, and I think Russia, I 
mean, for the moment, I think they want to put to test this 
prospect. Now, whether they are doing it as cover for something 
they intend to do down the road, we also will learn in the next 
weeks and months.
    Senator Coons. Thank you, Mr. Secretary.
    Senator Graham. Just one quick thing. I find it hard to 
believe that Iran is interested in a stable, secular government 
anywhere.
    Senator Daines.

                            ENERGY AND COAL

    Senator Daines. Thank you, Mr. Chairman.
    Secretary Kerry, I truly thank you for being here today, 
and thank you for the many, many miles you have put on 
airplanes traveling around the world. Your service is greatly 
appreciated.
    I want to go back to what Senator Leahy brought up a little 
earlier on the President's 2017 budget request on the global 
climate initiative and Green Climate Fund, about $1 billion. 
This request exacerbates the tension between highly 
industrialized nations that are concerned with leaving a legacy 
of environmental stewardship and developing nations that are 
concerned with obtaining better access to affordable energy and 
strengthening energy security.
    I am concerned that such efforts could marginalize sources 
of energy like oil, like coal, that could empower lives and 
provide opportunities around the globe.
    For example, India is building 2.5 times more coal-fired 
electrical capacity than we will lose here in the next few 
years. China is building a new coal-fired plant every 10 days 
for the next 10 years.
    I managed operations in Japan during the great Sendai quake 
of March 2011 and watched how they responded to losing the 
nuclear capacity with the Fukushima reactors now taken out of 
service and replacing that with 43 coal-fired plants.
    The U.S. Energy Information Administration is expecting 
Africa to increase its coal use by 70 percent in the coming 
decades. By any way you look at coal globally, in the next 30 
to 40 years, the consumption is going up.
    Now, speaking as a Montanan who believes very much in the 
all-the-above energy portfolio--we uniquely have hydro.
    In fact, I am glad to see in the energy bill, we are 
actually going to redefine hydro now as a renewable, which only 
Washington, DC, would not define hydro as a renewable. It will 
now be a renewable when we pass the energy bill.
    Wind, other forms of energy, I am a strong advocate.
    But I think it is imperative to recognize coal is not going 
away, and it provides an essential source of low-cost energy 
for hundreds of millions of people, some 1.3 billion poor 
people who do not have electricity today.
    When available to developing nations, Montana's clean coal 
I think strikes the balance between low-cost energy and high-
quality air. For the record, Montana has more recoverable coal 
deposits than any other State in the Nation.
    My question, Mr. Secretary, in truly trying to strike a 
balance here, as one who has been referred to as the 
conservative conservationist back home in Montana, who would 
love to spend days backpacking above 10,000 feet and fly 
fishing, we embrace clean water and clean air. It is who we are 
as Montanans.
    But does the administration recognize that coal is going to 
provide energy security and economic opportunities in the U.S. 
and, importantly, across the globe for decades to come?
    Secretary Kerry. Well, first of all, Senator, let me just 
say I am jealous because Montana is, indeed, one of the most 
beautiful States in our country, and their great outdoors ethic 
up there.
    I understand the tension on the coal issue. We are, indeed, 
going to see coal being used. We are going to see oil being 
pumped and gas being pumped for years to come. The question is 
how is it going to be burned? How is it going to be used?
    The administration is very supportive of advancing clean 
coal through carbon capture, storage, sequestration, et cetera. 
We know it is an energy of choice for some countries, because 
they cannot afford anything else. It is cheap. It is very 
cheap. And until recently, solar and wind were not able to be 
competitive, though now they are increasingly competitive.
    So people are going to start to make, I think, a different 
set of choices over a period of time. If this new solar 
advancement that I have learned about with respect to an 
American company that is much more distributable and cheaper 
and more effective works, that is going to begin to become an 
energy source of choice for people.
    What we have to recognize, unfortunately, is that 
untreated--that is to say, without the latest technologies of 
whatever scrubber combination, et cetera, there is--burning 
coal releases one of the dirtiest, most concentrated 
CO<INF>2</INF> emission sources.
    Senator Daines. If I could, one thought there. There, 
certainly, has been a fair amount of debate on the Clean Power 
Plan. The Supreme Court, certainly, stepped in with their stay.
    But when they have run those regulations through the EPA's 
algorithm, which is called Magic, what it spit out on the other 
end was a 0.02 degree impact centigrade on global temperatures 
between now and 2100.
    So we have quantified the impact of these regulations as it 
relates to the climate as negligible. I would argue 0.02 
degrees centigrade is negligible. But we also have quantified, 
I can just tell you in Montana, 7,000 jobs, $140 million tax 
revenues to go to teachers and to schools, double-digit 
increases in electrical prices. And these are Indian tribal 
jobs. These are union jobs. And the world is still moving very 
much toward a coal-driven environment linked to producing 
electricity.
    I appreciate the comment you made about not ceding 
leadership as it relates to clean energy technology. I think 
that was a good point you made earlier. My concern is, are we 
going to cede leadership in developing clean coal technologies 
by virtually killing this industry, which is what we are 
finding out these regulations will do. We are unilaterally 
withdrawing in terms of developing, innovating, clean coal 
technologies, when we only comprise about 10 percent of the 
world's coal consumption. But by shutting down the U.S. coal 
industry, besides raising prices and having an affordable 
source of energy, we are now going to cede that to the Chinese, 
to India, to others, perhaps Africa, which I think, from a 
global environmental stewardship viewpoint, is a mistake.
    Secretary Kerry. Well, I understand your argument. 
Increasingly, those other countries are coming under pressure 
to change their own mix and to deal with the problem.
    This is becoming a huge problem in China. Their citizens 
are up in arms over this issue. They have literally had days 
where they have to shut down their industry, as a result of the 
level of pollution. That is one of the reasons why China joined 
with us in making this move toward clean, alternative energy.
    Yes, nobody is going to shut down their economy. This is 
the danger for all of us. I have always supported major efforts 
for clean coal technology investment, and we ought to be trying 
to lead on that. If we can discover how to do that, that would 
be superb.
    Senator Daines. I think the message that industry is 
hearing from the Obama administration is that they are really 
pulling the rug out from under this industry, and they are 
unwilling to make the investments that it is going to take to 
get there.
    I hope for more dialogue here of trying to maintain a 
balanced, all-the-above portfolio to make sure we keep baseload 
on the grid, given that we have a Nation that still depends--
about 30 percent to 35 percent of our electrical demand comes 
from coal.
    Secretary Kerry. Yes, I think the administration position 
has been very clear that if we are going to be serious about 
holding climate change to somewhere within the range of the 2 
degrees centigrade, which we are already above, and avoiding 
the worst impacts of climate change, we have to move more 
dramatically to shift into renewable, alternative sources.
    And we are pushing other countries to do that, and that is 
why the President made the decision about not publicly 
financing a coal that does not have carbon capture and 
sequestration, or is not literally clean.
    Nobody has yet shown me how you, in fact, burn coal clean, 
relative to other possibilities today.
    Senator Daines. We always talk about the science. Looking 
at what the Magic algorithm put out, that it was literally a 
negligible impact, 0.02 degrees centigrade.
    Secretary Kerry. What is the level, though?
    Senator Daines. That is moving forward with the proposed--
--
    Secretary Kerry. With the U.S.
    Senator Daines. With the U.S.
    Secretary Kerry. But, see, the problem is not just the U.S. 
The U.S. could do what it does and be completely wiped out by 
India and China in any changes that we make if they do not see 
us also making efforts to try to change.
    Senator Daines. The pie chart is very compelling. It is 10 
percent of the coal, plus or minus, consumed is in the United 
States. It is 90 percent everywhere else.
    I am out of time, but my hope would be that as we look at 
where we are spending our dollars as it relates to foreign 
efforts is that we try to maintain a balance, and ensure that 
we are creating incentives to invest in clean-coal technology. 
Coal is going to be around the world here for decades to come. 
We need to accept that and incentivize innovation. And the U.S. 
can probably lead probably better than anybody else in that 
regard. But the current policies right now are going to shut 
the industry down in the next several years.
    Secretary Kerry. My recommendation, Senator, is I would 
love to get you together with Ernie Moniz and John Holdren. 
Have you met with them?
    Senator Daines. I was with Ernie last week in Alaska, in 
fact.
    Secretary Kerry. Okay. I am sure you talked about this.
    Senator Daines. I look forward to more conversations. I am 
out of time here, so I do not to----
    Secretary Kerry. Well, it is worth----
    Senator Daines. It is a good, thoughtful conversation on 
where the world is headed and how we can truly be environmental 
stewards here and be smart here, at the same time addressing 
the fact that there are 1.3 billion people who do not have 
electricity.
    Senator Graham. Senator Durbin.

                      STATE DEPARTMENT NOMINATIONS

    Senator Durbin. Mr. Secretary, your indefatigable service 
as Secretary has set a new standard for modern diplomacy. Thank 
you.
    Let me ask you a couple questions. You may have noticed in 
the newspapers that we are having some controversy here about 
nominations and voting on them. You have had some issues with 
the Senate when it comes to the State Department vacancies, and 
we took a look and found that there are a substantial number of 
ambassadorial posts that have gone unfilled.
    The most egregious and obvious is Mexico, which Roberta 
Jacobson is being held by Senator Rubio, who will not allow a 
vote for us to have an ambassador to Mexico.
    What impact does this really have, whether you have an 
ambassador in a country, whether you have key positions at the 
Department of State filled? Is this just an annoyance that you 
get around? Or does it have any qualitative impact on what you 
can do?
    Secretary Kerry. Senator, thank you. Thanks for asking 
that. I know you have been a champion on this.
    If I can talk to my friends on the Republican side of the 
aisle here, because we have been trying to get these folks in 
place for some period of time. I really appreciate the effort 
in the last weeks. You all passed a number of key nominees out, 
and I am very grateful for that.
    But just as an example, I know in modern age, people think, 
well, ambassadors, they do the same thing. Well, they are not 
the Chip Bohlens of the past, in the sense that there are weeks 
sending letters and telegrams. You have much more instant 
communication, obviously.
    But I have to tell you, I have seen firsthand in the last 
3-plus years as Secretary how unbelievably important it is to 
have an ambassador on the ground who has built relationships, 
who is trusted by that government, who has a feel for what is 
happening in that country.
    And in this particular moment of counterterrorism priority 
and countering violent extremism, that is an ongoing, daily 
investment job. You have to have someone there who can mobilize 
the agencies of another government. You have to have somebody 
who can get the president or the prime minister or the king to 
focus.
    And where we have a really good ambassador, God, what a 
difference it makes. That person is trusted. It makes all the 
difference. They make decisions every day that can be the 
difference between an explosion and a conflict or an issue that 
got managed effectively.
    And in today's world, where we are going after 
narcoterrorists, we are going after extremists, we may have a 
country where there is an issue of a high-value target, and we 
have to have a signoff and the chief of mission is responsible 
in that progression, we have judgments that have to be made 
that are critical.
    Now, with respect to Mexico, we have a particularly 
qualified career civil servant, Roberta Jacobson, who simply 
because she was tasked to be part of the effort to help the 
President implement his policy, not hers, his policy--and she 
did it well--on Cuba, Senator Rubio is holding it up. He is 
punishing the civil servant choice of an elected official.
    Now, he is out there running for President. He has ample 
opportunity to make his case about the policy, but do not 
punish the country because you are angry about what happened 
and lose us the link to the Government of Mexico. The Mexican 
Government asks us, why can't you provide an ambassador? What 
is it? Are we a pariah country? You don't value our 
relationship?
    We just had a meeting in Canada, which we have every year, 
of Canada, the United States, and Mexico in the North American 
caucus talking about how we can do energy projects together, 
how we can work more effectively on the borders, how we can be 
a trade bloc that raises standards in labor and environment and 
movement of goods. That is what an ambassador can work on every 
day, not to mention the businesses that need to go to those 
countries to start closing their contracts and need to get a 
minister of finance or minister of trade to sit down with them 
and cut the deal. So we are costing us jobs. I could go on and 
on.

                                 SYRIA

    Senator Durbin. Mr. Secretary, I know you will. [Laughter.]
    I need to reclaim my time. I think you made the point.
    I have a friend of mine, Dr. Sahloul. He is a Syrian 
American. And every few months, he takes a number of doctors 
from Chicago. They sneak across the border into Syria, and they 
try to treat the people who are the casualties of this terrible 
humanitarian crisis in Syria.
    Then he comes back to Chicago and asks to meet with me and 
shows me these horrifying photographs of children and others 
who have just been disfigured and maimed by what is going on 
there.
    I think you would concede, of all the humanitarian crises 
in the world, at least this is the most prominent to face us in 
Europe and many other countries, at this moment. I know you are 
trying to work with the players on this to find some way to 
have a ceasefire, which I pray to God you are successful.
    Have we ruled out humanitarian safe zones, places where 
Syrians can go for safe treatment or to live safely as part of 
this? If there were just hospitals that this doctor could go 
to--he operates on the floors of schools, because there are no 
places to go to. Have we ruled out humanitarian safe zones as 
part of the solution?
    Secretary Kerry. No. We have not, but they come with great 
complications.
    My final comment on Roberta, folks, is, as a matter of 
human rights, let's liberate her and put her on the job. She is 
traveling with Vice President Biden to Mexico tonight and does 
not have the portfolio, but she is going as our Assistant 
Secretary of State. And surely, since we have confirmed her to 
be Assistant Secretary of State, we can confirm her to be 
Ambassador.
    With respect to Syria and safe zones, look, if we are going 
to have safe zones, they have to be safe. You are going to 
carve out a piece Syria and say this is a safe zone, who is 
going to make it safe? Who is going to prevent Daesh from 
coming in and attacking? Who is going to prevent Nusra? Who is 
going to prevent the Syrian army or the Russians from dropping 
something?
    So to prevent the Russians from dropping something, if they 
deem them to be a haven for terrorists, too, you are going to 
have to have an air defense structure, you are going to have to 
have planes flying, you are going to have to have a cap, you 
are going to have to have people on the ground.
    And our Pentagon estimates that to have a true safe zone in 
the north of the country, you may have upwards of 15,000 to 
30,000 troops. Now, are we ready to authorize that? Are we 
ready to put them on the ground?
    All this talk about safe zones does not go through the 
process of what it really means.
    Right now, we think we are creating a safe zone. We are 
trying to make Syria a safe zone by having a cessation of 
hostilities and by delivering humanitarian assistance to 
everybody. And in the last week, we have gotten 114 trucks 
through to deliver assistance to five or six communities that 
have not seen it in 2 or 3 years; 80,000 people now have enough 
food for the next month.
    So that is our goal, but it really requires Congress to 
sort of analyze that if somebody is going to call for a no-fly 
zone, it takes planes going out and destroying the air defense 
system, so you can fly around and make it a no-fly zone.
    Senator Durbin. Mr. Secretary, you are on the ground, and I 
commend you for all that you are attempting to do. And I will 
not second-guess you when it comes to this. It is hard for me 
to imagine that all the countries that share our goal in ending 
this humanitarian crisis could not come together to create that 
kind of defense, but perhaps they cannot.
    Secretary Kerry. They may yet. Dick, it may happen.
    What occurs is, if the Russians and the Iranians are not 
serious about having this work, then we have to go to a plan B, 
which may be more confrontational and may wind up carving 
things out. It may be that we have to come and ask you to do 
more and commit more, because we have to be serious about this.
    The implications of this for the region and the 
implications for Jordan, for Lebanon, for Europe, are stunning. 
And they are huge in terms of our national security interests.
    So we are going to have to measure these next weeks very, 
very carefully.
    Senator Durbin. Thank you.
    Senator Graham. Senator Lankford.

                    DEMOCRATIC REPUBLIC OF THE CONGO

    Senator Lankford. Thank you.
    Secretary Kerry, thank you for your service. I have quite a 
few questions on several different areas around the world.
    The Democratic Republic of the Congo (DRC) recently 
announced that they are going to allow 150 exit visas for some 
of these American children to be able to come out that have 
been adopted. They said, by the end of March, they are going to 
allow another 250.
    Do you have good assurances from the DRC that they are 
going to follow through on that? This has been a long time 
coming for those families.
    Secretary Kerry. We have been pushing very, very hard on 
this. We have their assurance. I cannot tell you that they are 
lead-pipe until it happens, but we have been working on this 
very, very hard.
    Senator Lankford. Okay.
    Secretary Kerry. And we will stay on it.
    Senator Lankford. Thank you. Please do, for the sake of all 
those families. There are a lot of children obviously been 
there----
    Secretary Kerry. I raised this issue personally with 
President Kabila when I saw him. We have been pushing hard on 
it. I hope this will be followed through.

                                  IRAN

    Senator Lankford. Great. Thank you.
    Two weeks ago, I had a conversation with the Director of 
National Intelligence (DNI) Clapper dealing with a multitude of 
issues. I serve on the Intel Committee. I know you interact 
with him often.
    At that time, he mentioned in his opening statement that he 
still sees Iran as the world's largest state sponsor of 
terrorism, exporting its extremist agenda through all of its 
means still.
    I asked him specifically in a follow-up if he had seen a 
change in Iran's behavior toward sponsoring terrorism since the 
signing of the Joint Comprehensive Plan of Action (JCPOA). 
Obviously, that was not related to terrorism, but if there had 
been a change. His response was: I have not seen change.
    I asked a follow-up question, have you seen any change in 
Iran's testing of ballistic missiles, its normal strategy that 
it has since they launched 140 missiles since the U.N. has told 
them no, including two recently. He also said, no, he had seen 
no change on that.
    Would you agree with DNI Clapper there has not been a 
change in Iran? They are a state sponsor of terrorism, and 
their focus, and their missile testing since the JCPOA has been 
signed?
    Secretary Kerry. Not with respect to those, no. There has 
not been. I mean, the only differential--and it has nothing to 
call home about, is something like that we saw in Bulgaria or 
another couple kinds of things, we have not seen. But with 
respect to missiles, with respect to arms and other things, 
there has not been, no.
    Senator Lankford. Is that the next layer working with Iran 
at this point? You began with nuclear. Is the next layer then 
to work with their sponsor of terrorism and such?
    Secretary Kerry. To work on each of those, and also on 
Yemen. Yemen and Syria are both tests of whether or not there 
is a new approach.
    Senator Lankford. The chairman had asked you about the Iran 
Sanctions Act, which is set to expire in December of this year. 
You said you did not see there being a hurry to pass it. Do you 
think that is an important vehicle to have in place for the 
next administration?
    So while you may say there is not a hurry, because it 
expires in December, do you think it is important at least have 
in place, to hang out there as leverage?
    Secretary Kerry. Senator, in point of fact, it does not 
change the leverage. The reason is does not change the 
leverage--in fact, it might even work against it. I am not 
sure. I have not thought that through.
    But we have the authority we need. The President has the 
emergency powers act in order to implement. We have done most 
of our executive orders of the implementing of unilateral 
sanctions under that. You do not need it in order to have 
snapback. So we are not sitting here feeling an imperative.
    Beyond that, I would also say to you that I would rather 
make the judgments about it recognizing whether we have made 
any progress, where are we, or is there a problem in the 
context of the implementation.
    Senator Lankford. So the Iran Sanctions Act (ISA) is 
actually what gave the sanctions--I am trying to figure out, if 
you are snapping back, snapping back to what, if that part goes 
away?
    Secretary Kerry. Snap back to all the sanctions that were 
in place. It is the same sanctions. They can snap back without 
the ISA.
    But I am just saying to you that we do not need to consider 
that at this point in time. We are not viewing that as in any 
way a limitation on our ability to affect the JCPOA 
implementation or to have sanctions snapback, if they have to, 
or to put new ones in place, if we have to.

                    INTERNATIONAL RELIGIOUS FREEDOM

    Senator Lankford. Okay. Last year, this subcommittee 
supported several provisions dealing with religious freedom and 
religious liberty and promoting that around the world. I was 
surprised when I was going through the request this year that 
several of those areas that we had included in 2016 on 
religious freedom and the promotion around the world had been 
rescinded in your request, not asking for some of those same 
line items.
    Has there been a change in policy about promoting religious 
liberty around the world?
    Secretary Kerry. No, on the contrary. We have upped our 
efforts. I have an office with respect to religious engagement. 
We have increased our outreach in many regards.
    Senator Lankford. Some of the funding line items, though, 
have been either rescinded completely, and some of the 
certifications and reports, the request is to take out some of 
those reports, as well as some of the funding line items.
    I can follow up with you and get you some of those 
directly.
    Secretary Kerry. Yes, I would like to follow up with you on 
that.
    Senator Lankford. It has obviously been extremely important 
to this subcommittee and to myself as well, that we continue to 
promote the value of religious freedom around the world. That 
is one of those core, as you know, core human rights values. 
The more that we promote that, it advances democracy.
    Secretary Kerry. Indeed, it is. It was something when I was 
here in the Senate, I was the original author of the Workplace 
Religious Freedom Act, and it is something that we have been 
very involved in. I am the first Secretary to appoint a 
coordinating office for outreach on religious affairs, and we 
have a very distinguished--Shaun Casey is there with us. 
Ambassador David Saperstein----
    Senator Lankford. Do you still meet with David Saperstein 
frequently?
    Secretary Kerry. I have not seen him as frequently as I 
would like, but we have met, yes.
    Senator Lankford. He probably has some good stuff for a 
visit. He is a great guy, as you know well.
    Secretary Kerry. He is terrific.
    Senator Lankford. He has some very good insight.
    Secretary Kerry. But both of those players, that has never 
happened in the State Department before, and we are happy to 
have them.

                                 LIBYA

    Senator Lankford. Right. We can follow up on the exact line 
items on that.
    Dealing with Libya, you have done a certification already 
to us that the Government of Libya is cooperating with us to 
investigate and bring to justice those responsible for the 
attack in Benghazi in 2012. You have given us that 
certification.
    Can you give us the background for I guess how you 
certified that, knowing the very precarious position that 
government is in at this point as a new government?
    And then there is a second certification that you have 
asked this year to have struck, that you would not have to turn 
that certification in, in your request, and it is this 
certification that: all practical steps have been taken to 
ensure that mechanisms are in place for monitoring, oversight, 
and control of funds for assistance to Libya.
    I would like to know why the request is there to strike 
that certification. Again, that seems a reasonable request from 
us with the nature of the Libyan Government at this point.
    Secretary Kerry. I was just given a note from my staff so I 
can finish the answer on the first thing.
    The reports, it is really a consolidation effort. It is not 
a diminishment. We have so many reports, and we are trying to 
put them all into a----
    Senator Lankford. Sure. I have no problem with that.
    Secretary Kerry. I am not sure I understand your exact 
question on the Libya certification.
    Senator Lankford. We put in place a certification. As we 
put it last year: all practical steps have been taken to ensure 
the mechanisms are in place for monitoring oversight and 
control of funds for assistance to Libya.
    You have asked for that certification to be struck at this 
point. The question is, that is a reasonable oversight for us.
    Secretary Kerry. It is just not possible right now, under 
the circumstances, to make that kind of certification. And to 
be in a position of denying it, therefore, we think would 
handicap our ability to try to get a viable government in 
place, stand it up, and move forward.
    So the situation just does not lend itself to that kind of 
judgment right now. We are just at the point--we are at a 
critical point here, where we have made it clear we are going 
to start sanctioning some people if they are not going to be 
involved properly.
    We have a couple of outliers from the Government of 
National Accord (GNA), from the General National Congress (GNC) 
and the House of Representatives (HOR) each, as we try to put 
together a government of national accord. We are about to 
hopefully have a vote on that government and actually proceed 
forward, and then we will be in a better position to be able to 
deal with standards of certification that just do not apply to 
the situation in Libya.
    Senator Lankford. Mr. Chairman, can I just make a request? 
These will be questions I will submit in writing for the days 
ahead. It is just three quick things that we have talked about 
before.

                           GREEN CLIMATE FUND

    One is I would like to have, in a written way, how you 
evaluate the quantity of success or effectiveness of the Green 
Climate Fund. I mean, it is a $1 billion-plus fund that is 
sitting out there. How do we quantify whether that is 
successful? I am sure you have come up with something that 
large, how are you evaluating its success or effectiveness?

                            CENTRAL AMERICA

    The second one is, how are you going to evaluate these 
additional funds that have been put in last year for the 
Northern Triangle when we are dealing with all the issues with 
judicial improvements, legal improvements and such with the 
Northern Triangle in Central America?

                                 MEXICO

    And then the third thing goes back to our Mexico 
conversation as well. Mexico's poppy growth has grown 
exponentially over the last several years and heroin is pouring 
into the United States. Poppies are easily identifiable from 
the air. This is not some crop that can be grown that no one 
can see where they are. Everyone knows where the poppies are 
being grown.
    What I want to know is, how are we working with the 
Government of Mexico to eradicate these fields?
    Thank you, Mr. Chairman.
    Senator Graham. Those are good questions that will be 
responded to in time.
    Senator Blunt.
    Senator Blunt. Mr. Secretary, let me make a couple comments 
that are not questions, but maybe just follow up on what you 
have just been talking about.
    Senator Klobuchar and I--it used to be Senator Landrieu and 
I--co-chair of the Adoption Caucus in the Senate. Senator 
Klobuchar and I then had the new Ambassador from the Democratic 
Republic of Congo in a few months ago. He was not defending his 
country's position at all, that children who their courts have 
been allowed to be adopted need to be brought out of the 
country.
    So I am scheduled right now, in fact, to go meet with 40 of 
those families, and some of them have had really good news over 
the last few days. And hopefully, your anticipation and ours is 
the same, that at least in terms of children who have been 
allowed to be adopted, they will now be allowed to leave the 
country.

                                  IRAN

    I want to talk a little bit about the return of the three 
prisoners or, in some reports, hostages from Iran. I sent a 
letter on January 29 that asked two or three questions on this 
topic. Have you seen that letter yet?
    Secretary Kerry. No, sir. I have not. I have not seen it.
    Senator Blunt. Who on your staff would you like me to give 
it to?
    Secretary Kerry. If you could give it to Julia Frifield, 
that would be great.
    Senator Blunt. When you were in the Senate, you probably 
would hope that you would get a response quicker than a month 
to a letter, though I would say, so far, you still have not 
caught up with Tom Wheeler at the FCC who actually never 
answers letters. If they did, it might actually be easier to 
get people confirmed.
    You were here long enough and understand this system as 
well as anybody. It would be helpful if you could be more 
responsive. But let's just see what we can discover about that 
letter right now.
    What the letter really questions is the story that was told 
when the three people were, thank goodness, returned to the 
country and their families. But the transfer of money happened 
the day after people came back. The Iranians contend that was--
at least an Iranian general has contended in a Newsweek article 
that, clearly, the two things were absolutely related. Is that 
true?
    Secretary Kerry. No. We have been negotiating the claims 
settlement for years, literally. It was negotiated on a 
separate track. Now, whether they, in their minds, thought this 
was a propitious moment to try to settle it, that is in their 
mind, not ours.
    We made it clear to them it had to be done on a separate 
track. It had to be completely separate. We were not going to 
tie it in. And we reached one agreement before we reached the 
other.
    Senator Blunt. It is amazingly coincidental that after 35 
years of negotiating this difference of opinion that the two 
things would happen within 24 hours of each other. But that is 
not my question.
    My question is, this was about $400 million plus interest 
that was part of a past contentious issue with the Iranians. 
The Congress told the administration--actually passed a law 
that President Clinton signed in 2000 that that $400 million 
would go to specific victims of Iranian terrorism who received 
that amount of money. Did they receive it from that account or 
not?
    Secretary Kerry. I do not believe they would have received 
it from that account. I know there were settlements. There were 
number of claims that were settled through the years both ways, 
by the way. The Iranians settled some claims towards us.
    This claims process was set up in 1981, I think, right 
after Ronald Reagan came in, or even under Carter. But it was 
set up right around there.
    Senator Blunt. So the Congress in 2000 that passed a law 
that said that $400 million won't belong to the Iranians any 
longer, it belonged to the victims, that would not have 
superseded whatever else was happening internationally?
    Secretary Kerry. Senator, I was told in the process, we 
were very, very clear about this. I think Secretary Lew can 
answer this very, very directly. This was the fund that had 
been kept in place. The money, the $400 million, was there. In 
fact, there was a little more in there. I cannot remember why 
there was more. So there was a cushion. The $400 million went 
out, but there was still a cushion of some money that was there 
for any remaining claims. But almost all the claims have been 
cleared up.
    So that is why it was deemed appropriate to lower that 
particular account, because there were not any extant claims 
that would have amounted to the amount that was being left in 
the account.
    Senator Blunt. Well, there is a Newsweek article that 
indicates--and I know Newsweek is online now, but I just read 
the article. There is a Newsweek article that indicates the 
families, the specific families mentioned in the 2000 law, were 
all led to believe that the money they got was money that was 
Iranian money, not taxpayer money. So you are saying today----
    Secretary Kerry. No, I am not. I think that is accurate. I 
think they got Iranian money. I think the taxpayer money fund 
is what stayed in the fund over the period of time.
    When we were examining how we could do what we were trying 
to do to settle a claim, over a period of time--by the way, it 
was separate negotiators, completely separate team negotiating 
this on a separate track over a long period of time, by the 
way. This predated anything to do with this.
    I think one of the reasons it came to a head simultaneously 
is, frankly, because we have the JCPOA done, and there was a 
channel of communication, which we never had before. We have 
never had a high-level channel of communication. And part of 
the exchange of people actually was being done through their 
Ministry of Interior.
    Senator Blunt. Well, it is very coincidental.
    Would you expect----
    Secretary Kerry. We have never talked to their Ministry 
of----
    Senator Blunt. Would you expect that $1.7 billion, the 
first of more money that will go to the Iranians under the 
agreement, would you expect any of that $1.7 billion to go to 
terrorist organizations or terror-sponsor organizations?
    Secretary Kerry. Do I expect it to? No. Might it? I cannot 
answer a hypothetical like that.
    Senator Blunt. Well, I think you did answer that earlier.
    Secretary Kerry. What I said was, with respect to all the 
money going to Iran, which by the way is way below--we should 
go into classified session and then we can give you the exact 
figures.
    But people have talked about $100 million, $150 million. 
No, folks. Nowhere near. It is not even up to the $50 million 
yet that we talked about.
    So our judgment is that--we always said this publicly--that 
there were enormous demands in Iran for that money in terms of 
their energy sector, the infrastructure, banking, paying off 
notes, everything.
    So my recommendation, Senator, is, in classified session, 
we can really inform you as to what we are seeing today. And I 
think you will be very surprised.
    Senator Blunt. Well, I am on the Intel Committee, and we 
have had some of that discussion, and we will have more with 
you.
    Thank you, Chairman.
    Senator Graham. Senator Moran.
    Senator Moran. Mr. Chairman, I am not on the Intel 
Committee and several times the Secretary has offered to have 
classified briefings, and I would welcome that opportunity any 
time that you see fit to have this subcommittee have the 
Secretary in that setting.
    Mr. Secretary, thank you. A number of the topics I wanted 
to raise have been raised, but in slightly different forms.

                    DEMOCRATIC REPUBLIC OF THE CONGO

    An exception to that is, in a slightly different form, is I 
want to again reiterate the importance of this adoption issue 
in Congo. Is it your understanding that the additional 250 
young boys and girls in Congo who have been adopted by U.S. 
citizens will also be processed and released to the United 
States to their parents?
    Secretary Kerry. We hope so.
    Senator Moran. Is there more than hope? That is my 
question.
    Secretary Kerry. I think there is an understanding, isn't 
there, that they are going to be coming?
    Senator Moran. My question is, is there a commitment that 
you expect to be kept? Or is this just hope or wishful 
thinking?
    Secretary Kerry. There is an understanding. The DRC has 
authorized more than 150 to come. And on the 250 from Congo, I 
believe----
    Senator Moran. My understanding is there are another 250 
children who have been adopted, awaiting the opportunity to 
come to the United States.
    Secretary Kerry. About 400 total.
    Senator Moran. Again, I am not sure what the expectation 
is. I do not know what the President agreed to.
    Secretary Kerry. I want to get you a precise answer on 
that.
    [The information follows:]

    We are closely following developments in the Democratic Republic of 
the Congo. Embassy Kinshasa is tracking 41 pending adoption cases that 
are in various stages of completion. Of those cases, the DRC pre-
cleared 23 children for exit permits and the remaining 18 are not pre-
cleared for exit permits. Unfortunately, the DRC's temporary inter-
ministerial commission, which met earlier this year to review and 
release cases it deemed legitimate, disbanded without reviewing the 
remaining 18 cases. As the suspension of exit permits remains in place, 
there is still no plan for DRC processing of these remaining cases, or 
any new cases. Acquiring the exit permits for DRC citizen children who 
received visas to enter the United States remains the single most 
problematic hurdle. Embassy Kinshasa continues to meet with key 
officials in the DRC to encourage exit permit approval on a case-by-
case basis. The Embassy had some success with this approach, and was 
recently assured that four cases not on an approved commission list but 
otherwise visa-qualified would receive exit permit approvals.

    Senator Moran. Great. If that agreement has been made, I 
would encourage, as my colleagues have, that you, the State 
Department, United States Government, continue to encourage. A 
number of us met in Senator Blunt's office with the Ambassador 
from the Congo. It is such a heart-rending circumstance. Today, 
I saw photos of these boys and girls, but to talk to their 
parents who are their parents and they are still thousands of 
miles away. Thank you for your efforts in the past, and please 
continue that effort.

                                  IRAN

    You also had a conversation with Senator Blunt about the 
settlement of the financial dispute between Iran and the United 
States. You indicated at that time, although I think it was 
perhaps slightly different from what you said today, that there 
are more pending claims that potentially could be settled. 
Those claims are claims of Iran against assets or dollars from 
the United States, and that those claims need to be finalized. 
This was a large chunk of that, but not all of them.
    My question is, do you know what claims remain, and how 
much money is involved there?
    Secretary Kerry. I am told there are very, very few, if in 
the multiples of single digits, and that it is less than the 
amount of money that was left in the account.
    Senator Moran. I was very critical of that transaction, 
that agreement. I was critical for the reasons that it seemed 
to me that that money would have been used to compensate 
American citizens who have claims against the Iranian 
Government, that there should have been an offset.
    What is your reaction to my criticisms?
    Secretary Kerry. This is a separate track, Senator. This is 
for military sales money that was a very specific purchase that 
took place in 1979. It was escrowed separately in an account at 
that period in time. And it accrued interest. I recall vividly 
that the interest rates back at that period of time were 
upwards of 18 percent, 19 percent, 20 percent, or something at 
some point in time, for a period of time. It is only in the 
most recent years we have had the luxury of near zero and very, 
very low interest rates.
    So we were looking at a liability upwards of several 
billion dollars. We believe, in the end, that the judgment was 
made by everybody--I mean, this was an interagency, fully 
vetted, unbelievably analyzed process, which made a judgment 
about what was the appropriate level and what would be a good 
arrangement for settlement. That is what we arrived at.
    Senator Moran. The negotiations include requests of the 
Iranian Government to pay the claims of United States citizens?
    Secretary Kerry. Sure. That is part of the claims process. 
There are outstanding claims for those, and those are in The 
Hague, I believe, as part of the claims process.

                                 EGYPT

    Senator Moran. In regard to Senator Durbin's question about 
the 15 percent military aid that can be withheld, if there are 
human rights violations with Egypt, my understanding is that 
your budget request, the appendix of this year's budget 
request, the administration pushes for removal of that language 
altogether.
    I want to know the justification. Maybe you said that to 
Senator Durbin, but I think his question was slightly different 
from that.
    Secretary Kerry. I am not sure that I understand, then.
    Senator Moran. My understanding is that your budget request 
asked that the language that allows for withholding of those 
dollars to be removed, the authority disappear.
    Secretary Kerry. The withholding of which?
    Senator Moran. The 15 percent when there are violations of 
human rights.
    Secretary Kerry. Can I get back to you on that?
    Senator Moran. Absolutely. I guess my question is, what is 
the rationale of the administration in changing the law that 
has that provision in it today?
    Secretary Kerry. I want to get back to you on that.
    [The information follows:]

    We stand by our commitment to press Egypt over concerning human 
rights abuses. Certification and withholding requirements limit our 
ability to conduct foreign policy and the necessary flexibility to 
respond to challenges on the ground as we implement assistance 
programs. We can achieve our foreign policy goals more effectively with 
fewer limitations on the funding we are appropriated. We continue to 
have frank discussions with the Egyptian Government about our democracy 
and human rights concerns. We share Egypt's legitimate concerns over 
the threat of terrorism domestically and in the region, but respect for 
human rights and democracy is not incompatible with countering 
terrorism. We continue to press the Egyptians that respect for human 
rights helps counter radicalization and violent extremism and 
strengthen long term political stability.

                      GENOCIDE IN THE MIDDLE EAST

    Senator Moran. Very good.
    And finally, I think finally, issues related to the 
persecution of folks based upon their religion, there has been 
significant allegations that the Islamic State of Iraq and 
Syria (ISIS) is persecuting people based upon their religion. 
We have heard that from the former Secretary, your predecessor, 
Secretary Clinton. The pope, the European Union, and others 
have indicated that genocide is occurring by ISIS.
    There are at least some reports that the United States is 
considering declaring this a genocide against the Yazidis but 
not against Christians. Is there any validity to those 
allegations? If so, what would the distinction be?
    Secretary Kerry. Senator, there is a process ongoing right 
now making an analysis under the law. The lawyers are making 
this judgment. So you may be picking up some of the technical 
debate on what standard is applied that meets the legal 
standard of genocide and crimes against humanity and so forth.
    I have heard some of these arguments. In fact, because of 
what I have heard, I have to make this judgment, and I am 
prepared to make it and make it soon. I have asked for further 
evaluation, based on what I have heard, in order to test 
against the law some of my own perceptions and evaluations and 
see where we come out. That is the process.
    So whatever early reports you are hearing do not reflect 
sort of the state of the art where our thinking is or what we 
are going through on this. And I have to make a judgment on 
this, and I will when I am satisfied that I have evaluated that 
standard, and I am comfortable with what the outcome is.
    Senator Moran. Mr. Secretary, thank you for your presence 
and for your testimony today.
    Secretary Kerry. Thank you.

               JUSTICE AGAINST SPONSORS OF TERRORISM ACT

    Senator Graham. Mr. Secretary, you have been very generous.
    The Justice Against Sponsors of Terrorism Act: is the 
administration opposed to JASTA?
    Secretary Kerry. JASTA. We have concerns about it. I think 
we would like to work with you. We do have concerns about it, 
because what it does, regrettably, because of the way it is 
structured, generally speaking, we have dealt with this with 
countries who are designated terrorists. If we wind up taking 
away sovereign immunity from a country that are not, that is a 
huge----
    Senator Graham. In its current form, you are opposed to it?
    Secretary Kerry. In current form, we would be very troubled 
by it, because what it would do is really expose the United 
States of America to lawsuit and take away our sovereign 
immunity and create a terrible precedent, in its current form.

                                  IRAN

    Senator Graham. Thank you.
    This just came out about an hour ago over the AP, that Iran 
arrests the father of a jailed U.S. citizen, Siamak Namazi. 
What is the gentleman's name?
    Secretary Kerry. Siamak Namazi.
    Senator Graham. The Iranians, apparently, Monday arrested 
his father. Are you familiar with this?
    Secretary Kerry. I am very familiar with this, and I am 
engaged on it, specifically. But I am not permitted, due to 
privacy reasons, to go into details here.
    Senator Graham. Okay. Well, thank you very much for your 
service to our country, and we will do everything we can to 
support your budget.
    Secretary Kerry. Thanks, Mr. Chairman, very, very much. 
Thank you.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Graham. The record will be open until Friday, 
February 26, for questions for the record.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
               Questions Submitted to Hon. John F. Kerry
            Questions Submitted by Senator Patrick J. Leahy
    Question. What new public diplomacy programs are planned for fiscal 
year 2017, and how do they support the administration's foreign policy 
priorities?
    Answer. Public diplomacy (PD) efforts are essential to communicate 
our foreign policy goals, perspectives, actions, and facts with foreign 
audiences. Through these efforts, we create and sustain support for 
U.S. foreign policy goals among key international audiences, including 
civil society leaders, journalists, youth, and religious leaders. With 
a backsliding in press freedoms around the world and countries spending 
billions of dollars to restrict information, our public diplomacy 
programs are increasingly important to reach these audiences.
    To advance these aims, the State Department is expanding our public 
diplomacy programs in areas where U.S. public diplomacy has a 
comparative advantage: youth leadership, English-language training, 
promotion of U.S. higher education, entrepreneurship, civic engagement, 
technology, and amplifying partners' messages to counter violent 
extremism.
    The fiscal year 2017 PD request includes funding for a new 
initiative aimed at countering pervasive Russian propaganda in 
countries with large Russian-speaking populations by establishing new 
locally-employed staff positions in key European posts to engage 
audiences through social media and promote youth engagement and 
entrepreneurship. Other proposed staff augmentations would allow the 
Department to increase outreach to the dramatically increasing pool of 
exchange alumni in Africa; boost engagement with strategic audiences in 
the Middle East and Russian-speaking populations in South and Central 
Asia; allow Central American missions to better address the issue of 
unaccompanied child migration and its underlying causes; and enable the 
U.S. Embassy in Havana to proactively take advantage of changes taking 
place in Cuba and in U.S.-Cuba relations.
    The new interagency Global Engagement Center will lead the 
coordination, integration, and synchronization of U.S. Governmentwide 
communications activities to counter the messaging and diminish the 
influence of international terrorist organizations with foreign 
audiences abroad, often through partners, a critical mission that 
requires significant additional resources.
    Additionally, the Department is placing a renewed emphasis on 
clearly defining and evaluating the effectiveness of public diplomacy 
programs and developing new tools and strategic approaches for 
accomplishing public diplomacy outreach. Toward these goals, additional 
funding is sought for the Under Secretary for Public Diplomacy and 
Public Affairs' (R) newly retooled Research and Evaluation Unit to 
develop robust, constructive research and impact evaluations that will 
drive prioritization decisions and ensure public diplomacy programs 
better reflect strategic objectives and audiences.
    The Bureau of International Information Programs plans to conduct a 
worldwide rollout of the new Public Diplomacy Contact Relationship 
Management system to provide posts with a versatile platform for robust 
email outreach, as well as the global deployment of a suite of modern, 
on-line tools, including Google Apps and Slack, that will allow PD 
practitioners to synchronously collaborate from anywhere on the globe.
    Our global network of 700+ American Spaces hosts nearly 37 million 
visits annually, building and strengthening relationships with foreign 
audiences by showcasing American culture and values and providing 
accurate information about the United States. The request for IIP also 
includes funding to address costs to renovate and rehabilitate select 
American Center facilities to accommodate expanded audiences and 
programming aimed at countering Russian disinformation in a strategic 
region.
    Question. Can you explain how public diplomacy programs fit in with 
the State Department's ``countering violent extremism'' effort?
    Answer. Much of the Department's public diplomacy work contributes 
broadly to countering violent extremism, especially attempts by radical 
and violent movements to attract impressionable youth. Over the past 
year, there has been growing international recognition about the 
importance of countering violent extremism (CVE) both as part of our 
response to an increasingly diffuse and decentralized terrorism 
landscape, and of our effort to develop a wider array of tools to 
prevent the emergence of future terrorist threats. While we and our 
allies and partners must defeat the Islamic State of Iraq and the 
Levant (ISIL) and other terrorist groups on the battlefield, we must 
also counter the tactics these groups employ to attract new recruits 
and the underlying conditions that fuel radicalization to violence.
    The Department and USAID's strategic objectives on CVE are focused 
on expanding partnerships, assisting governments in strengthening their 
capabilities, and empowering locally credible voices to change 
perceptions of violent extremism. The Department and USAID have 
developed a multi-year strategy to guide our joint efforts that 
combines proactive, future-oriented efforts to counter violent 
extremism and reduce state fragility with specific approaches to 
counter radicalization and recruitment to violence associated with 
immediate threats. Public Diplomacy tools are essential in advancing 
our ability to empower and amplify locally credible voices that can 
change the perception of violent extremist groups and their ideology 
among key demographic segments.
    With support from the public diplomacy elements in the Department's 
regional and functional bureaus, U.S. spokespersons, embassies, and 
consulates around the world are fully and continuously engaged in 
countering violent extremism using a variety of tools and programs that 
promote U.S. foreign policy goals and perspectives, correct 
misinformation, and build capacity in at-risk populations.
    The new interagency Global Engagement Center (GEC) will lead the 
coordination, integration, and synchronization of U.S. Governmentwide 
communications activities to counter the messaging, and diminish the 
influence, of international terrorist organizations with foreign 
audiences abroad. A primary goal of the GEC is to better understand 
what motivates target audiences to support violent extremism through 
advanced data analytics. The Center also will engage top talent from 
content development sources within the United States and abroad in 
order to make its operations swifter and more agile and adaptive. 
Recognizing the strategic value of partners in delivering key messages, 
the Center will provide targeted resources enhancement to selected 
partner organizations across the globe to enable them to create and 
disseminate counter-Daesh content that draws upon relevant history and 
culture and is locally resonant. Finally, the new Center will 
strengthen and deepen interagency coordination, as well as expand 
direct digital engagement in Arabic, Urdu, and Somali.
    The Bureau of Educational and Cultural Affairs (ECA) continues to 
encourage communities to counter extremist rhetoric and recruitment 
through a robust array of professional, youth, cultural, and 
educational exchange programs that support Countering Violent Extremism 
(CVE) practitioners, strengthen community engagement and civil society, 
advance free and responsible journalism, and encourage interfaith 
dialogue and conflict resolution. The State Department is working to 
expand people-to-people networks that build resilience in communities 
susceptible to extremist rhetoric and recruitment and to engaging women 
and youth from communities at risk.
    High profile new ECA projects in 2016 include the Media Makers film 
mentoring exchange, the Secretary's Emerging Young Leaders Award, and a 
multi-regional International Visitor Leadership Program (IVLP) project 
for municipal leaders: Strong Cities: Building Community Resilience to 
Radicalization and Violent Extremism. ECA has also created an Emerging 
Young Leaders Award, the first iteration of which will be awarded in 
April 2016, for youth who have contributed to positive social change in 
challenging environments. Finally, the ECA-managed Peer to Peer (P2P) 
Challenging Extremism program--funded by the Department of State, DOD, 
DHS, NCTC, and private-sector companies such as Facebook--supports 
American and international university teams in developing digital tools 
and community resilience techniques to counter extremist narratives and 
building networks of CVE practitioners.
    The Bureau of International Information Programs (IIP) has 
increasingly focused its messaging content on counter-Daesh themes to 
support more effective outreach by U.S. missions. It has to date 
published more than 50 anti-Daesh stories on ShareAmerica (the 
Department's platform for supplying U.S. posts overseas with social-
media friendly content on U.S. foreign policy priorities); posted more 
than 500 articles countering Daesh narratives in foreign languages on 
ShareAmerica and IIP Digital for messaging use by posts and other USG 
entities; produced five videos to support the C-Daesh Coalition 
workshops; and organized more than a dozen speaker programs on anti-
Daesh messaging and broader CVE themes. IIP has also supported 
TechCamps focused on CVE messaging in Europe and Africa for journalists 
and credible religious and youth voices.
    The Bureau of Conflict and Stabilization Operations (CSO) is 
supporting the Department's efforts to integrate research and analysis 
into CVE programming efforts. CSO has helped launch a new global 
research network on CVE called RESOLVE: Researching Solutions to 
Violent Extremism (RESOLVE) Network. The network will identify the 
local drivers of violent extremism and offer evidence-based policy and 
program recommendations to governments and policymakers at all levels, 
which could include public diplomacy efforts. CSO has also developed 
tools for posts and bureaus to use to assess risk in specific areas or 
monitor CVE programs for their impact, and is helping posts and bureaus 
apply these tools to their interventions.
    Question. One of the Department's countering violent extremism 
public diplomacy programs is the Center for Strategic Counterterrorism 
Communications. We have been concerned the center's effectiveness. Now 
the Department is planning to change to the Global Engagement Center. 
What does this center do and how will this change make it more 
effective?
    Answer. The Global Engagement Center (GEC) will be charged with 
leading the coordination, integration, and synchronization of 
Governmentwide communications activities in order to counter the 
messaging and diminish the influence of international terrorist 
organizations with foreign audiences abroad. The GEC will also build 
partnerships with third parties for message dissemination and develop 
content for campaigns.
    We must have a comprehensive understanding of the audiences we seek 
to influence in order to be successful. Therefore, a primary objective 
of the GEC is to better understand audiences likely to support violent 
extremism, which it intends to accomplish through use of advanced data 
analytics. During fiscal year 2016, it will devote nearly $1.5 million 
to baseline research that will inform our content development. In 
addition, the Center will employ $1.6 million to enhance our 
capabilities to analyze dynamically data derived from social media. 
This data analysis will help us better understand the foreign audiences 
abroad that are most susceptible to influence from violent extremist 
groups, as well as those audiences likely to support U.S. narratives, 
thereby allowing us to more specifically tailor our messaging and 
narrative development and to align our resources accordingly.
    The Center will devote approximately $1.5 million of fiscal year 
2016 funding to support counter-Daesh information campaigns, including 
some managed by foreign partners. The Center also will engage top 
talent from content development sources within the United States and 
abroad in order to make its operations swifter and more agile and 
adaptive. For example, the Center will fund original content created 
both internally and by third parties for use by members of the Counter-
Daesh Coalition; this content will be hosted on the Global Coalition 
Web site.
    Recognizing the strategic value of partners in delivering key 
messages, the Center will provide targeted resources enhancement to 
selected partner organizations across the globe to enable them to 
create and disseminate counter-Daesh content that draws upon relevant 
history and culture and is locally resonant. For example, the Center 
will provide modest additional funding for Arewa24, a major project 
sponsored by the Bureaus of Counterterrorism and African Affairs that 
embeds messaging against violent extremist narratives in general 
entertainment programming. Modest additional funding from the Center 
will deliver Arewa24's award-winning content to audiences of concern in 
several more countries.
    Finally, the new Center will strengthen and deepen the interagency 
coordination commenced by the CSCC, as well as the direct digital 
engagement for CVE purposes in Arabic, Urdu, and Somali that the CSCC 
pioneered in 2010 and will devote approximately $600,000 to enhancing 
the efficiency of this effort.
                          security assistance
    Question. In recent years the administration has requested and 
received substantially increased funding for programs that are intended 
to build the capacity of foreign security forces and are managed by the 
Department of Defense. In many places, particularly in Africa, this has 
led to bilateral relationships that in practice amount to little more 
than train and equip arrangements for foreign security forces, which 
have a dubious track record with respect to the sustainability, 
effectiveness, appropriateness, and value of the investment.
    What is your assessment of the impact of this approach on the 
Department of State's ability to ensure a whole of government, balanced 
approach to U.S. engagement?
    Answer. Security assistance is an important tool for building our 
partners' capacity to address mutual security concerns, and supports 
our foreign policy objectives, but train and equip programs alone 
cannot produce the long-term outcomes we seek. Per the President's 
policy on security sector assistance, the administration has 
highlighted the importance of comprehensive approaches and reaffirmed 
State leadership to ensure a holistic approach to advancing our foreign 
policy objectives. A State lead in this area ensures effective foreign 
policy oversight and the execution of holistic, deliberative country 
and regional strategies; allows for a more careful balance of security 
and other foreign engagement tools; prevents the militarization of 
peacetime activities or the international perception of a militarized 
foreign policy; and avoids the fragmentation of programs that 
complicates planning and leads to unsynchronized programs and 
bureaucratic redundancies.
    However, broad pressure on the International Affairs budget has 
significantly contributed to the expansion of security assistance 
authorities funded out of the National Defense budget. While the 
administration requires the assistance resources to meet its foreign 
policy objectives, the significant growth of foreign assistance 
authorities and funding outside of State hinders our ability to fully 
balance defense, diplomacy, and development efforts and integrate all 
activities abroad into State's whole-of-government foreign policy 
strategies.
    Question. It seems to me that spending tens of millions of dollars 
on equipment and training for a developing country's security forces, 
absent complimentary investments in social and economic programs that 
benefit the people of the country, and commensurate political 
engagement, as appropriate, sends the message that our only concern is 
security today, not stability tomorrow. Do you agree?
    Answer. The Department is concerned both with security today and 
stability tomorrow. This requires a careful balancing and sequencing of 
defense, diplomacy, and development investments. Training and equipping 
without the commensurate investment in institutions and democratic, 
transparent governance generates a perception that security--
specifically military security--outweighs our true interests in secure 
and stable states that prioritize human rights and civilian security. 
We make every effort, in collaboration with USAID, to ensure we are 
investing in needed social and economic programs to help foster long-
term stability.
                     security force accountability
    Question. Last year, your Department and the Department of Defense 
finalized guidance on the process for remediating units and individuals 
of foreign security forces that are deemed ineligible to receive U.S. 
security assistance as a result of having engaged in a gross violation 
of human rights, consistent with the Leahy Law. Remediation, as it is 
called, is concluded when a foreign government takes effective steps to 
bring to justice perpetrators of gross human rights violations. This 
was always the intent of the Leahy Law, to ensure that the U.S. is not 
complicit in such abuses, and to encourage accountability for those who 
are.
    Can you discuss the purpose of this policy and describe how it has 
been implemented so far?
    Answer. State and DOD finalized a joint remediation policy in 2015 
to help ensure that the intent of the law to promote accountability is 
realized. If both Departments determine that the government is taking 
appropriate remediation measures, assistance may be restored, subject 
to the required notification to Congress. Appropriate remediation 
measures include impartial, thorough investigations, prosecutions, and 
punishment.
    Thus far there have been five successful remediation cases: one in 
Mexico, one in Guyana, one in Georgia, and two in Afghanistan.
    Question. What actions has the U.S. taken to encourage and support 
foreign governments as they pursue justice in these cases?
    Answer. The Department of State Leahy law calls for the United 
States to ``assist the foreign government in taking effective measures 
to bring the responsible members of the security forces to justice,'' 
and the U.S. engages with partner nations to ensure that perpetrators 
of gross human rights violations are brought to justice. The Department 
has engaged with multiple partner governments to provide assistance in 
this area. Examples include:

  --U.S. Forces-Afghanistan and the Embassy have engaged the Afghan 
        Government and security institutions to explain the law, its 
        impact, and steps that can be taken to remediate units. Over 
        the past year, we have seen positive actions and have been able 
        to re-engage with two units. In both cases, following Defense 
        Ministry investigations, perpetrators were convicted of murder, 
        and received punishments ranging from death to prison terms of 
        various lengths.
  --U.S. Embassy personnel in Mexico have similarly engaged proactively 
        with the Government of Mexico. In one case, a Mexican army unit 
        was remediated after several members were tried, convicted, and 
        sentenced to prison for rape, sexual abuse, and assault.
  --The State Department is working to ensure training for Iraqi 
        Government stakeholders on the U.N. Convention against Torture 
        and other international standards for the treatment of 
        detainees and suspects.
  --State is also providing assistance to the Iraqi authorities in 
        their efforts to investigate disappearances, including 
        promoting cooperation between the Government of Iraq (GOI) and 
        the Kurdistan Regional Government (KRG) on missing persons; 
        working with authorities to amend the ``Law on the Protection 
        of Mass Graves''; integrating international norms concerning 
        the role and responsibility of states in regard to missing 
        persons in Iraqi legislation and implement legislative 
        requirements under the International Convention for the 
        Protection of All Persons from Enforced Disappearance; 
        providing training, monitoring, and quality checking to Iraqi 
        ministries in the scientific investigation of mass graves and 
        crime scenes. This program also includes support to civil 
        society to develop their capacity to locate and identify the 
        missing, document crimes, and advocate for greater 
        accountability.
    Question. Countries benefit financially when their troops 
participate in U.N. peacekeeping missions, and it is a source of 
national pride. What if governments knew that their troops would be 
prohibited from participating if they do not appropriately punish those 
who commit such crimes? Wouldn't that get governments to finally start 
treating this seriously?
    Answer. Our policy of promoting high performance standards in U.N. 
peacekeeping includes our strong support for the U.N.'s repatriation 
of, and the withholding of reimbursements to, non-performing and poorly 
performing contingents. This policy applies in particular to 
contingents where there is credible evidence of widespread or 
systematic sexual exploitation and abuse, which is an affront to U.S. 
values and interests and undermines local and global support for 
peacekeeping.
    The U.N. Secretary-General has committed to repatriating and to 
withholding reimbursements from contingents where there is a 
demonstrated pattern of SEA or non-response by troop- and police-
contributing countries (T/PCCs) to SEA allegations against their 
personnel. Recently, with our strong encouragement, he ordered the 
repatriation of the entire contingent from the Democratic Republic of 
the Congo assigned to the U.N. peacekeeping mission in the Central 
African Republic, the first time an entire contingent had been sent 
home for misconduct. This contingent was replaced with troops from 
Mauritania.
    We anticipate that this example, and others that might follow, will 
put increased pressure on T/PCCs to investigate and hold their 
personnel to account to avoid the stigma and financial repercussions of 
failing to address SEA allegations against their personnel.
    With the additional capabilities pledged to U.N. peacekeeping as a 
result of the September 2015 Leaders' Summit on Peacekeeping, co-hosted 
by President Obama, the U.N. is building an increased supply of 
trained, prepared, and equipped peacekeepers who will be available to 
replace contingents that are performing poorly or engaged in widespread 
misconduct.
    Question. The prospects for a two-state solution are diminishing--
and the alternative is what? I do not see one, and I wonder if you do?
    Answer. As we have repeatedly made clear, we believe that a two-
state solution is absolutely vital not only for peace between Israelis 
and Palestinians, but for the long-term security of Israel as a 
democratic and Jewish state at peace with its neighbors. In my remarks 
this past December at the Saban Forum, I discussed what the 
alternatives to a two-state solution would actually look like. The 
reality is that there is no other viable option. A one-state solution 
is no solution.
    At this point, the question we must ask is what we can do to 
advance the goal of two states living in peace. The status quo is 
simply not sustainable, and current trends are imperiling the viability 
of a two-state solution. These trends must be reversed in order to 
prevent an untenable one-state reality from taking hold. We continue to 
encourage Israelis and Palestinians to take affirmative steps which we 
think are important to stop the violence, improve conditions on the 
ground and restore confidence in the two-state solution. We will 
continue to work with both sides and key international stakeholders on 
a constructive way-forward on this critical issue.
    Question. What would you tell the next U.S. President that the 
Israeli and Palestinian leadership need to do--what specific actions or 
commitments--before it would be worth another U.S. administration 
expending more time and effort trying to help resolve that seemingly 
intractable conflict?
    Answer. We remain deeply committed to achieving a two-state 
solution but as we have said many times, we are looking for both sides 
to demonstrate a commitment to this goal in both words and deeds.
    We continue to encourage Israelis and Palestinians to take 
affirmative steps which we think are important to stop the violence, 
improve conditions on the ground and restore confidence in the two-
state solution. The Quartet has outlined potential steps on the ground 
that would reverse current trends and resume the Oslo transition in 
ways that would not negatively affect Israel's security, such as 
increasing Palestinian civil authority and strengthening the 
Palestinian economy. The Palestinians must also meet their commitments 
including combatting violence and incitement, improving governance, and 
building their institutions.
    Such steps could start the process of reducing tensions, building 
trust, restoring a measure of hope, and creating some political space 
for the critical decisions that will need to be made. Both Israelis and 
Palestinians need to see a real political process that credibly leads 
to their legitimate aspirations being met. This is what is ultimately 
in the long-term best interest of both sides.
    Question. Can you provide any examples, besides the release of 
Mohamed Soltan after nearly 2 years in prison, of how President Al 
Sisi's government is implementing laws or policies to govern 
democratically, taking consistent steps to protect and advance the 
rights of women and religious minorities, or providing detainees with 
due process--as our law calls for?
    Answer. President Sisi has been an outspoken advocate for advancing 
the rights of women, but the Egyptian Government's implementation of 
laws and policies to promote gender equality has been mixed. The new 
House of Representatives includes 89 women, a substantial increase over 
the 11 in the 2012 parliament, and President Sisi's cabinet of 33 
includes four female ministers. The government launched a strategy to 
end female genital mutilation and cutting (FGM/C), an area in which we 
have seen progress due to the combined effort of the government, civil 
society organizations, and the U.N., although strengthened enforcement 
of laws against FGM/C is needed. The government has passed a new law 
against sexual harassment and launched a strategy to combat violence 
against women, but it has not taken tangible steps to fund or implement 
these laws and policies.
    During the Sisi presidency there have been some positive actions 
and statements to send the signal that Christians are equal members of 
Egyptian society, such his attendance at Coptic Christmas Mass. The 
military completed, at the government's expense, the rebuilding of 26 
of the 78 churches and other Christian buildings burned following the 
removal of the Muslim Brotherhood-led government in July 2013. During 
its limited tenure, the parliament has yet to enact new, 
constitutionally mandated legislation on the construction and 
renovation of Christian churches and the establishment of an 
antidiscrimination commission. There are reports of increased 
prosecutions for blasphemy under the ``denigration of religions'' law, 
and most defendants convicted in such cases are members of religious 
minorities.
    Thousands of activists and opposition members remain in detention. 
We remain concerned about limitations on equal protection and fair 
trial guarantees, including arbitrary arrests, prolonged pre-trial 
detention, military court prosecution of civilians and the use of mass 
trials, which deny the procedural safeguards and fair trial guarantees 
that would conform to Egypt's international human rights obligations. 
We continue to have frank discussions with the Egyptian Government on 
all of these issues.
    Question. In the Sinai, where the Egyptian Government fails to 
provide the Bedouin communities with economic opportunities and is 
carrying out an ineffective military strategy, the terrorist threat is 
growing. Some of the U.S. helicopters and weapons requested for Egypt 
are intended for use there, but the Egyptian Government has refused 
regular access for U.S. officials and the independent media. Do you see 
any sign that they will provide this access, which is necessary for 
purposes of monitoring how our assistance is used?
    Answer. Despite repeated requests to allow U.S. Embassy Cairo 
personnel to visit northern Sinai, the Egyptian Government continues to 
deny access on the grounds that the area is an unsafe combat zone. We 
continue to raise our concerns regarding access at senior levels. We 
are meeting our legal obligations on end use monitoring of U.S. 
equipment being used in Sinai.
    We continue to offer training to increase Egypt's counter-terrorism 
capabilities and have encouraged Egypt to adopt the doctrine and 
tactics of asymmetrical warfare so it can effectively defeat Daesh. An 
important element is the provision of overdue economic development and 
to take every precaution to protect civilians during counterterrorism 
operations to counter Daesh's appeal to the citizens of Sinai.
    Question. Past attempts to pressure North Korea to halt its nuclear 
and ballistic missile programs have failed. They now appear to have the 
ability to land a missile on U.S. territory, and they are presumably 
working to develop the capacity to fit it with a nuclear warhead. Which 
governments are providing the technical and other assistance to North 
Korea to do this, are any of them recipients of U.S. foreign aid, and 
what besides deploying a high altitude missile defense system in South 
Korea do you see as effective tools to stop it?
    Answer. The United States continues to work closely with our 
partners and the international community to address the global security 
and proliferation threats posed by the Democratic People's Republic 
ofKorea (DPRK's) nuclear and ballistic missile programs. This includes 
engaging with governments unilaterally and multilaterally to implement 
U.N. Security Council resolutions 1718, 1874, 2094, and 2270, which 
prohibit the transfer to or from the DPRK of goods, technology or 
assistance related to nuclear, ballistic missile, or other weapons of 
mass destruction-related programs. In addition, we also rely on the 
full suite of relevant U.S. unilateral sanctions measures to impede the 
development of the DPRK's nuclear, missile and conventional weapons 
programs.
    We would be happy to address the full scope of your question in a 
classified setting.
    Question. I commend you for your efforts to open relations with 
Cuba. It was the right decision for the people of both countries. Being 
with you when the American flag was raised again at our Embassy last 
August was one of the most uplifting events I have had the privilege to 
witness.
    One of the most promising changes I have seen in Cuba is the 
growing number of private entrepreneurs. I have met several of them, 
and they are no different from your typical Mom and Pop business in the 
U.S.--except their biggest competitor is the Cuban Government.
    If you had the funds and the support of Congress, what could the 
U.S. do to help support private entrepreneurs in Cuba?
    Answer. We believe the most effective way for the United States to 
support private entrepreneurs in Cuba would be for the Congress to lift 
the embargo and allow U.S. businesses and individuals to interact 
freely with Cuban small business owners.
    Notwithstanding the limits of the embargo, our policy of engagement 
has further empowered a Cuban private sector that now employs at least 
one in four Cuban workers. The number of self-employed Cubans has grown 
remarkably, from 145,000 in 2009 to approximately 500,000 in 2015. The 
private sector also includes a number of agricultural and non-
agricultural cooperatives.
    Treasury and Commerce regulations now allow people in the United 
States to send unlimited remittances in support of private businesses, 
provide microfinance and entrepreneurial training activities, and 
export a broad range of materials and supplies to Cuban entrepreneurs. 
Our private sector has a lot to offer in this regard. Humanitarian 
projects that provide educational training for budding Cuba 
entrepreneurs are now authorized, and we encourage U.S. entities to 
assist in providing such support. A more robust presence at our Embassy 
would enable U.S. diplomats to support entrepreneurs more directly. 
Full funding for full Embassy operation is needed to provide those 
programs.
    Just as we are doing our part to remove impediments that have been 
holding Cuban citizens back, we are urging the Cuban Government to make 
starting and running a small business less challenging. Steps the Cuban 
Government could take include enabling non-state actors to import and 
export directly (vice through a Cuban state entity), authorizing more 
individual business activities beyond those 201 currently authorized, 
facilitating more financing opportunities for entrepreneurs, and easing 
a progressive tax on the hiring of employees that deters business 
growth.
    Question. Your fiscal year 2017 budget request--for I believe the 
third or fourth year--includes a provision on consular notification 
compliance. This has to do with the right of criminal defendants under 
the Vienna Convention to be informed of their right to consult with 
their consulate if they are arrested in the United States. The same 
right is provided to American citizens if they are arrested in a 
foreign country, where they may not speak the language, understand the 
legal system, or know how to obtain a lawyer. They need the help of our 
embassies. What difference does it make if we continue to fail to 
address this?
    Answer. Passing the Consular Notification Compliance Act is a 
priority for the administration. Compliance with our legal obligations 
related to consular notification and access ensures our ability to 
protect U.S. citizens traveling and working abroad, including members 
of our Armed Forces and their families.
    The United States is severely hampered in its efforts to ensure 
that other countries respect their obligations under the Vienna 
Convention on Consular Relations when U.S. citizens are detained abroad 
if we do not respect our own obligations when foreign nationals are 
detained in the United States. Where one country, especially an 
influential country such as the United States, is seen to take a 
cavalier approach toward its legal obligations, other countries can be 
expected to take a cavalier approach to theirs, particularly when U.S. 
citizens are involved.
    The protection of U.S. citizens will always be a priority, and it 
is important that we can continue to rely on the protections of the 
Vienna Convention so that our consular officers can continue to provide 
essential consular assistance to our citizens abroad. In fiscal year 
2015, our consular officers conducted more than 9,392 visits with U.S. 
citizens, who were arrested overseas. Our consular officers make a real 
difference in the lives of thousands more U.S. citizens detained abroad 
each year across the globe by ensuring that they have adequate food, 
medical care, access to an attorney, and protection from abuse and 
mistreatment while in prison.
    Passage of the Consular Notification and Compliance Act is 
essential to safeguarding our ability to provide these services to U.S. 
citizens detained abroad.
    Question. Last year we appropriated $750 million to support the 
Plan for the Alliance for Prosperity in Central America. You have asked 
for that amount for fiscal year 2017, which I support. Each of these 
countries faces shocking levels of violence, which has contributed to 
the surge in migration to the U.S., and corruption is a way of life for 
their governments.
    For example, in Honduras, journalists, civic activists, human 
rights defenders, children and adolescents are among the hundreds who 
are killed each week. A recent agreement with the OAS to address 
organized crime, corruption, and impunity is a weak version of its 
counterpart in Guatemala--due to resistance from the same Honduran 
Government that claims to want to strengthen the rule of law. Do you 
agree that we need to see real evidence that these governments are 
serious about addressing these problems?
    Answer. We have learned through Plan Colombia and the Merida 
Initiative that sustained international assistance that balances 
security, governance, and prosperity, combined with demonstrated 
political will by regional governments and their respective private 
sectors and civil societies, has the greatest potential to affect 
positive change. The Northern Triangle governments of El Salvador, 
Guatemala, and Honduras will devote $2.6 billion in their own funding 
in 2016 to support the Plan for the Alliance for Prosperity.
    In Honduras, we support sustainable, credible, and effective 
mechanisms that both enact institutional reforms to weed out systematic 
corruption and provide support to justice actors who transparently 
investigate and prosecute cases of corruption. No single mechanism can 
solve Honduras' deeply embedded corruption problems.
    The OAS Mission Against Corruption and Impunity in Honduras 
(MACCIH), if properly funded, supported, led, and leveraged, can be an 
important element in a more comprehensive, longer-term effort to tackle 
corruption and improve governance and rule of law in Honduras. We will 
be closely following the implementation of MACCIH to help ensure it 
realizes these aims.
    Furthermore, we provide assistance to the Honduran Government 
focused on building its capacity to combat corruption and increase 
government transparency. Many of these programs support the 
government's work to root out corruption and reform the Honduran 
National Police, as well as to increase the capacity of the Public 
Ministry to successfully prosecute cases on corruption. The Honduran 
Government's seriousness in these initiatives is imperative to 
successfully address these issues.
    Through cooperation with the Guatemalan Attorney General's office, 
the U.N.'s International Commission Against Impunity in Guatemala 
(CICIG) continues to root out corruption at all levels of government. 
Recent successes include the February arrests of tax authority 
personnel accused of providing illegal tax refunds. On April 18, 
President Morales requested CICIG's extension through 2019, reaffirming 
his promise to institute a ``zero tolerance for corruption.''
    El Salvador has demonstrated political will to combat corruption. 
The Salvadoran Government has collected $17 million from the special 
contribution tax for public security as of early May, enabling the 
Attorney General (AG) to hire 100 prosecutors and support vocational 
training for youth in high crime areas. In addition, the AG 
strengthened the Salvadoran Anti-Corruption Unit, responsible for 
investigating cases involving corrupt public officials, by implementing 
an anti-corruption capacity-building program jointly with the United 
Nations Office on Drugs and Crime (UNODC). Demonstrating its intent to 
take on the hardest cases, this Anti-Corruption Unit opened an 
investigation in March against a judge suspected of corruption, and 
filed criminal charges against him.
    Question. For many years under the George W. Bush and Obama 
administrations, and despite multilateral sanctions, Iran made steady 
progress towards building a nuclear weapon.
    After devoting so much of your own time to the negotiations with 
Iran to halt their nuclear weapons program, do you see any signs that 
the Iranian Government is interested in improving relations with the 
United States and other Western countries for any purpose other than 
increasing its access to foreign markets?
    Answer. The Joint Comprehensive Plan of Action (JCPOA) was a 
significant achievement that, especially now that the deal is being 
implemented, removes the threat of an Iranian nuclear weapon and 
contributes to regional stability. Our experience negotiating the JCPOA 
demonstrated that engaging directly with the Iranian government on a 
sustained basis can create a window to try to resolve important issues 
with Iran. For example, we engaged with Iran in a humanitarian dialogue 
regarding consular issues that resulted in the release of four U.S. 
citizens held there unjustly.
    While we continue to have strong disagreements with Iran and seek 
to counter its destabilizing activities in the region, we also see that 
diplomacy with Iran can work. This is why we are talking to all key 
regional players, including Iran, about the conflict in Syria. This 
engagement is clearly in our interest. However, it is up to Iran to 
decide whether or not to continue to pursue more constructive relations 
with not just the United States, but with the rest of the world as 
well.
    We are not trying to predict the internal dynamics in Iran. 
Ideally, we would see a situation in which Iran, seeing sanctions 
reduced, would start focusing on its economy, training its people, 
constructively engaging with the world community, and lessening its 
provocative activities in the region. If Iran chooses to build on the 
constructive outcomes of the nuclear deal, it would lead to a better 
future for the Iranian people.
    Question. The number of State Department and interagency personnel 
is decreasing, but the costs of construction and security continue to 
rise. How does this make sense?
    Answer. Afghanistan is and will remain a dangerous place for U.S. 
diplomats and a costly place to do business. As we reduce staffing in 
Afghanistan and consolidate operations in Kabul, we keep a constant eye 
on how we can do our work effectively in the evolving security 
environment, a process that includes looking for ways to lower the 
number of staff in the field and off-shoring certain functions wherever 
possible.
    Security requirements magnify the challenges to our diplomacy and 
greatly increase the support staff required for our mission. In order 
to maintain a security posture congruent with current and future 
security concerns, Diplomatic Security and the Bureau of Overseas 
Buildings Operations have implemented additional security protocols and 
installed upgraded physical and technical security measures. As we move 
toward self-sustainment, Embassy Kabul is developing platforms closer 
to the Embassy compound to better accommodate life support and security 
contractors. Additionally, completed and ongoing construction projects 
are providing housing and office space that allows us to consolidate 
operations formerly distributed among multiple facilities across 
Afghanistan, ensuring the safest, most effective platform possible to 
enable our work.
    Our diplomatic presence in Kabul is vital to U.S. national security 
interests and to maintaining the viability of the Afghan Government. 
There is no substitute for direct, face-to-face engagement by our 
diplomats, assistance experts, and military to influence policy makers, 
oversee accountability of assistance programs, and build Afghanistan's 
ability to defend its own territory and govern effectively, so that it 
can never again be used as a safe haven by terrorists to threaten the 
United States.
    Question. In 2003, a plan formulated by former Secretary of State 
James Baker was accepted by the Polisario and unanimously endorsed by 
the U.N. Security Council, but rejected by Morocco. Do you see any hope 
for resolving this dispute?
    Answer. Resolution of the outstanding dispute over the status of 
Western Sahara would greatly advance the prospects for greater regional 
cooperation and integration. Unfortunately, the parties have neither 
engaged each other in direct negotiations nor offered new substantive 
proposals for resolving the conflict since 2007.
    We remain committed to the U.N.'s efforts on Western Sahara, 
including those led by Personal Envoy of the Secretary-General 
Christopher Ross, to achieve a peaceful, sustainable, and mutually 
agreed solution to the conflict.
    Question. What about at least expanding the mandate of the U.N. 
peacekeepers to include human rights monitoring, which this 
subcommittee has called for?
    Answer. The United States fully supports current efforts by the 
U.N. Secretary-General and his Personal Envoy for Western Sahara, 
Ambassador Christopher Ross, to find a peaceful, sustainable, and 
mutually agreed solution on the Western Sahara conflict. The United 
States considers the Moroccan autonomy proposal for Western Sahara to 
be a serious, realistic, and credible proposal--it represents a 
potential approach that could satisfy the aspirations of the people in 
the Western Sahara to run their own affairs in peace and dignity. The 
United States has consistently encouraged the parties to work with the 
United Nations and with each other, in a spirit of flexibility and 
compromise, to find a mutually acceptable settlement.
    The U.N. Mission for the Referendum in Western Sahara (MINURSO) 
plays a vital role in monitoring the ceasefire and military agreements 
and in providing insights into of the situation on the ground in 
Western Sahara. Its mission remains critical to the maintenance of 
peace and security in the territory until the parties reach a just, 
lasting, and mutually acceptable political solution, which will provide 
for the self-determination of the people of the Western Sahara.
    Addressing the human rights situation in Western Sahara, as well as 
in the Sahrawi refugee camps, remains of utmost importance. We continue 
to engage with all parties on the human rights situation in the 
territory and reiterate our support for continued visits from the U.N. 
Human Rights Council Special Rapporteurs and the Office of the High 
Commissioner for Human Rights (OHCHR) to the region. We appreciate the 
Polisario's standing invitation for OHCHR to visit the refugee camps, 
and note the OHCHR visits to Tindouf in August 2015 and to Western 
Sahara in April 2015.
    Question. What difference does it make for the United States or for 
Israel if we contribute to UNESCO?
    Answer. The administration continues to oppose unilateral actions 
in intergovernmental bodies that circumvent outcomes that can only be 
negotiated between Israel and the Palestinians, including Palestinian 
statehood. However, it does not serve the U.S. national interest to 
respond to Palestinian efforts or those of their allies by withholding 
our contributions to U.N. specialized agencies.
    Withholding of U.S. contributions could hinder the U.N. specialized 
agencies from carrying out work we value highly, limit U.S. influence 
in these organizations, and undermine our ability to pursue important 
U.S. objectives--such as working against anti-Israel resolutions and 
initiatives.
    With respect to UNESCO, U.S. leadership at the organization is 
critical in combatting anti-Israel bias, promoting freedom of 
expression, countering and preventing violent extremism, protecting 
cultural heritage, and supporting implementation of the 2030 Agenda for 
Sustainable Development.
    For example, during the 39th UNESCO General Conference (November 
2015), the United States secured the removal of inflammatory language 
in an Arab Group resolution on the Western Wall. The United States 
consistently is the only reliable ``no'' vote on Palestinian 
resolutions, and we continue to expand the number of member states who 
have supported our position in defense of Israel in key resolutions. In 
addition, the United States has consistently been a primary supporter 
for UNESCO's unique Holocaust education program, which due to budget 
shortfalls is at risk of ending.
    Because of specific benefits of full participation in UNESCO, the 
Department continues to seek congressional support for legislation that 
would provide the administration with the authority to waive 
restrictions that currently prohibit paying U.S. contributions to 
UNESCO.
    Over our objections, the member states of UNESCO voted to admit the 
Palestinians as a member state in 2011. The United States has not paid 
any part of the U.S. assessments to UNESCO for calendar years 2011 
through 2016 as required by current law. As a result of our arrears, 
the United States lost its vote in the UNESCO General Conference in 
2013. The fiscal year 2017 request includes transfer authority to pay 
up to $160 million (approximately 2-year's worth) of outstanding 
assessments to UNESCO, should such a waiver be enacted.
    Question. How does our strategy in Yemen account for avoiding 
civilian casualties and ensuring that humanitarian aid reaches those in 
need?
    Answer. We are deeply concerned by the devastating toll of the 
conflict in Yemen, both in terms of civilian casualties and the dire 
humanitarian situation that Yemen faces.
    We take accounts of civilian casualties due to the ongoing 
hostilities in Yemen very seriously. We have urged all parties to 
exercise restraint, take all feasible precautions to reduce the risk of 
harm to civilians, and comply with their obligations under 
international humanitarian law, including with respect to 
differentiating between civilian objects and military objectives.
    In addition to these diplomatic efforts, U.S. military officers 
regularly meet with senior coalition military leadership and provide 
recommendations to promote compliance with the Law of Armed Conflict 
and to minimize civilian casualties. We continue to call on the 
coalition to investigate all credible reports of incidents of civilian 
casualties allegedly caused by airstrikes and to share the results of 
these investigations publicly. Thus far, the Saudis have been receptive 
to our efforts to engage with them on ways to reduce civilian 
casualties in Yemen, and we will continue to monitor the effects of our 
engagement. Saudi Arabia took responsibility for an October strike that 
damaged a Doctors without Borders facility and announced the formation 
of a commission in January to look into credible reports of incidents 
that resulted in civilian casualties, both of which we consider 
positive steps. We continue to press the Saudis to follow through on 
their commitment to establish this commission and to make the results 
of investigations public.
    To help address Yemen's dire humanitarian situation, the United 
States provided nearly $179 million in humanitarian assistance in 
fiscal year 2015, which supports emergency food distribution, safe 
drinking water, improved sanitation, emergency shelter, life-saving 
medical care, nutrition services, and protection for vulnerable 
populations in the region. We continue to call on all sides to allow 
safe and unfettered access to humanitarian aid workers so that they can 
reach populations in need. We also recently initiated a program to 
support a $2 million contribution toward the U.N. Verification and 
Inspection Mechanism (UNVIM) in order to screen ships for illicit cargo 
while ensuring vital food, medical supplies, and fuel are delivered. By 
facilitating quicker and more predictable entry of legitimate 
commercial shipments into Yemen, this mechanism will promote economic 
and political stability in Yemen and the region and also help alleviate 
the ongoing humanitarian crisis.
    Ultimately, there is no military solution to this conflict. We are 
working diligently to support the U.N. Special Envoy in his efforts to 
secure a cessation of hostilities and to resume negotiations.
    Question. In the fiscal year 2016 Omnibus we provided Tunisia with 
more aid than the administration requested. What specific steps has the 
Tunisian Government taken to ensure a more open and transparent economy 
and tackle corruption?
    Answer. We share Congress' recognition of the importance of 
Tunisia's example of democratic governance and how important combating 
corruption is to that effort. The Government of Tunisia recognizes that 
important and decisive steps must be taken to fight corruption in order 
to fulfill the aspirations of the 2011 revolution. The Tunisian 
Government has laid out an impressive Open Government Partnership plan 
and is implementing it. Additionally, in January, Prime Minister Essid 
created a ministry to improve public governance and fight corruption. 
The government is currently standing up that ministry. In late 2015, 
Parliament adopted the Competition and Prices Law to increase 
transparency and improve regulation. The government is working on a 
decentralization law that will, among other things, seek to increase 
transparency and undercut corruption. The Ministry of Finance, with our 
support, has done important work on streamlining and regularizing tax 
and customs collection. The Tunisians recognize that more needs to be 
done and we will continue to support these efforts.
    Question. What impact do you expect the $74 million in economic aid 
you have requested for Tunisia for fiscal year 2017 to have in 
achieving these kinds of reforms?
    Answer. Our fiscal year 2017 funding will support Tunisian efforts 
to strengthen democratic institutions at national and local levels by 
creating mechanisms for greater transparency and accountability as the 
Government of Tunisia implements decentralization. We will also support 
the Tunisian Government's implementation of critical procedural, 
institutional, and legal reforms tied to enhanced transparency, good 
governance, improved business environments, and decentralization as 
well as parliamentary oversite of the government. This will include 
continued support for our successful programs supporting tax and 
customs reform. Programming will also strengthen the capacity of key 
stakeholders such as civil society to serve as a watchdog over 
Tunisia's Government and to hold it accountable to reform timetables.
    Question. Your budget request for refugees and disaster assistance 
is a bit higher than your request last year, but it is $1.1 billion 
dollars below the fiscal year 2016 Omnibus.
    Given that there are more refugees today than at any time in recent 
history, and knowing what is happening in Iraq and Syria and the 
hardships refugees are facing in Lebanon, Jordan, and Turkey--as well 
as in Africa--how do you explain cutting these programs?
    Answer. The administration remains dedicated to providing strong 
support for humanitarian programs worldwide. The President's fiscal 
year 2017 request reflects the administration's ongoing commitment to 
these programs. The fiscal year 2017 request includes $6.156 billion 
for humanitarian assistance, including $1.957 billion for the 
International Disaster Assistance Account, $1.35 billion for Food for 
Peace Title II, $2.799 billion for the Migration and Refugee Assistance 
Account, and $50 million for the Emergency Refugee and Migration 
Assistance Fund. The overall fiscal year 2017 request for humanitarian 
assistance is $511 million higher than the fiscal year 2016 request. In 
concert with fiscal year 2016 resources, the request will enable the 
U.S. Government to respond to the dire humanitarian situation resulting 
from the conflicts in Syria, South Sudan, Iraq, Ukraine, Yemen, as well 
as the humanitarian needs resulting from El Nino.
    Thanks to generous support from the U.S. Congress, the U.S. 
Government is the largest humanitarian donor in the world, including to 
the crisis in Syria. We plan to continue our robust support in fiscal 
year 2016 and fiscal year 2017 while urging other donors, including the 
Gulf nations, to contribute to these ongoing emergencies. We will 
continue to ensure that we are using funds as efficiently as possible 
in order to meet current and unforeseen needs.
    Question. There are signs that negotiations to reunify the island 
could finally produce results. Is this wishful thinking, or do you 
agree?
    Answer. This is the best chance in decades for Cypriots to reunify 
their island as a bizonal, bicommunal federation. Republic of Cyprus 
President and Greek Cypriot leader Nicos Anastasiades and Turkish 
Cypriot leader Mustafa Akinci continue to make progress on key elements 
of the settlement in the Cypriot-led, U.N.-facilitated talks. The two 
leaders, who are from the same hometown of Limassol, have developed a 
strong rapport and remain committed to achieving a solution. Many 
Cypriots on both sides of the island want to see a resolution to the 
long-standing division of their island. In addition, senior Turkish 
officials have publicly and privately indicated their support for a 
settlement. The United States remains willing to assist the process in 
any way the parties find useful.
    Question. Under President Erdogan, censorship is on the rise in 
Turkey. According to the State Department Human Rights Report 
``[h]undreds of journalists faced criminal charges, many of them 
multiple counts, for violations of the criminal code including 
denigrating `Turkishness' or influencing the outcome of a trial as well 
as offenses related to the anti-terror law.'' These prosecutions are an 
effort to stifle dissent.
    What steps you are taking to press President Erdogan to halt these 
abuses?
    Answer. We have expressed our deep concerns about the erosion of 
media freedom in Turkey in high-level discussions with Turkish 
officials as well as public statements at the highest levels. During 
Vice President Biden's trip to Istanbul in late January, he explicitly 
called on Turkey to uphold democratic principles and to protect freedom 
of expression. In the wake of recent Turkish Government actions to use 
appointed trustees to shut down or interfere with the editorial 
operations of media outlets critical of the government , we made our 
views very clear that a democratic society should respect the 
expression of the full range of opinions, rather than silencing them.
    We continue to engage the Turkish Government to encourage it to 
uphold the universal democratic values enshrined in Turkey's 
constitution, including freedom of speech, freedom of the press, due 
process and equal treatment under law.
                                 ______
                                 
             Questions Submitted by Senator James Lankford
    Question. For fiscal year 2017, you requested $250 million for the 
Green Climate Fund, which now takes over where the Strategic Climate 
Fund and Clean Technology Fund left off. Do you have a written 
evaluation to quantify the success and effectiveness of the Green 
Climate Fund?
    Answer. The Green Climate Fund (GCF) Board, of which the United 
States is a member, approved its first set of projects in November 
2015. The GCF will require regular and transparent reporting on results 
for the projects it finances and report this information to GCF Board 
members. In addition, individual Board members will have the ability to 
require the GCF Secretariat to submit other regular and ad-hoc reports 
to the Board.
    The GCF independent evaluation unit will conduct evaluations of the 
effectiveness of GCF projects. The GCF will require fiduciary standards 
and social and environmental safeguards that are among the strongest of 
all multilateral funds.
    Question. How are you going to evaluate the success and 
effectiveness of the $750 million Congress is providing as part of the 
Alliance for Prosperity in the Northern Triangle? Please be specific 
about the metrics for success and how programs are evaluated in each 
area you are targeting, such as judicial, prison, tax collection, drug 
interdiction, criminal justice and security sector reform, etc. In 
addition, what steps are you taking to be transparent and accountable 
to the taxpayer? Are you going to publish how much money will be 
awarded to faith-based non-governmental organizations (NGOs) and other 
American organizations?
    Answer. U.S. support to Central America under the U.S. Strategy for 
Engagement in Central America programmatically aligns in areas of 
strategic overlap with the Alliance for Prosperity. The Department's 
monitoring and evaluation activities regularly provide information to 
guide the program development, design, and implementation of all 
assistance implemented under the three lines of action of the Strategy: 
prosperity, governance, and security.
    Under the Central America Regional Security Initiative (CARSI), the 
Department and USAID have established successful programming models 
that are being replicated throughout communities across Central 
America. Efforts to institutionalize modern policing techniques within 
Central American law enforcement agencies include data-collection tools 
to target law enforcement presence in underserved communities and those 
where crime rates are the highest, advancement of police 
professionalization and internal affairs, training on intelligence-led 
policing, criminal investigations, operations and officer safety, and 
certification of institutional practices and police academy curricula. 
In areas where we have made U.S. assistance investments, particularly 
through CARSI, we have seen reductions in important indicators of crime 
and violence, such as homicides. We are now replicating successful 
interventions.
    USAID seeks to contribute to regional evidence and data collection 
for each of the Strategy's lines of action. To do this, USAID develops 
strategy- and project-level monitoring, evaluation, and learning plans 
that make it possible to establish baselines and track the status of 
programs it implements. These plans also outline what evaluations and 
other types of analyses are needed to assess progress and any needed 
adaptations in order allocate resources appropriately. For example, 
under the prosperity pillar, we track our efforts to increasing 
employment and education for citizens by measuring dollar value of 
domestic and exports sales of assisted firms, number of jobs attributed 
to our programs, and the number of out-of-school youth enrolled in our 
education programs.
    We coordinate closely with our Central American partners to 
leverage their contributions to our shared efforts. As we implement the 
Strategy we will adhere to Federal guidelines to solicit proposals for 
programming in a transparent and competitive manner. Open competition 
opportunities can be found through the public Web sites www.grants.gov 
and www.fbo.gov.
    We intend to comply fully with the fiscal year 2016 reporting 
requirements for Central America and U.S. Government transparency 
requirements. Information about the Department's foreign assistance 
programs, including those involving Central America, is available on 
the public Web sites www.usaspending.gov and www.foreignassistance.gov.
    Question. As you, know, Mexico's poppy growth has grown over the 
last several years, and heroin is pouring into the United States. Poppy 
fields in Mexico are easily identifiable from the air--everyone knows 
where the poppies are being grown. How are we working with the 
Government of Mexico to (A) interdict drugs and traffickers crossing 
the U.S.-Mexico border and (B) eradicate poppy fields in Mexico? Please 
be descriptive about the process and extent of your department's 
interaction with the Mexican Government on this issue.
    Answer. Our bilateral dialogue with the Government of Mexico on 
counternarcotics, and specifically on heroin, has led to enhanced 
collaboration on this critically important issue. The Bureau of 
International Narcotics and Law Enforcement Affairs (INL), under the 
Merida Initiative, is working with the Government of Mexico to help 
build the capacity of Mexico's law enforcement and rule of law 
institutions to disrupt drug trafficking organizations (DTOs) and to 
stop the flow of heroin and other drugs from Mexico to the United 
States. This assistance includes training and capacity building for 
police, enhancing Mexico's interdiction capabilities through the 
donation of non-intrusive inspection equipment (NIIE) and support for 
canine units, and assistance with Mexico's transition to an accusatory 
justice system. INL is also augmenting Mexico's capacity to identify 
and dismantle clandestine drug labs.
    INL support to Mexican law enforcement agencies has augmented their 
ability to coordinate with U.S. law enforcement agencies along the 
U.S.-Mexico border. Merida Initiative funding has provided the Mexican 
Government with the communications equipment and technical assistance 
to enable the Department of Homeland Security's Customs and Border 
Protection (CBP) and the Mexican Federal Police to conduct coordinated 
patrols of our shared border. Merida-supported implementation of the 
Cross Border Secure Communications Network and Cross Border 
Coordination Initiative provides direct communication between CBP 
Sector Offices, Federal Police, and State C4 Command and Control 
Centers at 10 locations along our shared border. INL is also working in 
partnership with CBP to provide training to Mexican Federal Police 
officers assigned to the northern border region.
    The United States and Mexico are working to increase communication 
and information sharing on the topic of heroin and methamphetamine. In 
addition to discussions at high level security cooperation meetings, in 
the last year INL funded bilateral heroin and methamphetamine seminars, 
which brought together leading experts from both countries to share 
information and strategies. We will continue to pursue additional ways 
in which we can augment support for Mexico's counter-heroin efforts, 
including in the area of poppy eradication.
    Question. Do you have insight into how the Palestine Liberation 
Organization (PLO) transfers money, which banks, and the role of the 
Palestine National Fund, and any other financial nodes? Please provide 
a full accounting of what we know about the PLO budget.
    Answer. Since the creation of the Palestinian Authority (PA) in 
1994, the PA has assumed responsibility for governing parts of the West 
Bank and Gaza ceded to it as part of the Oslo Accords, while the PLO 
has directed its resources towards achieving Palestinian statehood. We 
understand the 2015 PLO budget to be $206 million. This budget is used 
to support the PLO's political agenda, including the provision of 
assistance to Palestinians living in refugee camps abroad and 
supporting PLO missions overseas.
    According to media reports, the PLO budget is funded in part by the 
Palestinian National Fund (PNF). The PNF is led by Ramzi Khoury, a 
close associate of PLO Chairman Mahmoud Abbas. The total amount of the 
PNF is unknown, and its actions opaque.
    We would be happy to brief you and your staff on greater detail in 
a classified setting.

                          SUBCOMMITTEE RECESS

    Senator Graham. The subcommittee stands in recess.
    [Whereupon, at 3:58 p.m., Wednesday, February 24, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]
</pre></body></html>
